Commodity Futures Trading Commission




     Agency Financial Report


            F i s c a l   Y e a r

               2 01 1
               COMMODITY FUTURES TRADING COMMISSION
                                                  Gary Gensler
                                                   Chairman
                                                 Tony Thompson
                                                Executive Director
                                                  Mark Carney
                                              Chief Financial Officer
                                                 November 2011

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While permission
   to reprint this publication is not necessary, the citation should be: Commodity Futures Trading Commission,
                              FY 2011 Agency Financial Report, Washington, D.C., 20581.
          All photographs in this document are proprietary and prior permission from the photographer
                           is required for any use or reproduction of the photographs.
Commodity Futures Trading Commission
    Agency Financial Report


               F i s c a l   Y e a r

                   2 01 1




 In the Tradition of Quality Reporting, the Commodity

   Futures Trading Commission Proudly Presents the

           FY 2011 Agency Financial Report
        COMMODITY FUTURES TRADING COMMISSION




                                                                     Best in Class
                                                                     for Analysis of Financial
                                                                       Position and Results


           Association of Government Accountants (AGA) Awards the

          Certificate of Excellence in
           Accountability Reporting
            In recognition of your outstanding efforts in preparing the
           Commodity Futures Trading Commission Performance and
        Accountability Report for the fiscal year ended September 30, 2010




      League of American Communications Professionals (LACP) Awards the

          Platinum 2010 Vision Award
    In recognition of your outstanding efforts in preparing the Commodity Futures
Trading Commission Performance and Accountability Report for the fiscal year ended
 September 30, 2010. Awarded platinum in the Government classification, and
    received overall ranking of 82 out of more than 5,000 total entries worldwide.
  Fiscal Year 2011 Commissioners




Back row from left; Scott D. O’Malia, Commissioner; Jill E. Sommers, Commissioner; Bart Chilton, Commissioner

Front row from left; Michael V. Dunn, Commissioner; Gary Gensler, Chairman




                                                                                                CFTC            1
                                             Table of Contents

    A Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
    FY 2011 Commissioners.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
    How This Report is Organized.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16


M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
    Commission at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
    Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35
    Financial Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
    Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
    Forward Looking – Future Business Trends and Events .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54


FINANCIAL SECTION
    A Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58
    Limitations of Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
    Principal Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60
    Notes to the Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65
    Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78


O T H E R A C C O M P A N Y I N G I N F O R M AT I O N
    Inspector General’s FY 2011 Assessment .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 82
    Summary of Audit and Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 86


APPENDIX
    Glossary of Abbreviations and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 88




2       CFTC
   Gary Gensler, chairman of the Commodity
   Futures Trading Commission speaks at the
George Washington University Law School on
  October 23, 2009 in Washington, DC. The
   law school held a symposium on regulatory
reform and the response to the financial crisis.
                     (Photo by Mark Wilson/Getty Images)




                                                           A Message from
                                                           the Chairman


                                                           I        am pleased to present the Agency Financial Report
                                                                    for Fiscal Year 2011. It chronicles a critical time in
                                                           the history of the Commodity Futures Trading Commission
                                                           (CFTC) as the agency works to implement the historic Dodd-
                                                           Frank Wall Street Reform and Consumer Protection Act
                                                           (Dodd-Frank Act).


                                                           Three years ago, the financial system failed, and the financial
                                                           regulatory system failed as well. We are still feeling the after-
                                                           shocks of these twin failures.

                                                           There are many lessons to be learned from the crisis.
                                                           Foremost, when financial institutions fail, real people’s lives
                                                           are affected. More than eight million jobs were lost, and the
                                                           unemployment rate remains stubbornly high. Millions of
                                                           Americans lost their homes. Millions more live in homes
                                                           that are worth less than their mortgages. And millions of
                                                           Americans continue struggling each day to make ends meet.

                                                           Secondly, it is only with the backing of the public sector that
                                                           many financial institutions survived the 2008 crisis.            A
                                                           perverse outcome of the crisis may be that people in the
                                                           markets believe that a handful of large financial firms will –
                                                           if in trouble – have the backing of taxpayers. But when chal-
                                                           lenges to firms arise, it is critical that taxpayers are not forced
                                                           to pick up the bill – financial institutions should be free to
                                                           fail.

                                                           Third, the financial system is very interconnected – both
                                                           here at home and globally. When one financial institution




                                                                                                             CFTC           3
fails or comes under significant stress in the markets, other       American public; that they are transparent, open and
financial institutions and our economy also are put at risk.        competitive; and that they do not allow risk to spread
                                                                    through the economy.
Lastly, while the crisis had many causes, it is evident that
swaps played a central role. Swaps added leverage to the            The CFTC has substantially completed the proposal phase
financial system with more risk being backed by less capital.       of the rule-writing process required by the Dodd-Frank Act.
They contributed, particularly through credit default swaps,        We held 20 public meetings and issued more than 50
to the bubble in the housing market. They contributed to a          proposed rules on the many important areas of reform
system where large financial institutions were thought to be        called for by the new law, including transparency, clearing,
not only too big to fail, but too interconnected to fail. Swaps     market integrity and regulating swap dealers.
– developed to help manage and lower risk for end-users –
                                                                    The CFTC has benefited from significant public input
also concentrated and heightened risk in the financial system
                                                                    throughout this process. We have received more than 25,000
and to the public.
                                                                    comment letters. CFTC staff and Commissioners have met
                                                                    more than 1,100 times with market participants and
Dodd-Frank Reform                                                   members of the public to discuss the rules, and have held
                                                                    more than 600 meetings with domestic and foreign regula-
In 2010, Congress and the President came together to pass
                                                                    tors. We also have conducted 14 public roundtables on
the Dodd-Frank Act. The law gave the Commodity Futures
                                                                    Dodd-Frank.
Trading Commission (CFTC) oversight of the $300 trillion
domestic swaps market, a market so big there are now more           This summer, the agency turned the corner and began final-
than $22 of swaps for every dollar of goods and services            izing rules to make the swaps marketplace more open and
produced in the U.S. economy. At such size and complexity,          transparent for participants and safer for taxpayers. To date,
it is essential that these markets work for the benefit of the      we have finished 18 rules, and we have a full schedule of
                                                                    public meetings into next year.



                                                                    Promoting Transparency
                                                                    The Dodd-Frank Act will bring needed transparency to the
                                                                    swaps markets. The more transparent a marketplace is, the
                                                                    more liquid it is, and the more competitive it is. When
                                                                    markets are open and transparent, price competition is facil-
                                                                    itated, and costs are lowered for companies and their
                                                                    customers. Transparency shifts information from deriva-
                                                                    tives dealers to the public, which helps promote economic
    WASHINGTON - JULY 18: (2nd L-R) Chairman of the
                                                                    activity throughout the entire economy.
    U.S. Commodity Futures Trading Commission Gary Gensler,
    Chairman of Federal Reserve Board Ben Bernanke, and U.S.
                                                                    To promote transparency, we have completed rules that, for
    Secretary of the Treasury Timothy Geithner chat at the end of
    the open session of the Financial Stability Oversight Council   the first time, give regulators and the public specific infor-
    (FSOC) meeting July 18, 2011 at the Treasury Department in      mation on the derivatives market’s scale and risk. These
    Washington, DC. The meeting was focused on the one-year anni-   rules will require large traders to give the CFTC data about
    versary of the Dodd-Frank Wall Street Reform and Consumer
                                                                    their swaps activities and establish swap data repositories,
    Protection Act. (Photo by Alex Wong/Getty Images)
                                                                    which will gather information on all swaps transactions. By



4        CFTC
contrast, in the fall of 2008, there was no required reporting
about swaps trading.

Moving forward, we are working to finish rules relating to
the specific data that will have to be reported to regulators.
These reforms will provide a window into the risks posed by
the system so regulators can effectively police the markets
for fraud, manipulation, and other abuses. We are also
looking to finalize real-time reporting rules, which will give
the public critical information on transactions – similar to
what has been working for decades in the securities and
futures markets. In addition, we are working on final regu-        Scott O’Malia and Jill Sommers, commissioners of the U.S.
                                                                   Commodity Futures Trading Commission, left, to right, and
lations for trading platforms, such as Designated Contract
                                                                   Gary Gensler, chairman of the U.S. Commodity Futures Trading
Markets, Swap Execution Facilities, and Foreign Boards of          Commission, listen to Don Heitman, special counsel of market
Trade – all of which will help make the swaps market more          oversight division with the CFTC, speak during a meeting at the
open and transparent.                                              CFTC in Washington, D.C., U.S., on Tuesday, Oct. 19, 2010.
                                                                   The top U.S. commodities regulator today approved a rule that
                                                                   will require traders to report over-the-counter swaps based on
                                                                   raw materials including oil and corn, a prelude to trading limits.
Lowering Risk Through Clearing
                                                                   (Andrew Harrer/Bloomberg via Getty Images)

Another significant Dodd-Frank reform is lowering risk to
the economy by mandating central clearing of standardized        Market Integrity
swaps. Centralized clearing protects banks and their
customers from the risk of the bank failing. Clearinghouses      To enhance market integrity, we finished a rule giving the

reduce the interconnectedness between financial entities.        Commission more authority to effectively prosecute wrong-

They have lowered risk for the public in the futures markets     doers who recklessly manipulate the markets. We also final-

since the late 19th century. Last month, we finalized a rule     ized a rule to reward whistleblowers for their help in catching

establishing risk management and other regulatory require-       fraud, manipulation, and other misconduct in the financial

ments for derivatives clearing organizations.                    markets.


I am hoping to soon finish a rule that will enhance customer     We recently completed speculative position limit rules that,

protections regarding where clearinghouses and futures           for the first time, limit aggregate positions in the futures and

commission merchants can invest their funds. The market          economically equivalent swaps market.

events of the last three years have underscored the impor-
                                                                 To further support market integrity, we are looking to finalize
tance of maximizing protection of customer funds.
                                                                 guidance on disruptive trading practices as well as regula-

We also are looking to finalize rules on segregation for         tions for trading platforms.

cleared swaps. Segregation of funds is the core foundation
of customer protection.                                          Regulating Dealers
In addition, after the first of the year, we hope to finish      It is also crucial that swap dealers are comprehensively regu-
rules on client clearing documentation, straight-through         lated to protect their customers and lower risk to taxpayers.
processing, and the end-user exemption.                          The CFTC is working closely with the Securities and Exchange




                                                                                                                      CFTC              5
Commission and other regulators to finalize a rule further      assured of effective enforcement of new swaps market over-
defining the term swap dealer. We are also looking to soon      sight rules that will promote transparency, lower risk, and
consider final external business conduct rules to establish     protect against another crisis.
and enforce robust sales practices in the swaps markets, as
                                                                With increased funding comes the need for heightened
well as internal business conduct rules, which will lower the
                                                                accountability to show results and manage costs. The CFTC
risk that dealers pose to the economy. In addition, the
                                                                places a strong emphasis on being an effective steward of its
agency has been working closely with other regulators, both
                                                                operating funds. I am pleased that for the seventh consecu-
domestic and international, on capital and margin.
                                                                tive year, the Commission has received an unqualified
                                                                opinion on its financial statements. For the fifth consecutive
Agency Reorganization                                           year, the auditors disclosed no material instances of noncom-
                                                                pliance with laws and regulations. I can also report that the
With an expanded mission due to the Dodd-Frank mandate,
                                                                CFTC had no material internal control weaknesses and that
the CFTC’s new responsibilities called for an agency restruc-
                                                                the financial and performance data in this report are reliable
turing, which was implemented on October 9, 2011.
                                                                and complete under Office of Management and Budget
The Commission created a new group for oversight of swap        guidance.
dealers and intermediaries. The Division of Swap Dealer
and Intermediary Oversight will facilitate standing up the
                                                                Conclusion
new regulatory regime for the swaps marketplace.
                                                                The current debt crisis in Europe is but a stark reminder of
In addition, technology will play a critical role as the CFTC
                                                                the financial market’s interconnectedness. Furthermore, it is
executes its expanded oversight and surveillance responsi-
                                                                precisely during times of heightened market uncertainty that
bilities. The Commission reorganized its technology
                                                                transparency is even more essential. While European leaders
programs by establishing a new group, the Office of Data
                                                                are working to avert a deepening crisis, it is critical that we
and Technology, which reports to the Chairman’s office. The
                                                                implement the Dodd-Frank Act to protect the American
office will focus the Commission’s needs and functions,
                                                                public and strengthen our economy.
integrate existing analytical capabilities, and facilitate a
comprehensive approach to developing advanced tech-             We must never forget the eight million lost jobs – the
nology investments, automation of regulatory functions and      majority of which were lost by people who never used deriv-
improved analysis.                                              atives. We must never forget what the nation went through
                                                                three years ago, and we continue to recover today. We must
                                                                never forget the risks are still out there.
Resources
As the CFTC finalizes these Dodd-Frank rules, the agency
needs additional resources consistent with the CFTC’s signif-
icantly expanded mission and scope. The swaps market is
seven times the size of the futures market that we currently
oversee. With seven times the population to police, greater                          Gary Gensler
resources are needed for the public’s protection. Without                            November 14, 2011		
sufficient funding for the agency, the nation cannot be




6      CFTC
                         FY 2011 Commissioners

Gary Gensler, Chairman


                        G     ary Gensler was sworn in
                              as the Chairman of the
                        Commodity        Futures     Trading
                                                                markets, public debt management, the banking system,
                                                                financial services, fiscal affairs, Federal lending, Govern-
                                                                ment Sponsored Enterprises, and community develop-
                        Commission on May 26, 2009.             ment. In recognition of this service, he was awarded Trea-
                        Chairman      Gensler      previously   sury’s highest honor, the Alexander Hamilton Award.
                        served at the U.S. Department of
                                                                Prior to joining Treasury, Chairman Gensler worked for 18
                        the Treasury as Under Secretary
                                                                years at Goldman Sachs where he was selected as a partner;
                        of Domestic Finance (1999-2001)
                                                                in his last role he was Co-head of Finance. Chairman
                        and as Assistant Secretary of Finan-
                                                                Gensler is the co-author of a book, The Great Mutual Fund
                        cial Markets (1997-1999).         He
                                                                Trap, which presents common sense investment advice for
subsequently served as a Senior Advisor to the Chairman
                                                                middle income Americans.
of the U.S. Senate Banking Committee, Senator Paul
Sarbanes, on the Sarbanes-Oxley Act, reforming corporate        He is a summa cum laude graduate from the University of
responsibility, accounting and securities laws.                 Pennsylvania’s Wharton School in 1978, with a Bachelor
                                                                of Science in Economics and received a Master of Business
As Under Secretary of the Treasury, Chairman Gensler was
                                                                Administration from Wharton School’s graduate division
the principal advisor to Treasury Secretary Robert Rubin
                                                                in 1979. He lives with his three daughters outside of Balti-
and later to Secretary Lawrence Summers on all aspects of
                                                                more, Maryland.
domestic finance. The office was responsible for formu-
lating policy and legislation in the areas of U.S. financial




                                                                                                             CFTC         7
                                                                            “I don’t think there’s a silver bullet or single
                                                                            solution for what ails the market place. And
                                                                            certainly the solutions that come up cannot be
                                                                            implemented overnight. But I firmly believe that
                                                                            the market participants are the best qualified to
                                                                            come up with solutions that will ensure that we
                                                                            have viable, fair agricultural futures markets that
                                                                            will provide for price discovery and risk mitigation.”
                                                                            		                  – Commissioner Dunn




       Agricultural Advisory Committee
C    FTC Commissioner Michael V. Dunn chairs the Agri-
     cultural Advisory Committee. Committee members
include representatives of national farm organizations,
                                                                The Agricultural Advisory Committee was created in 1985
                                                                to advise the Commission on issues involving the trading
                                                                of agricultural commodity futures and options and facili-
major commodity groups, agribusiness concerns, and agri-        tate communications between the CFTC, the agricultural
cultural bankers.                                               community, and agriculture-related organizations.

“I don’t think there’s a silver bullet or single solution for   Recent meetings of the Agricultural Advisory Committee
what ails the market place. And certainly the solutions         addressed various topics, including: agriculture and the
that come up cannot be implemented overnight,” said             Dodd-Frank Bill; implementation of variable storage rates
Commissioner Dunn. “But I firmly believe that the market        on the Chicago Board of Trade wheat futures contract;
participants are the best qualified to come up with solu-       convergence trends in the Kansas City wheat futures
tions that will ensure that we have viable, fair agricultural   contract; the delivery point study commissioned by ICE
futures markets that will provide for price discovery and       Futures U.S. for the Cotton No. 2 Contract; and issues in
risk mitigation.”                                               livestock reporting.




8      CFTC
Michael V. Dunn, Commissioner



                        M      ichael V. Dunn was con-
                               firmed by the U.S. Senate on
                        November 21, 2004, as a Commis-
                                                                Mr. Dunn has also served as Under Secretary of Agricul-
                                                                ture for Marketing and Regulatory Programs, Acting Under
                                                                Secretary for Rural Economic and Community Develop-
                        sioner of the Commodity Futures         ment, and as Administrator of the Farmers Home Admin-
                        Trading    Commission.     He    was    istration (FmHA) at the U.S. Department of Agriculture
                        sworn in on December 6, 2004,           (USDA).
                        to a term expiring June 19, 2006.
                                                                Mr. Dunn has had a long involvement in agricultural credit
                        On June 16, 2006 Commissioner
                                                                dating back to the late 1970s, when he was the Midwest
                        Dunn was nominated by President
                                                                Area Director for the FmHA. He has been a loan officer and
                        Bush to a second term as Commis-
                                                                vice president of the Farm Credit Banks of Omaha and has
sioner of the CFTC and confirmed by the Senate on August
                                                                served as a member of the Professional Staff of the Senate
3, 2006. This marked the sixth time Mr. Dunn had been
                                                                Agriculture Committee, specializing in agricultural credit.
nominated by a President and confirmed by the Senate for
                                                                At the USDA, Mr. Dunn also served as a member of the
public office.
                                                                Commodity Credit Corporation Board of Directors and
From January 20, 2009 – May 25, 2009, Commissioner              President of the Rural Telephone Bank Board. He is a past
Dunn served as Acting Chairman for the Agency.                  member of the Iowa Development Commission and has
                                                                served as the Chairman of the State of Iowa’s City Develop-
Commissioner Dunn additionally serves as Chairman
                                                                ment Board.
and Designated Federal Official of the Commission’s
Agricultural Advisory Committee (AAC). The AAC was              A native of Keokuk, Iowa and a current resident of Harpers
created to advise the Commission on agricultural issues         Ferry, West Virginia, Mr. Dunn received his B.A. and M.A.
surrounding the trading of commodity futures and options        degrees from the University of New Mexico. Mr. Dunn and
and to serve as a communications link with the agricultural     his wife Brook, have four sons and two grandsons.
community.

Prior to joining the CFTC, Mr. Dunn served as Director of
the Office of Policy and Analysis at the Farm Credit Admin-
istration (FCA). Prior to this position, Mr. Dunn served as a
member of the FCA Board.




                                                                                                            CFTC         9
                                                                                “As futures and option markets have become
                                                                                increasingly global and interconnected over the
                                                                                last decade, the work of the Global Markets
                                                                                Advisory Committee has been critical to the
                                                                                Commission’s efforts to ensure the integrity
                                                                                and competitiveness of U.S. markets.”
                                                                                	              – Commissioner Sommers




     Global Markets Advisory Committee
C    FTC Commissioner Jill E. Sommers chairs the
     Commission’s Global Markets Advisory Committee.
Committee members include industry professionals, repre-
                                                                The Global Markets Advisory Committee was created
                                                                in 1998 to advise the Commission on issues that affect
                                                                U.S. markets and U.S. firms engaged in global business.
sentatives of domestic and foreign exchanges and clearing-      In September 2010, the Charter of the Global Markets
houses, representatives of industry associations, end users     Advisory Committee was renewed for two years to allow
and market participants.                                        the Committee to continue its important work.

“As futures and option markets have become increas-             Recent meetings of the Global Markets Advisory Committee
ingly global and interconnected over the last decade, the       addressed topics including: international bankruptcy issues
work of the Global Markets Advisory Committee has been          post-Lehman Brothers (or international bankruptcy issues
critical to the Commission’s efforts to ensure the integ-       arising from the bankruptcy of Lehman Brothers); efforts of
rity and competitiveness of U.S. markets,” said Commis-         the International Organization of Securities Commissions
sioner Sommers.      “Our markets performed very well           to enhance international regulation and coordination;
during the recent financial crisis. It is my hope that, as we   international issues in the implementation of the Dodd-
navigate through a more highly regulated environment,           Frank Wall Street Reform and Consumer Protection Act;
our continuing discussions and work with Committee              the European Commission Proposal on over-the-counter
members will assist us in avoiding unnecessary regulatory       derivatives, central counterparties, and trade repositories;
impediments to global business, while preserving core           Japanese legislation relating to clearing of over-the-counter
protections for markets and market participants.”               derivatives; and upcoming U.S. efforts to require registra-
                                                                tion of foreign boards of trade.

10     CFTC
Jill E. Sommers, Commissioner



                        J  ill E. Sommers was sworn in as
                           a Commissioner of the Com-
                        modity Futures Trading Commis-
                                                              Swaps and Derivatives Association, where she worked on a
                                                              number of over-the-counter derivatives issues. Prior to that,
                                                              Ms. Sommers worked in the Government Affairs Office of
                        sion on August 8, 2007 to a term      the Chicago Mercantile Exchange (CME), where she was
                        that expired April 13, 2009. On       instrumental in overseeing regulatory and legislative affairs
                        July 20, 2009 she was nominated       for the exchange. During her tenure with the CME, she
                        by President Barack Obama to          had the opportunity to work closely with congressional
                        serve a five-year second term, and    staff drafting the Commodity Futures Modernization Act
                        was confirmed by the United States    of 2000.
Senate on October 8, 2009.
                                                              Commissioner Sommers started her career in Washington
Commissioner Sommers serves as Chairman and Desig-            in 1991 as an intern for Senator Robert J. Dole (R-KS),
nated Federal Official of the Commission’s Global Markets     working in various capacities until 1995. She later worked
Advisory Committee, which meets periodically to discuss       as a legislative aide for two consulting firms specializing in
issues of concern to exchanges, firms, market users and the   agricultural issues, Clark & Muldoon, P.C. and Taggart and
Commission regarding the regulatory challenges of a global    Associates.
marketplace. She also has the opportunity to frequently
attend the Technical Committee meetings of the Interna-       A native of Fort Scott, Kansas, Ms. Sommers holds a

tional Organization of Securities Commissions, the global     Bachelor of Arts degree from the University of Kansas. She

cooperative body which is recognized as the international     and her husband, Mike, currently reside in the Washington,

standard setter for securities and derivatives markets.       DC area and have three children ages 9, 8, and 7.


Commissioner Sommers has worked in the commodity
futures and options industry in a variety of capacities
throughout her career. In 2005 she was the Policy Director
and Head of Government Affairs for the International




                                                                                                            CFTC         11
                                                                                   “These mini-Madoff scams took place all across
                                                                                   the nation. The consequences for the investors-
                                                                                   turned-victims can be pretty horrific—people
                                                                                   losing money for their kids’ college funds, for
                                                                                   needed health care expenses, or for their own
                                                                                   retirement. In most instances it is preventable
                                                                                   with a little education and some due diligence
                                                                                   fact checking.”
                                                                                   		                  – Commissioner Chilton




              Customer Education Initiatives –
                      Ponzimonium
New book by Commissioner Chilton: Ponzimonium—How Scam Artists are Ripping Off America


F   inancial scam artists are ripping off Americans more
    and more according to recent government figures. “We
thought all the frauds and Ponzi scams were horrific in the
                                                                  a 269-acre ranch, a fleet of classic sports cars, two airplanes
                                                                  and massive diamonds for ladies he was wooing in New
                                                                  York, Toronto and St. Louis.
wake of the Madoff scandal, but it is even worse now,” says
                                                                  “These mini-Madoff scams took place all across the nation,”
Commissioner Bart Chilton. While Federal, state and local
                                                                  Mr. Chilton notes.     “The consequences for the investors-
law enforcement are going after the con artists more than
                                                                  turned-victims can be pretty horrific—people losing money
ever before, there are basic precautions consumers should
                                                                  for their kids’ college funds, for needed health care expenses,
take before they part with their hard-earned money.
                                                                  or for their own retirement.” “In most instances it is prevent-
Commissioner Chilton lays it all out in a new book. In Ponz-      able with a little education and some due diligence fact
imonium—How Scam Artists are Ripping Off America, he tells        checking.”
the fascinating stories of ten such Ponzi scams that took place   Designed and written as a consumer education tool,
in 2009. “These are real cases, real fraudsters, with unfortu-    Ponzimonium includes a chapter containing the “Red Flags of
nately, very real victims,” Mr. Chilton writes. The book also     Fraud” to help people avoid being scammed. The Red Flags
captures, in words and pictures, a behind-the-scenes look at      are tips like checking to make sure a company is legitimately
the lifestyles of the schemers.                                   registered and other due diligence “to do” items before an
                                                                  investment is made. Ponzimonium also includes an “Investor
One con artist purchased a fleet of luxury vehicles in colors
                                                                  Checklist” designed to help citizens ask the right questions
like lime green and “blue & cream,” including multiple
                                                                  prior to investing.
Ferraris, Lamborghinis, Porsches, a Bentley, a Maserati, a
Lincoln Limousine, and a metallic burnt orange Hummer             Ponzimonium is a CFTC publication available for sale by the
golf cart.   “This guy took hard-working peoples’ money           Government Printing Office online at http://bookstore.gpo.
and used it for a mansion, nearly 20 plasma televisions,          gov. It may also be purchased online at http://www.barne-
sports and rock and roll memorabilia, and a contingent of         sandnoble.com and http://www.amazon.com. Neither Mr.
body guards,” Mr. Chilton said. Another fraudster bought          Chilton nor the CFTC, make any profit from the sale.


 12      CFTC
Bart Chilton, Commissioner



                        B   art Chilton was nominated by
                            President Bush and confirmed
                        by the U. S. Senate in 2007. In
                                                              Glickman. In this role, Mr. Chilton became a member of
                                                              the Senior Executive Service (SES)—government execu-
                                                              tives selected for their leadership qualifications to serve in
                        2009, he was re-nominated by          the key positions just below the most senior Presidential
                        President Obama and reconfirmed       appointees. As an SES member, Mr. Chilton served as a
                        by the Senate. He has served as the   liaison between Secretary Glickman and the Federal work
                        Chairman of the CFTC’s Energy and     force at USDA.
                        Environmental Markets Advisory
                                                              From 1985 to 1995, Mr. Chilton worked in the U. S. House
                        Committee (EEMAC). His career
                                                              of Representatives where he served as Legislative Director
spans 25 years in government service—working on Capitol
                                                              for three different Members of Congress on Capitol Hill
Hill in the House of Representatives, in the Senate, and
                                                              and as the Executive Director of the bipartisan Congres-
serving in the Executive Branch during the Clinton, Bush
                                                              sional Rural Caucus.
and Obama Administrations.
                                                              Mr. Chilton previously served on the Boards of Directors
Prior to joining the CFTC, Mr. Chilton was the Chief of
                                                              of Bion Environmental Technologies and the Association
Staff and Vice President for Government Relations at the
                                                              of Family Farms.
National Farmers Union where he represented family
farmers. In 2005, Mr. Chilton was a Schedule C political      Mr. Chilton was born in Delaware and spent his youth in
appointee of President Bush at the U. S. Farm Credit          Indiana, where he attended Purdue University (1979—
Administration where he served as an Executive Assistant      1982). He studied political science and communications
to the Board. From 2001 to 2005, Mr. Chilton was a Senior     and was a collegiate leader of several organizations. Mr.
Advisor to Senator Tom Daschle, the Democrat Leader           Chilton and his wife, Sherry Daggett Chilton, split their
of the United States Senate, where he worked on myriad        time between Washington, D. C. and Arkansas.
issues including agriculture and transportation policy.

From 1995 to 2001, Mr. Chilton was a Schedule C polit-
ical appointee of President Clinton where he rose to
Deputy Chief of Staff to U. S. Secretary of Agriculture Dan




                                                                                                            CFTC        13
                                                                              “The role of the Technology Advisory Committee
                                                                              is more important than ever as the Commission
                                                                              undertakes the historic task of implementing the
                                                                              Dodd-Frank Act. Because technology is a vital
                                                                              component of the futures and derivatives markets, it
                                                                              is imperative that the Commission deploy state of the
                                                                              art technology to meet its surveillance and enforcement
                                                                              responsibilities. The TAC’s recommendations regarding
                                                                              market design, structure, and functionality will provide
                                                                              invaluable information as we move forward.”
                                                                              		                  – Commissioner O’Malia




           Technology Advisory Committee
C    FTC Commissioner Scott D. O’Malia chairs the Tech-
     nology Advisory Committee (TAC). Members include
representatives of exchanges, clearinghouses, trade reposi-
                                                              Under the direction of Commissioner O’Malia, the TAC
                                                              convened for the first time in five years, and met on July
                                                              14, 2010 and October 12, 2010. In its first meeting, “Tech-
tories, self-regulatory organizations, financial interme-     nological Trading in the Markets,” the TAC discussed regu-
diaries, market participants (including trading firms and     lation of high frequency and algorithmic trading, including
commercial companies), academia, and consumers. TAC           adoption of risk management and best practices standards.
members have been selected for their deep knowledge and       The TAC second meeting, “Technology: Achieving the Stat-
expertise in the financial markets and keep the Commis-       utory Goals and Regulatory Objectives of the Dodd-Frank
sion abreast of emerging technological advances and devel-    Act,” included panels on disruptive trading practices and
opments.                                                      the Commission’s new anti-manipulation rulemaking
                                                              authority, discussion of the May 6th “Flash Crash,” swap
The TAC was created in 1999 to advise the Commission
                                                              execution facility models, and characteristics of swap data
on the impact and implications of technological innova-
                                                              repositories.     Key topics examined by the TAC include
tion in the financial services and commodity markets. Its
                                                              pre- and post-trade transparency in light of computer-
objectives include making recommendations on appro-
                                                              ized trading strategies, swap oversight and data collection,
priate regulatory responses to the application and utiliza-
                                                              and the use of technology in surveillance and compliance
tion of new technologies in the marketplace in order to
                                                              activities to manage risk. The TAC continues to study these
support the agency’s mission of ensuring the integrity of
                                                              and other issues in order to ensure that the Commission
the markets. The TAC also advises the Commission on
                                                              remains able to adapt to technology-driven evolution in
appropriate investment in technology resources to meet its
                                                              the markets.
surveillance and enforcement responsibilities.


14     CFTC
Scott O’Malia, Commissioner



                       S   cott O’Malia was confirmed
                           by the U.S. Senate on October
                       8, 2009, as Commissioner of
                                                               Advisor on oil, coal and gas issues. From 1992 to 2001,
                                                               he served as Senior Legislative Assistant to U.S. Sen. Mitch
                                                               McConnell (R.-Ky.), now the Senate Minority Leader.
                       the Commodity Futures Trading           During his career, O’Malia also founded the Washington
                       Commission, and was sworn in on         office of Mirant Corp., where he worked on rules and stan-
                       October 16, 2009. He is currently       dards for corporate risk management and energy trading
                       serving a five-year term that expires   among wholesale power producers.
                       in April 2015.
                                                               In his time at the CFTC Commissioner O’Malia has
                       Born in South Bend, Indiana and         advanced the use of technology to more effectively meet
raised in Williamston, Michigan, Commissioner O’Malia          the agency’s oversight responsibilities and is seeking the
learned about commodity prices firsthand growing up on a       reestablishment of the long dormant CFTC Technology
small family farm. As a Commissioner of the Commodity          Advisory Committee (C-TAC). As Chairman of the newly
Futures Trading Commission (CFTC), he brings both his          reinstated Committee, Commissioner O’Malia intends to
agricultural background and experience in energy markets,      harness the expertise of the C-TAC membership to estab-
where he has focused his professional career.                  lish technological ‘best practices’ for oversight and surveil-
                                                               lance considering such issues as algorithmic and high
Before starting his term at the CFTC, Commissioner
                                                               frequency trading, data collection standards, and techno-
O’Malia served as the Staff Director to the U.S. Senate
                                                               logical surveillance and compliance.
Appropriations Subcommittee on Energy and Water Devel-
opment, where he focused on expanding U.S. investment in       Commissioner O’Malia earned his Bachelor’s Degree from
clean-energy technologies, specifically promoting low-cost     the University of Michigan.      He and his wife, Marissa,
financing and technical innovation in the domestic energy      currently live in Northern Virginia with their three
sector.                                                        daughters.

From 2003 to 2004, Commissioner O’Malia served on the
U.S. Senate Energy and National Resources Committee
under Chairman Pete Domenici (R-N.M.), as Senior Policy




                                                                                                             CFTC        15
        How This Report is Organized
        This document consists of two primary sections and supplemental sections:


                                                                   Management’s Discussion and Analysis
            M A N A G E M E N T ’S DI S C U S S ION
                      AND ANALYSIS

                                                                   The Management’s Discussion and Analysis (MD&A) section is an
                                 18   Commission at a Glance


                                 35   Performance Highlights
                                      by Strategic Goals           overview of the entire report. The MD&A presents performance and
                                 47   Financial Highlights


                                 51


                                 54
                                      Management Assurances


                                      Forward Looking — Future
                                                                   financial highlights for FY 2011 and discusses compliance with legal and
                                      Business Trends and Events




                                                                   regulatory requirements, business trends and events, and management
                                                                   issues.



                                                                   Financial Section
                 Financial Section


                                                                   The Financial Section includes the Commission’s financial statements and
                            58    A Message from the
                            		    Chief	Financial	Officer

                            59    Limitations of Financial
                                  Statements
                                                                   the Independent Auditors’ report.
                            60 Principal Financial Statements

                            65 Notes to the Financial
                                  Statements

                            78    Report of the
                                  Independent Auditors




                                                                   Other Accompanying Information

                                                                   Other Accompanying Information contains the Inspector General’s
                                                                   FY 2011 assessment of management challenges facing the Commission
                                                                   and the Commission’s summary of audit and management assurances.
               Ot h e r A c c Om pA n y i ng
                    i n f O r m At i O n




                                                                   Appendix
                                 82    Inspector General’s
                                       FY 2011 Assessment

                                 86    Summary of Audit and
                                       Management Assurances




                                                                   The Appendix contains the glossary of abbreviations and acronyms used
                                                                   throughout the report.

                                                                   For more information on the information presented in this report please
                                                                   contact Mark Carney, Chief Financial Officer, at 202-418-5477.

                        Appendix




                                                                   The CFTC chose to produce the Agency Financial Report (AFR) and Annual
                                 88   Glossary of Abbreviations
                                      and Acronyms
                                                                   Performance Report (APR) in lieu of a Performance and Accountability Report for
                                                                   FY 2011. The FY 2011 APR will be included in the CFTC FY 2013 Congressional
                                                                   Budget Justification in February 2012. An electronic version of the CFTC FY 2011
                                                                   AFR and the CFTC 2011 – 2015 Strategic Plan are available at http://www.cftc.gov/
                                                                   about/cftcreports/index.htm.




16   CFTC
M A N A GEMENT ’ S DISCUSSION
         A ND A N A LYSIS




              	18	   Commission at a Glance


              	35	   Performance Highlights


              	47	   Financial Highlights


              51		   Management Assurances


              	54	   Forward Looking—Future
                     Business Trends and Events
                        Commission at a Glance

                                                      Mission Statement

              To protect market users and the public from fraud, manipulation,
          abusive practices and systemic risk related to futures, options and swaps
                and to foster open, competitive, and financially sound markets.




Evolving Mission and Responsibilities
Congress established the CFTC as an independent agency in           regulatory structure to oversee the volatile futures trading
1974, after its predecessor operated within the Department          complex.
of Agriculture. Its mandate was renewed and/or expanded
                                                                    On July 21, 2010, President Obama signed the Dodd-Frank
in 1978, 1982, 1986, 1992, 1995, 2000, 2008 and 2010.
                                                                    Act. The Dodd-Frank Act amended the CEA to establish a
The CFTC and its predecessor agencies were established to
                                                                    comprehensive new regulatory framework for swaps, as well
protect market users and the public from fraud, manipula-
                                                                    as enhanced authorities over historically regulated entities.
tion and other abusive practices in the commodity futures
                                                                    Title VII of the Dodd-Frank Act, which relates to swaps, was
and option markets. After the 2008 financial crises and the
                                                                    enacted to reduce systemic risk, increase transparency, and
subsequent enactment of the Dodd-Frank Act, the CFTC’s
                                                                    promote market integrity within the financial system by,
mission expanded to include oversight of the swaps market-
                                                                    among other things:
place.
                                                                    ■■   Providing for the registration and comprehensive
The Commission administers the Commodity Exchange
                                                                         regulation of swap dealers and major swap
Act (CEA), 7 U.S.C. section 1, et seq. The 1974 Act brought
                                                                         participants;
under Federal regulation futures trading in all goods, articles,
services, rights and interests; commodity options trading;          ■■   Imposing clearing and trade execution requirements
leverage trading in gold and silver bullion and coins; and               on standardized derivatives products;
otherwise strengthened the regulation of the commodity              ■■   Creating robust recordkeeping and real-time reporting
futures trading industry. It established a comprehensive                 regimes; and


                                   Management’s                                              Other Accompanying
18       CFTC                      Discussion & Analysis
                                                                   Financial Section
                                                                                             Information
                                                                                                                         Appendix
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




■■   Enhancing the Commission’s rulemaking and enforce-             ■■   To ensure development and implementation of rules
     ment authorities with respect to, among others, all                 that are well balanced between risk mitigation and
     registered entities and intermediaries subject to the               cost to the industry and public, significant and open
     Commission’s oversight.                                             interaction with Congress, industry, and the public was
Though the Commission has much experience regulating                     necessary and appropriate; and
the on-exchange derivatives marketplace—having done                 ■■   While some rules are fairly straight forward, many are
so for more than 70 years—the Dodd-Frank Act presents                    intricate and raise interrelated and complex issues.
new responsibilities and authorities. The U.S. swaps and                 Staff requires appropriate time to analyze, summarize,
futures markets are estimated to have activity approximating             and consider all comments and aspects of a proposed
$300 trillion and $40 trillion, respectively—that is more                rule, present and discuss the proposed rule, and
than $22 of derivatives for every dollar of goods and services           considerations with the Commissioners, gain feedback
produced in the U.S. economy. That is why it is essential                and develop draft final rules for deliberation by the
that the Commission ensure that these markets work for the               Commission.
benefit of the American public; that they are transparent,          The comment and consideration aspects of the rule-
open and competitive; and that they do not allow risk to            making process take an enormous amount of time and
spread through the economy.                                         the Commission will continue to ensure all appropriate
                                                                    thought is given to rule development. At this point the
The Dodd-Frank Act gives the CFTC flexibility to set effec-
                                                                    CFTC anticipates completion of the vast majority of the
tive dates and a schedule for compliance with rules imple-
                                                                    rules within 24 months of enactment of the Dodd-Frank
menting Title VII of the Act, consistent with the overall
                                                                    Act.
deadlines in the Act. The order in which the Commission
finalizes the rules does not determine the order of the rules’      The Commission is committed to transparency in the rule-
effective dates or applicable compliance dates. Phasing the         making process. As such, the Commission is posting a list
effective dates of the Dodd-Frank Act’s provisions will give        of all of its meetings relating to the implementation of the
market participants time to develop policies, procedures,           Dodd-Frank Act, as well as the participants, issues discussed
systems and the infrastructure needed to comply with the            and all materials provided to the Commission, on its website
new regulatory requirements.                                        at: http://www.cftc.gov/LawRegulation/DoddFrankAct/External
                                                                    Meetings/index.htm.
The focused rule writing efforts required by the Dodd-Frank
Act are not being treated as a “Strategic Goal”, but as a           In February 2011, the Commission published a new stra-
tactical goal that has an Objective, Strategy, and Performance      tegic plan, CFTC FY 2011-2015 Strategic Plan, integrating the
Measure. The CFTC believes developing and implementing              expanded responsibilities under the Dodd-Frank Act with
the Dodd-Frank Act rules is one of the most important and           its existing mission and goals. The goals of the CFTC largely
difficult efforts it has ever undertaken.        The Dodd-Frank     remain the same with the regulation of swaps being incor-
Act set a timeframe of 360 days (or less in a few instances)        porated within the regulatory structure currently applied to
for completion of the rules, but the agency was unable to           the futures and option markets. The CFTC’s primary focus
comply with this for several reasons:                               will be to write the rules to regulate the swaps markets,
                                                                    implement those rules, test and adjust those rules, and
■■   The Commission operated under a Continuing Reso-
                                                                    write new rules as necessary to bring effective regulation to
     lution for most of FY 2011 and was unable to hire
                                                                    all derivatives markets over the next five years.
     needed staff and apply its critical effort and skills to the
     completion of this effort;




     Management’s                                               Other Accompanying
     Discussion & Analysis
                                     Financial Section
                                                                Information
                                                                                                Appendix               CFTC         19
How the CFTC is Organized                                      Enforcement (DOE), Division of Market Oversight (DMO),
and Functions                                                  and the Division of Swap Dealer and Intermediary Oversight
                                                               (DSIO)—are partnered with, and supported by, a number
The Commission consists of five Commissioners.          The
                                                               of offices, including the Office of the Chief Economist
President appoints and the Senate confirms the CFTC
                                                               (OCE), Office of Data and Technology (ODT), Office of the
Commissioners to serve staggered five-year terms. No more
                                                               Executive Direction (OED), Office of the General Counsel
than three sitting Commissioners may be from the same
                                                               (OGC), and the Office of International Affairs (OIA). The
political party. With the advice and consent of the Senate,
                                                               Office of the Inspector General (OIG) is an independent
the President designates one of the Commissioners to serve
                                                               office of the Commission.
as Chairman.
                                                               Attorneys across the CFTC’s divisions and offices represent
The Office of the Chairman oversees the Commission’s
                                                               the Commission in administrative and civil proceedings,
principal divisions and offices that administer and enforce
                                                               assist U.S. Attorneys in criminal proceedings involving
the CEA and the regulations, policies, and guidance
                                                               violations of the CEA, develop regulations and policies
thereunder.
                                                               governing clearinghouses, exchanges and intermediaries,
The Commission is organized largely along programmatic         and monitor compliance with applicable rules. In response
and functional lines. The four programmatic divisions—         to the globalization of the derivatives markets, attorneys
the Division of Clearing and Risk (DCR), Division of           represent the CFTC internationally in multilateral regula-




                                Management’s                                           Other Accompanying
20     CFTC                     Discussion & Analysis
                                                              Financial Section
                                                                                       Information
                                                                                                                   Appendix
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




tory organizations and in bilateral initiatives with indi-            ■■   Division of Clearing and Risk
vidual foreign regulators.         Commission attorneys also
                                                                           The DCR program oversees derivatives clearing organi-
participate in country dialogues organized by the U.S.
                                                                           zations (DCOs) and other market participants that may
Department of the Treasury. Much of the Commission’s
                                                                           pose risk to the clearing process including futures
legal work involves complex and novel issues.
                                                                           commission merchants, swap dealers, major swap
Auditors, risk analysts, trade practice analysts, and attorneys            participants and large traders, and the clearing of
examine records and operations of derivatives exchanges,                   futures, options on futures, and swaps by DCOs. The
clearinghouses, and intermediaries for compliance with the                 DCR staff prepare proposed regulations, orders, guide-
provisions of the CEA and the Commission’s regulations.                    lines, and other regulatory work products on issues
Derivatives trading investigators and specialists perform                  pertaining to DCOs; review DCO applications and rule
regulatory and compliance oversight to detect potential                    submissions and make recommendations to the
fraud, market manipulations and trade practice violations.                 Commission; make determinations and recommenda-
Risk analysts also perform analyses, which include stress                  tions to the Commission to which types of swaps
testing, to evaluate financial risks at the trader, firm, and              should be cleared; make determinations and recom-
clearinghouse levels.                                                      mendations to the Commission as to the initial eligi-
                                                                           bility or continuing qualification of a DCO to clear
Economists and analysts monitor trading activities and                     swaps; assess compliance by DCOs with the CEA and
price relationships in derivatives markets to detect and deter             Commission regulations, including examining systemi-
price manipulation and other potential market disruptions.                 cally important DCOs at least once a year; and conduct
These analysts also monitor compliance with position                       risk assessment and financial surveillance through the
limits. Economists and analysts evaluate filings for new                   use of risk assessment tools, including automated
derivatives contracts and amendments to existing contracts                 systems to gather and analyze financial information, to
to ensure that they meet the Commission’s statutory and                    identify, quantify, and monitor the risks posed by
regulatory standards.         Economists also analyze the                  DCOs, clearing members, and market participants and
economic effect of various Commission and industry                         its financial impact.
actions and events, evaluate policy issues and advise the
Commission accordingly.                                               ■■   Division of Enforcement

The CFTC is headquartered in Washington, D.C., with                        The DOE program investigates and prosecutes alleged
regional offices in Chicago, Kansas City, and New York. The                violations of the CEA and Commission regulations.
organization      structure   on    the   previous       page   was        Possible violations involve improper conduct related to
implemented October 9, 2011.                                               commodity derivatives trading on U.S. exchanges, or
                                                                           the improper marketing and sales of commodity deriva-
                                                                           tives products to the general public.
CFTC Organizational Programs
                                                                      ■■   Division of Market Oversight
Below are brief descriptions of the organizational programs
within the CFTC.                                                           The DMO program fosters markets that accurately
                                                                           reflect the forces of supply and demand for the under-
■■   The Commission
                                                                           lying commodities and are free of disruptive activity.
     The Offices of the Chairman and the Commissioners                     To achieve this goal, program staff oversees trade execu-
     provide executive direction and leadership to the                     tion facilities, performs market and trade practice
     Commission. The Offices of the Chairman include:                      surveillance, reviews new exchange applications and
     Public Affairs, Legislative Affairs, and Diversity and                examines existing exchanges to ensure their compliance
     Inclusion.                                                            with the applicable core principles. Other important
                                                                           work includes evaluating new products to ensure they
                                                                           are not susceptible to manipulation, and reviewing




     Management’s                                                 Other Accompanying
     Discussion & Analysis
                                     Financial Section
                                                                  Information
                                                                                                   Appendix             CFTC         21
     exchange rules and actions to ensure compliance with                   that support data acquisition, management, reuse, and
     the CEA and CFTC regulations.                                          transparency reporting and also provides data opera-
                                                                            tions support. Infrastructure and Operations organizes
■■   Division of Swap Dealer and Intermediary Oversight
                                                                            delivery of services around network infrastructure and
     The DSIO program oversees the registration and compli-                 operations, telecommunications, and desktop and
     ance activities of intermediaries and the futures industry             customer services. These three service delivery compo-
     self-regulatory organizations (SROs), which include the                nents are unified by an enterprise-wide approach that is
     U.S. derivatives exchanges and the National Futures                    driven by the Commission’s strategic goals and objec-
     Association (NFA). Program staff develops regulations                  tives and incorporates information security, enterprise
     concerning registration, fitness, financial adequacy, sales            architecture, and project management.
     practices, protection of customer funds, cross-border
                                                                       ■■   Office of the Executive Director
     transactions, and anti-money laundering programs, as
     well as policies for coordination with foreign market                  The Commission’s ability to achieve its mission of
     authorities and emergency procedures to address                        protecting the public, derivative market participants,
     market-related events that impact intermediaries. With                 U.S. economy and the U.S. position in global markets is
     the passage of the Dodd-Frank Act, DSIO also will be                   driven by well-informed and reasoned executive direc-
     responsible for the development of, or monitoring for                  tion, strong and focused management, and an effi-
     compliance with, regulations addressing registration                   ciently-resourced, dedicated, and productive workforce.
     requirements, business conduct standards, capital                      These attributes of an effective organization combine to
     adequacy, and margin requirements for swap dealers                     lead and support the critical work of the Commission to
     and major swap participants.                                           provide sound regulatory oversight and enforcement
                                                                            programs for the U.S. public. The Executive Director
■■   Office of the Chief Economist                                          ensures the Commission’s continued success, continuity
     The OCE provides economic support and advice to the                    of operations, and adaptation to the ever-changing
     Commission, conducts research on policy issues facing                  markets it is charged with regulating, directs the effective
     the Commission, and educates and trains Commission                     and efficient allocation of CFTC resources, develops and
     staff. The OCE plays an integral role in the implementa-               implements management and administrative policy,
     tion of new financial market regulations by providing                  and ensures program performance is measured and
     economic expertise and cost-benefit considerations                     tracked Commission-wide. The OED includes the
     underlying those regulations.                                          following     programs:    Business        Management   and
                                                                            Planning, Counsel to the Executive Director, Financial
■■   Office of Data and Technology                                          Management, Human Resources, Logistics and Opera-
                                                                            tions, Privacy, Records, Proceedings (reparations), Secre-
     The ODT is led by the Chief Information Officer. ODT
                                                                            tariat and the Library.
     delivers services to CFTC mission divisions and mission
     support offices through three components:              Systems
                                                                       ■■   Office of the General Counsel
     and Services, Data Management, and Infrastructure and
     Operations.     In order to partner effectively with                   The OGC provides legal services and support to the
     Commission divisions and offices, Systems and Services                 Commission and all of its programs. These services
     focuses on several areas: market and financial oversight               include: 1) engaging in defensive, appellate, and amicus
     and surveillance; enforcement and legal support; docu-                 curiae litigation; 2) assisting the Commission in the
     ments, records, and knowledge management; CFTC-                        performance of its adjudicatory functions; 3) providing
     wide enterprise services; and management and admin-                    legal advice and support for Commission programs; 4)
     istration. In order to manage data as an enterprise asset              drafting and assisting other program areas in preparing
     and apply a data-centric approach to service delivery,                 Commission regulations; 5) interpreting the CEA; and
     Data Management focuses on data analysis activities                    6) providing advice on legislative and regulatory issues.




                                    Management’s                                                  Other Accompanying
22       CFTC                       Discussion & Analysis
                                                                      Financial Section
                                                                                                  Information
                                                                                                                                Appendix
                                                                                                  M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




■■     Office of International Affairs                                                    far outgrown agricultural contracts in trading volume.
                                                                                          Latest statistics show that approximately nine percent of
       The OIA advises the Commission regarding interna-
                                                                                          on-exchange commodity futures and option trading activity
       tional regulatory initiatives; provides guidance regard-
                                                                                          occurs in the agricultural sector.                   Financial commodity
       ing international issues raised in Commission matters;
                                                                                          futures and option contracts1 make up approximately 76
       represents the Commission in international organiza-
                                                                                          percent. Other contracts, such as those on metals and
       tions, such as the International Organization of Securi-
                                                                                          energy products, make up about 15 percent.
       ties Commissions (IOSCO); coordinates Commission
       policy as it relates to policies and initiatives of major                          The increase in trading activity, the number of participants
       foreign jurisdictions, the G20, Financial Stability Board                          and complexity, and the number of contracts traded trans-
       and the U.S. Treasury Department; and provides                                     formed the futures marketplace into a $40 trillion industry
       technical assistance to foreign market authorities.                                in notional amount. The rapid evolution in trading tech-
                                                                                          nologies, cross-border activities, product innovation and
■■     Office of the Inspector General                                                    competition have made the futures markets a significant
                                                                                          part of the global economy.
       The OIG is an independent organizational unit at the
       CFTC. The mission of the OIG is to detect waste, fraud,                            In addition to the rapid growth of the futures marketplace,
       and abuse and to promote integrity, economy, effi-                                 the global economy saw the development of an over-the-
       ciency, and effectiveness in the CFTC’s programs and                               counter (OTC) derivatives market. The first swap transac-
       operations. As such it has the ability to review all of the                        tion took place in 1981. The Office of the Comptroller of
       Commission’s programs, activities, and records.                             In     the Currency estimates that, as of the second quarter of
       accordance with the Inspector General Act of 1978, as                              2011, swaps entered into by U.S. commercial banks have a
       amended, the OIG issues semiannual reports detailing                               notional amount of $300 trillion. Parts of this market were
       its activities, findings, and recommendations.                                     responsible for the global financial crises when existing
                                                                                          risk controls for the OTC market proved inadequate in the
                                                                                          2008 global financial meltdown.
Commodity Futures Industry

The first derivatives—called futures—began trading at the                                 Dodd-Frank Reforms
time of the Civil War, when grain merchants came together
                                                                                          In July 2010, the U.S. Congress addressed the economic
and created this new marketplace. When the Commis-
                                                                                          risks of swaps when it passed the Dodd-Frank Act. Though
sion was founded in 1974, the vast majority of derivatives
                                                                                          the CFTC and its predecessor agencies have regulated deriv-
trading consisted of futures trading in agricultural sector
                                                                                          atives since the 1920s, its jurisdiction was limited to futures.
products. These contracts gave farmers, ranchers, distribu-
                                                                                          Now, the Commission, along with the SEC, is tasked with
tors, and end-users of products ranging from corn to cattle
                                                                                          bringing its regulatory expertise to the swaps marketplace.
an efficient and effective set of tools to hedge against price
                                                                                          There are three critical reforms of the derivatives markets
risk.
                                                                                          included in the Dodd-Frank Act. First, the Dodd-Frank Act
Over the years, however, the derivatives industry has become                              requires swap dealers and major swap participants to come
increasingly diversified. The agriculture sector continues                                under comprehensive regulation. Second, the Dodd-Frank
to use the futures markets as actively as ever to effectively                             Act moves the bulk of the swaps marketplace onto trans-
lock in prices for crops and livestock months before they                                 parent trading facilities – either exchanges or swap execu-
enter the marketplace. However, highly complex finan-                                     tion facilities (SEFs). Third, the Dodd-Frank Act requires
cial contracts based on interest rates, foreign currencies,                               clearing of standardized swaps by regulated clearinghouses
Treasury bonds, securities indexes and other products have                                to lower risk in the marketplace.


1	   A timeline of significant dates in the history of futures regulation before the creation of the CFTC and significant dates in CFTC history from 1974 to the present is
     located at: http://www.cftc.gov/About/HistoryoftheCFTC/index.htm




        Management’s                                                                 Other Accompanying
        Discussion & Analysis
                                                 Financial Section
                                                                                     Information
                                                                                                                             Appendix                     CFTC            23
Regulation of Swap Dealers and Major Swap                              ■■   The Dodd-Frank Act also directs the Commission
Participants                                                                to adopt regulations imposing capital and margin
                                                                            requirements for all registered swap dealers and
The Dodd-Frank Act provides for the registration and
                                                                            major swap participants that are not banks, including
comprehensive regulation of swap dealers and major swap
                                                                            non-bank subsidiaries of bank holding companies
participants. The regulatory requirements are set forth in
                                                                            regulated by the Federal Reserve Board.               The
new Section 4s of the CEA.
                                                                            Commission is further directed to adopt regulations
■■   The Dodd-Frank Act generally prohibits any person                      imposing financial reporting requirements on all swap
     from acting as a swap dealer or a major swap                           dealers and major swap participants.
     participant unless the person is registered with the
     Commission.       A primary purpose of registration is            Mandatory Clearing of Standardized Swaps through
     to screen an applicant’s fitness to engage as a swap              CFTC registered Derivatives Clearing Organizations
     dealer or major swap participant. The applicant for
                                                                       The Dodd-Frank Act requires that standardized swaps
     registrant would initiate the registration process by
                                                                       be cleared through CFTC-registered DCOs. Clearing has
     submitting appropriate forms by means of the NFA’s
                                                                       lowered risk in the futures marketplace since the 1890s,
     online registration system. The NFA would conduct
                                                                       and DCOs play an important role in mitigating risk in the
     a background check to assess whether the applicant’s
                                                                       markets that the CFTC regulates.
     principals were unfit for registration or subject to a
     statutory disqualification from registration.                     ■■   The Commission on an ongoing basis is required to
                                                                            review each swap, or any group, category, type or class of
■■   The Dodd-Frank Act directs the Commission to adopt                     swaps (collectively, “swaps”) to make a determination
     regulations governing the business conduct standards                   as to whether the swaps should be required to be
     for swap dealers and major swap participants. Such                     cleared, i.e., mandatory clearing, as well as to make
     regulations would require swap dealers and major swap                  a determination as to the eligibility or continuing
     participants to conform with regulations relating to                   qualification of a DCO to clear a swap. DCOs that clear
     timely and accurate confirmation, processing, netting,                 swaps must submit the contracts to the CFTC, which
     documentation, and valuation of all swaps.              Swap           must then make a decision as to whether the swaps are
     dealers and major swap participants also would be                      subject to the Dodd-Frank Act’s clearing requirement.
     required to: monitor their trading in swaps to prevent                 The CFTC has 90 days after the submission, including a
     violations of applicable position limits; establish robust             30-day comment period, to make such determinations.
     and professional risk management systems; designate                    Though the CFTC does not yet know the total number
     a chief compliance officer; and implement conflict of                  of contracts that will be submitted for clearing, and the
     interest systems and procedures.                                       Commission may be able to group many by class, the
                                                                            largest swaps clearinghouse clears nearly one million
■■   The Commission also is required to adopt regulations                   unique contracts at any point in time.
     that would require swap dealers and major swap
     participants to: 1) verify the eligibility of their               ■■   The CEA requires that an entity that seeks to provide
     counterparties; 2) disclose to their counterparties                    clearing services with respect to futures contracts,
     material information about swaps, including material                   options on futures contracts, or swaps must first
     risks, characteristics, incentives and conflicts of interests;         obtain registration as a DCO. A DCO’s registration is
     and 3) provide counterparties with information                         predicated on its demonstration of compliance with
     concerning the daily mark for swaps. Swap dealers and                  the CEA and Commission regulations pertaining to
     major swap participants also would be subject to a duty                core principles augmented by the Dodd-Frank Act. The
     to communicate in a fair and balanced manner based                     Commission likely will see an increase in the number
     on principles of fair dealing and good faith.                          of DCOs seeking registration, including entities that




                                     Management’s                                                Other Accompanying
24       CFTC                        Discussion & Analysis
                                                                      Financial Section
                                                                                                 Information
                                                                                                                              Appendix
                                                                         M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     are located outside the United States. In addition, the       ■■   Each SEF must comply with a total of 15 core principles,
     Dodd-Frank Act creates a new category of systemically              as adopted by the Dodd-Frank Act, as a condition of
     important DCOs. These entities will have to comply                 obtaining and maintaining registration as a SEF. The
     with heightened risk management and other prudential               SEF also must be in compliance with all implementing
     standards concerning payment, clearing and settlement              regulations and other applicable provisions of the CEA.
     supervision, and the Commission will be required to                This will require thorough evaluation by staff before
     examine systemically important DCOs at least yearly.               making registration determinations. Registered SEFs
     DCOs play a vital role in the proper functioning of the            will be subject to CFTC examinations for ongoing
     financial markets and are increasingly important given             compliance.
     the mandated central clearing of standardized swaps.

                                                                   Position Limits
■■   The additional clearinghouses that will register as DCOs
     and those DCOs which are designated as systemically           The CFTC currently administers a Commission-set position
     important likely will clear many more products that           limit regime for a total of nine DCM-listed agricultural
     will require Commission review and determinations             futures contracts. Under the Dodd-Frank Act, the Commis-
     concerning mandatory clearing. The risk profile of these      sion is instructed to implement and enforce new aggregate
     cleared products will be more complex than traditional        position limits that will cover not only the futures market,
     futures and options on futures. At the same time, it will     but also some portion of the swaps market. These limits
     require an increase in the Commission’s financial and         would apply to more than 30 agricultural and exempt
     risk oversight of entities that pose a risk to the clearing   (mostly metals and energy) commodities.
     process. Existing financial and risk surveillance tools
     and systems will have to be enhanced and modified to          Swap Data Repositories and Real Time Reporting
     identify, monitor and assess the risks posed by DCOs,         of Swaps Data
     clearing members, and market participants to enable           The Dodd-Frank Act establishes a new registration category
     the Commission to continue to effectively discharge its       for swap data repositories (SDRs). The Dodd-Frank Act
     statutory duty to reduce systemic risk.                       requires registrants—including swap dealers, major swap
                                                                   participants, SEF and DCMs—to have robust record-
Oversight of Swap Execution Facilities and Swaps                   keeping and reporting, including an audit trail, for swaps.
Trading on Designated Contract Markets                             Under the Dodd-Frank Act, to register and maintain regis-
                                                                   tration with the Commission, SDRs are required to comply
The Commission will implement many new provisions
                                                                   with specific duties and three core principles as well as
related to the oversight of swaps trading activity. These
                                                                   other requirements that the Commission may prescribe by
include procedures for the review and oversight of an
                                                                   rule. The CFTC recently adopted rules in this area, effective
entirely new regulated market category, SEFs.
                                                                   October 31, 2011, to require SDRs to perform their core
■■   The Commission currently oversees 16 designated               function of collecting and maintaining swaps data and
     contract markets (DCMs).             Based on industry        making it directly and electronically available to regulators.
     comments, there could be at least 30-40 entities that         Initial estimates are that the Commission will receive at
     will apply to become SEFs. This estimate is based on          least two or three SDR applications upon the general effec-
     the number of exempt commercial markets (ECMs),               tive date of the rules and some international SDRs intend
     exempt boards of trade (EBOTs), interdealer brokers,          to register as well. That number could grow significantly
     information service providers and swap dealers who            to the extent that any DCMs, SEFs or DCOs seek to estab-
     have formally or informally expressed an interest in          lish in-house SDRs to facilitate their swap business. In
     registering as SEFs. Furthermore, some DCMs that in           addition, the Commission, as required by the Dodd-Frank
     the past listed only futures will start listing swaps.        Act, anticipates issuing rules that will provide for the real
                                                                   time dissemination of price and other information about
                                                                   swaps trading to promote transparency.




     Management’s                                              Other Accompanying
     Discussion & Analysis
                                    Financial Section
                                                               Information
                                                                                              Appendix               CFTC         25
CFTC Surveillance in an Evolving Industry                         CFTC and Industry Trends
Surveillance has become dependent on the ability to review        In a marketplace driven by change, it may be helpful to
large volumes of data and the development of sophisti-            look back at industry and CFTC trends over the past few
cated analytics to identify trends and/or outlying events         years. The charts that follow reflect many of those changes
that warrant further investigation. To the extent possible,       affecting the CFTC:
the CFTC is seeking to leverage applications and analytics
across the organization through the use of industry stan-         ■■   Industry growth versus staff growth;
dardized data sets. It is anticipated that through the collec-
                                                                  ■■   Estimated Annual Swap Volume;
tion of standardized data sets, the Commission will have
the unique and essential ability to aggregate data received       ■■   Growth in actively traded futures and option contracts;
by all market participants, allowing a more encompassing
view of futures, options and swaps transactions. This aggre-      ■■   Notional value of futures/option open contracts;

gated data will allow the Commission to conduct market-
                                                                  ■■   Notional value of exchange-traded and OTC contracts;
level surveillance and perform financial risk analyses of
market participants. This capability is particularly impor-       ■■   Amount of customer funds held at futures commission
tant with the expansion of the Commission’s mandate in                 merchants;
the disaggregated swaps markets, as market participants
                                                                  ■■   Aggregate sum of house origin margin on deposit;
may have swaps data residing in multiple SDRs, multiple
DCMs, and multiple SEFs.         The Commission’s ability         ■■   Number of registrants;
to view aggregated data across this industry landscape is
essential.                                                        ■■   Contract markets designated by the CFTC;

                                                                  ■■   Number of derivatives clearing organizations registered
Regulating Foreign Boards of Trade
                                                                       with the CFTC;
The Dodd-Frank Act’s creation of a new registered foreign
board of trade (FBOT) category will obviate the need              ■■   Exempt commercial markets; and
for the current FBOT no-action letter program, but the
                                                                  ■■   Exempt boards of trade.
substantive requirements that will be imposed on regis-
tered FBOTs will likely be more robust than the require-
ments imposed under the no-action regime. Currently, 20
FBOTs operate in the United States based upon no-action
letters dating back to 1999. The Commission expects at
least that number of FBOTs will apply to register upon the
implementation of the registered FBOT regulations, plus
an additional six to 10 FBOTs who have recently expressed
an interest in becoming registered.




                                  Management’s                                             Other Accompanying
26      CFTC                      Discussion & Analysis
                                                                 Financial Section
                                                                                           Information
                                                                                                                       Appendix
                                                                                                M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Growth in Volume of Futures & Option Contracts Traded
versus CFTC Full-Time Equivalents
This budget assumes continued growth at the rate seen from 2009-2011. Increased activity of high-frequency traders
contributed to the increase in volume with commensurate required increase in technology and staff resources for
surveillance.




Estimated Annual Swap Event Volume
Events2 include new trades, innovations and terminations, but exclude intro-company trades and tear-ups. Products
include: interest rate derivatives, credit derivatives, equity derivatives, currency options and commodity derivatives.3




2	   Swap event volume data for FY 2011 will be available in April 2012.
3	   Reported participant monthly average multiplied by 12 months per year, multiplied by the number of participants in the relevant survey year, and divided by two to
     account for potential double counting for swap transactions between survey participants.




        Management’s                                                               Other Accompanying
        Discussion & Analysis
                                                Financial Section
                                                                                   Information
                                                                                                                          Appendix                    CFTC            27
Actively Traded Futures & Option Contracts
The number of actively traded contracts on U.S. exchanges has increased almost ten-fold in the last decade.




Notional Value of Futures/Option Open Contracts
To date physical commodities has experienced price increases that would justify a higher percentage increase in notional
value than for financial commodities.




          FY       2002     2003        2004            2005   2006        2007      2008     2009        2010   2011
         Fin’l     15.5      22.6       37.3            36.9   42.1        41.2      28.3      32.2       33.5   34.5
         Phys      0.2       0.2        0.4             0.8    1.2         1.8       1.4       1.9        2.5    3.0




                                Management’s                                                Other Accompanying
28     CFTC                     Discussion & Analysis
                                                                 Financial Section
                                                                                            Information
                                                                                                                        Appendix
                                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Notional Value of Exchange-Traded and Over the Counter (OTC) Contracts
Currently, the Commission receives swap data on special price discovery contracts (SPDC) under provisions of the Food,
Conservation and Energy Act of 2008 (Farm Bill). The estimated annual volume for SPDC in 2011 is about 244 million
contracts with an estimated notional value of $147 million on May 2, 2011. The contracts declared SPDCs are a fraction
of the commodity swaps market which had an outstanding notional value of $2.9 trillion at the end of first half of 2010
according to the Bank for International Settlements (BIS). Furthermore, the commodity swaps market is the smallest
sector of the overall swaps market comprising only 0.4 percent of the $583 trillion total notional value.




Amount of Customer Funds in Futures Commission Merchant Accounts
The amount of customer funds held at futures commission merchants (FCMs) has increased 342 percent since FY 2001,
and the $203 billion held by FCMs at September 2011 exceeds the pre-market disruption levels of approximately
$201 billion at September 2008.




4	   Exchange-Traded Futures/Options are those traded on CFTC Designated Contract Markets.
5	   Office of the Comptroller of the Currency (OCC) data is for the top 25 bank holding companies with the most derivative contracts and “OTC” includes: Forwards,
     Swaps, Options, and Credit Derivatives.
6	   Bank for International Settlements (BIS) OTC data includes “Foreign Exchange”, “Interest Rates”, “Equity-linked”, “Commodity”, “Credit Default Swaps”, and
     “Unallocated” contracts.




        Management’s                                                             Other Accompanying
        Discussion & Analysis
                                               Financial Section
                                                                                 Information
                                                                                                                       Appendix                   CFTC            29
Aggregate Sum of House Origin Margin
on Deposit
Origin Margin (also referred to as Original or Initial Margin)
is the initial deposit of margin money each clearing member
firm is required to make according to clearing organization
rules based upon positions carried, determined separately for
customer and proprietary positions.7




Number of Registrants
Companies and individuals who handle customer funds, solicit or accept orders, or give trading advice must apply
for CFTC registration through the NFA, a registered futures association and an SRO with delegated authority from the
Commission.

The Commission regulates the activities of 65,370 registrants.


     Registration Category8,9                                                                                    Number as of September 30, 2011
     Associated Persons (APs) (Salespersons)                                                                                                              52,369
     Commodity Pool Operators (CPOs)                                                                                                                       1,183
     Commodity Trading Advisors (CTAs)                                                                                                                     2,530
     Floor Brokers (FBs)                                                                                                                                   6,316
     Floor Traders (FTs)                                                                                                                                   1,286
     Futures Commission Merchants (FCMs)                                                                                                                    137
     Retail Foreign Exchange Dealers (RFEDs)                                                                                                                 14
     Introducing Brokers (IBs)                                                                                                                             1,535
     Swap Dealers (SDs)10                                                                                                                                      0
     Major Swap Participants             (MSPs)11                                                                                                              0
     TOTAL                                                                                                                                                65,370




7	   Source: Margin on Deposit amounts obtained at month-end from DCOs.
8	   A person who is registered in more than one registration category is counted in each category.
9	   Source: NFA’s Monthly Membership and Registration Report to CFTC as of September 30, 2011.
10	 New   registration category proposed by the Commission for certain entities engaged in swap transactions at 75 Fed. Reg. 71379 (November 23, 2010).
11	 New   registration category proposed by the Commission for certain entities engaged in swap transactions at 75 Fed. Reg. 71379 (November 23, 2010).




                                                Management’s                                                           Other Accompanying
30           CFTC                               Discussion & Analysis
                                                                                        Financial Section
                                                                                                                       Information
                                                                                                                                                            Appendix
                                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Contract Markets Designated by the CFTC
The following DCMs are boards of trade or exchanges that meet the criteria and core principles for trading futures or
options by both institutional and retail participants. Currently, 16 DCM participants meet criteria and core principles for
trading futures, options and swaps.


  Designated Contract Markets                                      Abbreviation      2006        2007     2008        2009     2010       2011
  Cantor Futures Exchange, L.P.                                    CX
  Board of Trade of the City of Chicago                            CBOT
  Chicago Climate Futures Exchange, LLC                            CCFE
  CBOE Futures Exchange, Inc.                                      CFE
  Chicago Mercantile Exchange, L.P.                                CME
  ELX Futures, L.P.                                                ELX
  Green Exchange, LLC                                              GREENEX
  ICE Futures US,           Inc.12                                 ICE US
  Kansas City Board of Trade                                       KCBT
  Minneapolis Grain Exchange, Inc.                                 MGE
  North American Derivatives Exchange,                   Inc.13    NADEX
  NASDAQ OMX Futures Exchange,                      Inc.14         NFX/PBOT
  New York Mercantile Exchange, Inc. /                             NYMEX (Incl.
  Commodity Exchange, Inc.                                         COMEX Inc.)
  NYSE Liffe US, LLC                                               NYSE LIFFE
  OneChicago LLC Futures Exchange                                  OCX
  The Trend Exchange                                               TRENDEX
  US Futures Exchange, LLC                                         USFE
  TOTAL                                                                                12         12        13         14        16         16


Number of Derivatives Clearing Organizations Registered with the CFTC
A clearinghouse that seeks to provide clearing services with respect to futures contracts, options on futures contracts, or
swaps must register with the CFTC as a DCO. In FY 2011, 17 DCOs were registered with the CFTC.

 Derivatives Clearing Organizations                                Abbreviation      2006        2007     2008        2009     2010       2011
  The Actuarials Exchange, LLC                                     AE Clearing-
                                                                   house
  Cantor Clearinghouse L.P.                                        Cantor Clear-
                                                                   inghouse
  Chicago Board of Trade                                           CBOT
  Clearing Corporation                                             CCorp
                                                                                                                         (continued on next page)




12	 Formerly,   New York Board of Trade.
13	 Formerly,   HedgeStreet Inc.
14	 Formerly,   Philadelphia Board of Trade.




       Management’s                                                         Other Accompanying
       Discussion & Analysis
                                               Financial Section
                                                                            Information
                                                                                                           Appendix               CFTC           31
 Derivatives Clearing Organizations                                      Abbreviation        2006        2007   2008      2009       2010     2011
  Chicago Mercantile Exchange Clearing                                   CME Clearing
  House                                                                  House
  Chicago Mercantile Exchange Europe                                     CME Clearing
  Limited                                                                Europe
  ICE Clear Credit                                                       ICE Clear
                                                                         Credit
  ICE Clear Europe Ltd                                                   ICE Clear
                                                                         Europe
  ICE Clear US, Inc.15                                                   ICE Clear US
  International Derivatives Clearinghouse, LLC                           IDC
  Kansas City Board of Trade Clearing Corp                               KCBT
  London Clearing House Clearnet Ltd                                     LCH.Clearnet
  Minneapolis Grain Exchange Clearing House                              MGE Clearing
                                                                         House
  Natural Gas Exchange Inc.                                              NGX
  New York Portfolio Clearing, LLC                                       NYPC
  North American Derivatives Exchange,                     Inc.16        NADEX
  NYMEX Clearing House                                                   NYMEX
  Options Clearing Corporation                                           OCC
  TOTAL                                                                                        11         11     10         12        14        17


Exempt Commercial Markets
Electronic trading facilities providing for the execution of principal-to-principal transactions between eligible commercial
entities in exempt commodities may operate as ECMs, as set forth under the CEA and the Commission’s regulations.
An ECM is subject to anti-fraud and anti-manipulation provisions and a requirement that, if performing a significant
price discovery function must provide pricing information to the public. A facility that elects to operate as an ECM must
give notice to the Commission and comply with certain information, record-keeping, and other requirements. An ECM
is prohibited from claiming that the facility is registered with, or recognized, designated, licensed or approved by, the
Commission. A total of 37 ECMs have filed notices with the Commission. In FY 2011, 21 ECMs were in business for at
least part of the year; one, however, withdrew its ECM notification during the fiscal year.

 Exempt Commercial Markets                                          Abbreviation             2006        2007   2008      2009       2010     2011
  Agora-X, LLC                                                  Agora-X
  Chicago Climate Exchange, Inc.                                CCX
  Commodities Derivative                                        CDXchange
  Exchange, Inc.
  ChemConnect, Inc.                                             ChemConnect
  CME ECM Inc.                                                  CME ECM
  DFOX                                                          DFOX
  EnergyCross.com                                               EnergyCross.com
                                                                                                                              (continued on next page)


15	 Formerly,   HedgeStreet, Inc.
16	 Formerly,   New York Clearing Cooperation.




                                                 Management’s                                                   Other Accompanying
32         CFTC                                  Discussion & Analysis
                                                                                     Financial Section
                                                                                                                Information
                                                                                                                                               Appendix
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Exempt Commercial Markets           (cont.)          Abbreviation         2006       2007      2008       2009      2010      2011
EOX Holdings, LLC                               EOXLIVE
Evolution Markets                               Evolution Markets
FCRM Electronic Markets LLC                     FCRM
Flett Exchange                                  Flett
GFI Group Inc., EnergyMatch                     GFI
Houston Mercantile Exchange                     HMX
Houston Street Exchange, Inc.                   HSE
ICAP Commodity and Commodity                    ICAP
Derivatives Trading System
ICAP Electronic Trading Community               ICAPture
ICAP Shipping Trading System                    ICAP Shipping
ICAP Truequote Multilateral Trading             ICAP Truequote
Facility
IntercontinentalExchange, Inc.                  ICE
International Maritime Exchange                 IMAREX
Liquidity Partners, LP                          Liquidity Partners
LiquidityPort, LLC                              LiquidityPort
Natural Gas Exchange, Inc.                      NGX
Nodal Exchange, LLC                             Nodal
NetThruPut                                      NTP
OILX (TFSOIL)                                   OILX
Optionable, Inc.                                OPEX
Parity Energy, Inc.                             Parity
Spectron Live.com Limited                       SL
The TradeCapture Exchange (TFSE)                TCX
TFSWeather.com                                  TFSWeather
tpENERGYTRADE                                   tpENERGYTRADE
TraditionCoal.Com                               TraditionCoal.com
Trading OptX LLC                                Trading Optx
TradeSpark, LP                                  TS
WorldPulp.com                                   WORLDPULP
TOTAL                                                                       17        19         20        27         24        21




   Management’s                                                 Other Accompanying
   Discussion & Analysis
                                 Financial Section
                                                                Information
                                                                                               Appendix               CFTC         33
Exempt Boards of Trade
Transactions by eligible contract participants in selected commodities may be conducted on an EBOT as set forth under
the CEA and the Commission’s regulations. EBOTs are subject only to the CEA’s anti-fraud and anti-manipulation
provisions. An EBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or
approved by the Commission. Also, if it is performing a price discovery function, the EBOT must provide certain pricing
information to the public. To date, 29 EBOTs filed notices with the Commission. In FY 2011, 21 EBOTs were in business
during the fiscal year.


 Exempt Boards of Trade                                          Abbreviation        2006         2007   2008     2009        2010   2011
  The Actuarials Exchange, LLC                               AE
  CME Alternative Marketplace, Inc.                          CME AM
  Concredex LLC                                              Concredex
  Countermatch                                               CTRMTCH
  Currenex, Inc.                                             Currenex
  Derivatives Bridge, LLC                                    Derivatives Bridge
  ERIS Exchange, LLC                                         ERIS
  FENICS                                                     FENICS
  FX Alliance                                                FXAll
  FX Connect                                                 FX Connect
  GFI Group, Inc. - ForexMatch                               GFI ForexMatch
  Intrade Board of Trade                                     Intrade
  IRESE, Inc.                                                IRESE
  LiquidityPort, LLC                                         LiquidityPort
  Longitude, LLC                                             Longitude
  M2 Trading Partners, LLC                                   M2
  MarketAxess Corporation                                    MarketAxess
  MATCHBOXX ATS                                              MATCHBOXX ATS
  ODEX Group, Inc.                                           ODEX
  Storm Exchange, Inc.                                       Storm
  SurfaceExchange                                            SURFEX
  Swapstream Operating Services, Ltd.                        Swapstream
  Tera (Spring Trading)                                      Tera
  The American Civics Exchange                               TACE
  trueBOT Inc.                                               trueBOT
  Weather Board of Trade, LLC                                WBOT
  WeatherXchange Limited                                     WXL
  YellowJacket Software, Inc.                                Yellow Jacket
  TOTAL                                                                                 8          10     11        10         14     21




17	 This   EBOT withdrew its EBOT notification during FY 2011.
18	 This   EBOT withdrew its EBOT notification during FY 2010.




                                              Management’s                                               Other Accompanying
34           CFTC                             Discussion & Analysis
                                                                              Financial Section
                                                                                                         Information
                                                                                                                                     Appendix
                                                                        M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Performance Highlights by Strategic Goal

 Resources at a Glance                                            CFTC Staffing
  Fiscal Year                        Outcomes
                            $193 Million Actual Obligations
     2011
                                Increased Staff by 61
                            $168 Million Actual Obligations
     2010
                               Increased Staff by 107
                            $146 Million Actual Obligations
     2009
                                Increased Staff by 49
                            $111 Million Actual Obligations
     2008
                                Increased Staff by 12
                            $98 Million Actual Obligations
     2007
                               Decreased Staff by 56




    Management’s                                              Other Accompanying
    Discussion & Analysis
                                       Financial Section
                                                              Information
                                                                                             Appendix               CFTC         35
Strategic Plan Overview                                        Strategic Goals and Key Results
The FY 2011 - 2015 Strategic Plan, released in February,       The following section includes a high-level discussion of
2011, incorporated enactment of the Dodd-Frank Act.            each of the five strategic goals, as well as a tactical goal
Congress gave this swaps oversight responsibility to the       for Dodd-Frank rule making, and the related key results
CFTC because of its strengths in regulating the futures and    (shortfalls and successes). The selected accomplishments
options markets. While the swaps marketplace has only          described below demonstrate significant progress made
been around since the 1980s, the futures marketplace has       in FY 2011 toward the achievement of the Commission’s
existed since the 1860s has been regulated by the CFTC and     mission and strategic goals. However, progress in some
its predecessor agencies since the 1920s.                      areas was hampered due to a significant number of staffing
                                                               resources that were reallocated from existing authorities to
The goals of the CFTC largely remain consistent with prior     implementing the new authorities under the Dodd-Frank
years with the regulation of swaps being incorporated          Act.
within the current regulatory structure applied to the
futures and options markets.                                   Performance measures are rated as: Exceeded, Met, Not
                                                               Met, or Results not Demonstrated. Of the Commission’s
                                                               54 performance measures, nine were not measurable in
          FY 2011 – 2015 Strategic Goals
                                                               FY 2011 due to their dependence on final rulemakings
           Protect the public and market participants
           by ensuring market integrity, promoting             that have not been completed and are excluded from the
 Goal 1
           transparency, competition and fairness              following results. Overall results, based on data currently
           and lowering risk in the system.                    available, for the Commission’s performance measures are
           Protect the public and market participants by       depicted in the following chart:
           ensuring the financial integrity of derivatives
 Goal 2    transactions, mitigation of systemic risk, and
           the fitness and soundness of intermediaries
           and other registrants.
           Protect the public and market participants
 Goal 3
           through a robust enforcement program.
           Enhance integrity of U.S. markets by
           engaging in cross-border cooperation,
           promoting strong international regulatory
 Goal 4
           standards, and encouraging ongoing
           convergence of laws and regulation
           worldwide.
           Promote Commission excellence through
           executive direction and leadership,
 Goal 5    organizational and individual performance
           management, and effective management
           of resources.

                                                               The Commission’s Annual Performance Report (APR), to
                                                               be issued in February 2012 as part of its Congressional
                                                               Budget Justification in conjunction with the President’s
                                                               Budget, will present more detailed analysis of performance
                                                               results for FY 2011.




                                 Management’s                                          Other Accompanying
36     CFTC                      Discussion & Analysis
                                                              Financial Section
                                                                                       Information
                                                                                                                    Appendix
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Objective 0.1 Financial Reform Legislation                       ■■   While some rules are fairly straight forward, many are
                                                                      intricate and raise interrelated and complex issues.
The focused rule writing efforts required by the Dodd-
                                                                      Staff requires appropriate time to analyze, summarize,
Frank Act are not being treated as a “Strategic Goal”,
                                                                      and consider all comments and aspects of a proposed
but as a tactical goal that has an Objective, Strategy and
                                                                      rule, discuss the proposed rule and comments with the
Performance Measure. Approximately 20 to 30 percent
                                                                      Commissioners, gain feedback, and develop draft final
of the CFTC staff was diverted from their usual functions
                                                                      rules for deliberation by the Commission.
to work on Dodd-Frank Act related activities throughout
FY 2011. The CFTC began preparing for the task of writing        Despite the above limitations, the Commission was able
rules for the swaps marketplace by identifying 30 areas of       to accomplish the following Dodd-Frank Act related
rulemaking to implement the Dodd-Frank Act. The CFTC             rulemaking tasks within the 360 day time frame:
has found that some of these areas only required one rule,
while others required more. Staff teams were assigned to         ■■   Issued 54 proposed rules and issued seven final rules,
each rule grouping. Where proposed and interim final
                                                                 ■■   Received, reviewed and analyzed over 27,000
rules have been issued, the Commission is affording as
                                                                      comments,
much opportunity as practicable for public comment both
through written submissions and through public meetings.         ■■   Held a second comment period for more than
The Commission fully considers the comments and                       25 rules,
continues to offer this opportunity as additional proposed
                                                                 ■■   Held more than 14 technical conferences, and
rules are developed. The CFTC has and will continue
to work with the SEC and other regulators to maximize            ■■   Through October 2011, nine additional final rules have
consistency, minimize overlap or duplication, and develop             been issued and four more proposed rules.
the best possible final rules.
                                                                 As of this writing, the CFTC anticipates completion of the
                                                                 vast majority of the rules by March 2012 and essentially all
Objective 0.1 Key Results                                        rules by July 2012 - within 24 months of enactment of the
                                                                 Dodd-Frank Act.
The Dodd-Frank Act set a timeframe of 360 days (or less
in a few instances) for completion of the rules, but the
Commission was unable to accomplish this for several
reasons:


■■   The Commission operated under a Continuing Resolu-
     tion for most of FY 2011 and was unable to hire needed
     staff and apply critical effort and skills to the comple-
     tion of this objective;

■■   To ensure development and implementation of rules
     that are well balanced between risk mitigation and
     cost to the industry and public, significant and open
     interaction with Congress, industry, and the public was
     necessary and appropriate; and




     Management’s                                            Other Accompanying
     Discussion & Analysis
                                   Financial Section
                                                             Information
                                                                                            Appendix               CFTC         37
Strategic Goal One

             Strategic Goal One

       Protect the public and market
      participants by ensuring market
     integrity, promoting transparency,
        competition and fairness and
         lowering risk in the system.




                                                 FY 2011 Investment
                                                      Net Cost: $48.4 Million

                                                           Staffing: 172 FTE




D          erivatives markets are designed to provide a means
          for market users to offset price risks inherent
in their businesses and to act as a public price discovery
                                                                     Goal One Key Results
                                                                     ■■   During FY 2011, the Commission completed reviews

platform from which prices are broadly disseminated for                   of 57 new product certifications, nine exempt market

public use. For derivatives markets to fulfill their role in the          filings, 317 rule filings and one FBOT no-action

national and global economy, they must operate efficiently                request.

and fairly, and serve the needs of market users. The markets         ■■   In fulfillment of a charge from the Financial Stability
best fulfill this role when they are open, competitive and free           Board Chief, the Commission drafted two important
from fraud, manipulation and other abuses such that the                   IOSCO reports: the Report on OTC Derivatives Data
prices discovered on the markets reflect the forces of supply             Reporting and Aggregation Requirements, and the
and demand.                                                               Report on Trading of OTC Derivatives.

                                                                     ■■   In order to enhance the Commission’s surveillance
The Commission strives to assure that Goal One is effec-
                                                                          program, it created three new automated alerts and
tively met through the combined use of four oversight
                                                                          three new reports as well as enhanced four trade
strategies: 1) the review of new contracts and rules and
                                                                          practice alerts already in production for more effective
changes to contracts and rules; 2) continual surveillance of
                                                                          market and trade surveillance.
trading activity in the futures and swaps markets; 3) the
review of regulated exchanges, DCMs and SEFs, to ensure              ■■   Performance targets for reviewing contracts in a timely
that they are fulfilling their self-regulatory obligations;               manner and completing DCM regulatory reviews were
and, 4) the adoption of policies and strategies to promote                not met due to the reallocation of staff to Dodd-Frank
market transparency.                                                      rulemaking activities.

                                                                     .




                                   Management’s                                               Other Accompanying
38      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                              Information
                                                                                                                           Appendix
Strategic Goal Two

              Strategic Goal Two

         Protect the public and market
          participants by ensuring the
        financial integrity of derivatives
     transactions, mitigation of systemic
   risk, and the fitness and soundness of
    intermediaries and other registrants.




                                                    FY 2011 Investment
                                                          Net Cost: $43.7 Million

                                                             Staffing: 155 FTE




I        n fostering financially sound markets, the Commis-
        sion’s main priorities are to avoid disruptions to the
system for clearing and settling contract obligations and to
                                                                       FCMs. As a regulator, the Commission reviews the audit
                                                                       and financial surveillance programs of the exchanges and
                                                                       NFA and also monitors the financial condition of FCMs
protect the funds that customers entrust to FCMs. Clearing             directly, as appropriate. This includes reviewing each
organizations and FCMs are integral to the financial integrity         FCM’s exposure to risk from large customer positions that
of derivatives transactions – together, they protect against           it carries. The Commission also conducts extensive daily
the financial difficulties of one trader becoming a systemic           surveillance of risks posed by traders, firms and DCOs and
problem. Several aspects of the regulatory framework that              periodically reviews clearing organization procedures for
contribute to the Commission achieving Goal Two are:                   monitoring risks and protecting customer funds.
1) requiring that market participants post margin to secure
                                                                       The Commission works with the NFA to ensure that those
their ability to fulfill financial obligations; 2) requiring partic-
                                                                       seeking registration as intermediaries meet high qualifica-
ipants on the losing side of trades to meet their obligations,
                                                                       tion and fitness standards through the registration process.
in cash, through daily (sometimes intraday) margin calls;
                                                                       The Commission also drafts and interprets rules that apply
3) requiring FCMs to maintain minimum levels of operating
                                                                       to the conduct of business by these intermediaries.
capital; and, 4) requiring FCMs to segregate customer funds
from their own funds.                                                  With the implementation of the Dodd-Frank Act, the
                                                                       Commission       has   substantially   greater    responsibili-
The Commission works with the exchanges and the NFA to                 ties, including oversight of newly registered derivatives
closely monitor the financial condition of the FCMs them-              dealers, as well as implementation of enhanced compli-
selves, who must provide the Commission, exchanges and                 ance requirements for intermediaries and new core prin-
NFA with various monthly and annual financial reports.                 ciple requirements for DCOs. The Commission also will
The exchanges and NFA conduct routine, periodic audits                 be responsible for determining the initial eligibility or the
and daily financial surveillance of their respective member            continuing qualification of a DCO to clear swaps, as well as



     Management’s                                                  Other Accompanying
     Discussion & Analysis
                                      Financial Section
                                                                   Information
                                                                                                Appendix                CFTC      39
for the review of swaps submitted to the Commission for              ■■   The Commission completed the migration of Trade
a determination as to whether the swaps are required to be                Capture Report data to an open industry standard.
cleared. The Commission also will be implementing new                     CFTC had been receiving this data from futures
statutory provisions regarding review of new rules and rule               exchanges in disparate, legacy formats. The result is
amendments submitted by DCOs. In addition, the scope of                   much-improved data quality and the effectiveness of
the Commission’s reviews of DCOs, designated self-regula-                 automated alert systems. Data transparency has also
tory organizations, and intermediaries will be expanded to                been improved, increasing the effectiveness of data
include swap transactions and swap intermediaries.                        analysis for market and trade practice surveillance
                                                                          and for economic research. The Commission began
                                                                          systematically receiving Time and Sales data, and
Goal Two Key Results
                                                                          started a preliminary analysis of the potential receipt
■■   Partnering with DMO, DCR, and DSIO; ODT continued                    of order message data, to improve surveillance. These
     refining and extending automated surveillance systems                enhancements will also be applied to the receipt of
     to improve staff’s ability to conduct market, trade                  swaps data.
     practice, and financial and risk oversight.           Market
                                                                     ■■   The Commission met its target to perform risk analysis
     and trade practice surveillance systems were modified
                                                                          and stress-testing on 500,000 large trader and clearing
     to profile market activity warranting review and to
                                                                          member positions to ascertain those with significant
     alert staff to potential front running and position
                                                                          risk and confirm that such risks are being appropriately
     concentrations.
                                                                          managed.
■■   Financial oversight systems were enhanced to increase
                                                                     ■■   The performance target for annual DCO reviews for
     usability and to process bank and mutual fund data,
                                                                          compliance with core principles and Commission
     variation margin data, and credit default swap data for
                                                                          requirements was not met due to the diversion of staff
     currently-registered DCOs.
                                                                          to Dodd-Frank rulemaking activities.
■■   A web-based online comment system was implemented
     to facilitate industry and public participation in the
     Dodd-Frank rulemaking process. It was integrated with
     CFTC eLaw technology, which provides legal support
     for enforcement activities and increases rulemaking
     staff productivity by providing powerful document
     search, tagging, and analysis capabilities.




                                   Management’s                                               Other Accompanying
40      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                              Information
                                                                                                                           Appendix
Strategic Goal Three


            Strategic Goal Three

        Protect the public and market
        participants through a robust
           enforcement program.




                                                 FY 2011 Investment
                                                       Net Cost: $61.1 Million

                                                          Staffing: 217 FTE




A          n increasing segment of the population has money
          invested in the derivatives markets, either directly
or indirectly through pension funds or ownership of shares
                                                                    integrity of the markets ensures their continued vibrancy
                                                                    and promotes public confidence. Continuing IT investment
                                                                    in the eLaw program will support all Goal Three objectives
in publicly held companies that participate in the markets.         by improving staff productivity, providing staff with a level
Commission staff works to protect market users and the              IT playing field with those it investigates and effective tools
public by promoting compliance with and deterring viola-            to collaborate internally with oversight and clearing staff
tions of the CEA and Commission regulations. The range              as well as with other regulators, and facilitating the use of
of available enforcement actions (including manipulation,           information to identify high impact enforcement actions.
disruptive trading practices and anti-fraud for example) will
broaden beginning July 2011 when relevant provisions of the         Goal Three Key Results
Dodd-Frank Act become effective. By providing a formalized
structure and government oversight, the commodity laws              ■■   The Commission filed 99 enforcement actions in
carefully balance the desire for open, accessible and competi-           FY 2011, the highest yearly tally in the agency’s history
tive markets with the need to protect market users.                      and a 74 percent increase over the prior fiscal year. The
                                                                         CFTC charged individuals and companies in these cases
                                                                         for manipulating commodity prices, perpetrating Ponzi
This third strategic goal is to ensure that firms and individ-
                                                                         schemes and other fraud, supervision and accounting
uals who come to the marketplace to fulfill their business
                                                                         failures,   trading   abuses,    registration    deficiencies,
and trading needs are in compliance with laws and regu-
                                                                         and committing other violations of the CEA and
lations. In addition, market users and others must be
                                                                         regulations.
protected from possible wrongdoing that may affect or tend
to affect the integrity of the markets. The derivatives markets     ■■   The Commission also opened more than 450 investi-
provide a great benefit to the U.S. economy; preserving the              gations in FY 2011, another program high.




    Management’s                                                Other Accompanying
    Discussion & Analysis
                                   Financial Section
                                                                Information
                                                                                               Appendix                  CFTC      41
■■   Overall, the performance target for concluding enforce-      ■■   Foreign Exchange Currency (Forex) Enforcement: The
     ment investigations within 1 year was exceeded by                 Commission filed 23 actions enforcing new regulations
     16 percent (81 percent completed vs. a target of 65               that resulted from the Dodd-Frank Act and that require
     percent).                                                         foreign exchange dealers and introducing brokers to
                                                                       register with the Commission. Separately, and as part
■■   Fighting Fraud and Other Regulatory Violations: The
                                                                       of the Commission’s prosecution of retail forex fraud,
     Commission’s mission to protect market participants
                                                                       the Commission prevailed in a Federal jury trial in the
     from fraud is reflected by the 55 fraud actions filed in
                                                                       United States District Court for the Middle District
     fiscal year 2011 alone, and by the numerous Federal
                                                                       of Florida, which imposed more than $17 million
     court orders obtained by the Commission against more
                                                                       in sanctions and other relief against Capital Blu
     than 75 defendants, imposing civil monetary penal-
                                                                       Management, LLC and several other defendants.
     ties and restitution and disgorgement obligations. In
     one notable fraud case, CFTC vs. Walsh, et al, the Court     ■■   Cooperating with Law Enforcement Partners: The
     ordered an initial distribution and return of approxi-            Commission continues to actively engage in cooperative
     mately $792 million to commodity pool investors                   enforcement with Federal and state criminal and civil
     stemming from an alleged $1.3 billion Ponzi scheme                law enforcement authorities. During FY 2011, more
     that was the subject of CFTC and SEC charges in a prior           than 70 indictments and convictions were obtained in
     fiscal year.                                                      criminal cases related to CFTC enforcement actions.

■■   The Commission also took action against so-called
     gatekeepers, charging an accounting firm and two
     of its partners in two separate cases, for failing to
     apply generally accepted auditing standards (GAAS)
     when conducting audits of FCMs that had produced
     misstated financial statements. See In the Matter of G.
     Victor Johnson II, McGladrey & Pullen, LLP and Altshuler,
     Melvoin & Glasser, LLP, CFTC Docket No. 11-01 (October
     4, 2010 ) and In the Matter of David Shane and McGladrey
     & Pullen, LLP, CFTC Docket No. 11-23 (September 22,
     2011).




                                  Management’s                                             Other Accompanying
42       CFTC                     Discussion & Analysis
                                                                 Financial Section
                                                                                           Information
                                                                                                                       Appendix
Strategic Goal Four

             Strategic Goal Four

   Enhance integrity of U.S. markets by
  engaging in cross-border cooperation,
      promoting strong international
         regulatory standards, and
    encouraging ongoing convergence
    of laws and regulation worldwide.




                                                FY 2011 Investment
                                                      Net Cost: $8.4 Million

                                                         Staffing: 30 FTE




T         he   Commission recognizes that markets are
         global as the result of electronic access, linkages,
mergers, and cooperative business arrangements. The
                                                                  markets to help these jurisdictions in establishing and
                                                                  implementing laws and regulations that foster global
                                                                  market integrity.
CFTC historically has supported programs that facilitate
                                                                  The Dodd-Frank Act increases the need for international
cross-border access to markets and products, such as our
                                                                  outreach. Section 752 of the Act states that the Commis-
recognition program for intermediaries and our registration
                                                                  sion “shall consult and coordinate” with foreign authorities
category for foreign boards of trade. Both of these programs
                                                                  to establish “consistent international standards” regarding
are based on recognition of foreign home country regulators
                                                                  regulation of swaps. Many of the new entities subject to
that comparably and comprehensively provide oversight,
                                                                  regulation under the Dodd-Frank Act are located abroad
allowing the CFTC to rely on this foreign regulation. These
                                                                  and the Commission will closely coordinate with foreign
programs reflect our understanding that no one regulator
                                                                  regulators in order to supervise these global entities.
alone will have all of the information or authority to
supervise global business.
                                                                  Goal Four Key Results
Effective regulation requires international coordination
                                                                  ■■   Coordinated    Dodd-Frank      outreach:   Coordinated
and necessitates that the Commission cooperate with
                                                                       staff and Chairman’s engagement with the European
foreign market authorities to supervise U.S. markets and
                                                                       Commission and Parliament with the objective of
protect U.S. customers. Additionally, the Commission
                                                                       encouraging harmonization of European regulatory
works closely with relevant international organizations
                                                                       development with Dodd-Frank policies.           Initiated
to promote high-quality derivatives regulation worldwide
                                                                       similar discussions with other foreign regulators.
and convergence where possible. The CFTC also provides
technical assistance to emerging and recently-emerged             ■■   Created international working groups: The CFTC
                                                                       exceeded its performance target for international




    Management’s                                              Other Accompanying
    Discussion & Analysis
                                  Financial Section
                                                              Information
                                                                                           Appendix               CFTC      43
     working group participation as it began technical level    ■■   Represented the Commission in U.S. Treasury-led
     working groups on OTC derivatives with the European             dialogues, such as China Strategic and Economic
     Commission, European Securities Markets Authority               dialogue, India, NAFTA, and Europe. Participated in a
     (ESMA), and regulatory authorities in Japan, Singapore,         G-20 study groups on commodities and on fossil fuel
     and Hong Kong. Additionally, the Office of Interna-             volatility and coordinated policy with the National
     tional Affairs organized a joint CFTC-SEC roundtable            Security Council on agricultural commodity volatility.
     on the cross-border application of Dodd-Frank.
                                                                ■■   Requests and referrals to and from foreign authorities
■■   Participated in internal Dodd-Frank policy develop-             continued to grow during FY 2011. In FY 2011, the
     ment:   Coordinated a review of cross-border arrange-           Division handled over 530 international requests and
     ments that will be needed under Dodd-Frank and devel-           referrals, an approximate 20 percent increase over
     oped draft Memorandum of Understanding (MOU) on                 FY 2010.
     the supervision of dually-regulated cross-border clear-
                                                                ■■   The performance target of training at least 60 non-U.S.
     inghouses.   Participated in rule development where
                                                                     regulators was met in FY 2011.
     there were international implications.
                                                                ■■   Planned the annual international regulatory conference
■■   Led the effort within the IOSCO Task Force on
                                                                     at Boca Raton, Florida and the annual symposium
     commodity futures markets to develop a final report
                                                                     for foreign regulators in Chicago. Coordinated staff
     on “Principles for the Regulation and Supervision of
                                                                     technical assistance mission to Ethiopia and a second
     Commodity Derivatives Markets,” as requested by
                                                                     program for the Korean Financial Supervisory Service.
     IOSCO and the G-20. IOSCO determined to convert
     the task force into a permanent standing committee.

■■   Coordinated Commission policy within the IOSCO
     Technical Committee and Standing Committee 2
     on secondary markets, Standing Committee 3 on
     intermediaries, the OTC derivatives task force, and the
     task force on implementation of the IOSCO Principles,
     which revised the IOSCO Methodology.




                                 Management’s                                            Other Accompanying
44      CFTC                     Discussion & Analysis
                                                               Financial Section
                                                                                         Information
                                                                                                                     Appendix
Strategic Goal Five

             Strategic Goal Five

     Promote Commission excellence
      through executive direction and
       leadership, organizational and
   individual performance management,
        and effective management of
                 resources.




                                                     FY 2011 Investment
                                                           Cost: $25.9 Million

                                                             Staffing: 92 FTE




C        ommission excellence reflected in the achievement
        of the agency’s strategic mission and goals
depends on clear executive direction, strong and focused
                                                                      Goal Five Key Results
                                                                      ■■   The Commission met its performance target by
                                                                           approving and adopting a reorganization, which
management,       and       a   well-resourced,     dedicated   and
                                                                           established DSIO and ODT, in order to ensure that the
productive workforce. These attributes of a high-performing
                                                                           Commission is structured, aligned and streamlined
organization combine to support and drive the critical work
                                                                           to successfully carry out its mission while flexible
of the Commission to provide a sound regulatory oversight
                                                                           and adaptable to changes to its mission and available
and enforcement program for the American people. To
                                                                           resources.
ensure the Commission’s continued success, continuity of
operations and adaptation to the ever-changing markets it             ■■   In response to the Dodd-Frank Act authority for
is charged with regulating, the Commission must maintain a                 oversight of the swaps marketplace, the reorganization
well-qualified workforce supported by a modern information                 created the Division of Swaps and Intermediary
technology infrastructure and working environment.                         Oversight and realigned a number of existing functions
                                                                           to accommodate the Commission’s expanded scope.
During the next five years, the Commission will develop
                                                                      ■■   In order to effectively incorporate Dodd-Frank Act
and implement a host of rules many of which address the
                                                                           with the Commission’s existing responsibilities, a
Dodd-Frank requirements and many of which will also
                                                                           new Strategic Plan was developed with the aide of
alter and expand the Commission’s mission and opera-
                                                                           interdivisional leadership forums and released in
tion. To successfully develop, implement and manage these
                                                                           February 2011.
rules, the Commission requires unambiguous and timely
direction, the right quantity and quality of staff, aligned in        ■■   The Commission began implementing a Management
an optimal operating structure supported by the necessary                  Framework Approach and developed a Planning
training and development, tools and resources.                             Process manual. While currently under review, many




    Management’s                                                  Other Accompanying
    Discussion & Analysis
                                       Financial Section
                                                                  Information
                                                                                              Appendix             CFTC      45
     of the guidelines in the manual have already been           ■■   In support of Commission transparency initiatives,
     successfully implemented. It effectively develops                the CFTC.gov public website was moved to a new
     and implements a resource management program to                  hosting facility. As a result, time-sensitive information
     support the optimal operation and maintenance of the             is posted much more rapidly. The new site will also
     growing agency (scope and staff) with the capability             better support future improvements to online services
     and tools to achieve its mission.                                for industry and the public. Also, the ‘This Month in
                                                                      Futures Report’ was redesigned to improve usability,
■■   In addition to hiring a number of talented new staff,
                                                                      increase transparency, and reduce report preparation
     Commission developed a CFTC-wide learning strategy
                                                                      time.
     to ensure all staff receives enriched training and
     development opportunities throughout the employee           ■■   The CFTC designed, developed, and implemented
     lifecycle.                                                       a Budget Process Activity Code repository to better
                                                                      manage and report the Commission’s financial and
■■   The Commission met its performance target by reducing
                                                                      human resources.
     the time to hire by over 10 percent in FY 2011.

■■   The Commission substantially completed the first
     phase of a three-phase effort to improve business
     continuity. The Commission established an Alternate
     Computing Facility (ACF) and will complete Phase 1
     with the replication of mission critical and mission
     essential data to the ACF.     The second phase will
     implement the capability to restore mission critical and
     mission essential systems from the ACF in accordance
     with recovery time and recovery point objectives. Phase
     3, which will begin in FY 2013, will implement recovery
     capability for all Commission systems.




                                  Management’s                                            Other Accompanying
46       CFTC                     Discussion & Analysis
                                                                Financial Section
                                                                                          Information
                                                                                                                       Appendix
                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                             Financial Highlights

T        he following table is an overview of the Commission’s financial position, preceding a discussion of the agency’s
         financial highlights for FY 2011:

                                                                                                   2011                 2010
Condensed Balance Sheet Data
	    Fund Balance with Treasury                                                             $	 81,785,717        $	 44,321,898
	    Accounts Receivable                                                                              59,226               4,836
	    Prepayments                                                                                  1,109,626             641,957
	    Other (Custodial)                                                                            2,574,173            2,319,934
	    General Property, Plant and Equipment                                                       42,346,895           25,203,787
	    Deferred Costs                                                                               6,254,873            6,303,367
Total Assets                                                                                $	134,130,510        $	 78,795,779
	    FECA Liabilities                                                                       $	     528,512       $	     256,801
	    Accounts Payable                                                                             7,092,349            7,650,033
	    Payroll, Benefits and Annual Leave                                                          15,464,338           14,460,136
	    Custodial Liabilities                                                                        2,574,173            2,319,934
	    Depost Fund Liabilities                                                                          57,127             22,226
	    Deferred Lease Liabilities                                                                  21,974,782           12,174,352
	    Other                                                                                            19,649               7,226
Total Liabilities                                                                                47,710,930           36,890,708
	    Cumulative Results of Operations - Earmarked                                                23,755,000      	             –
	    Cumulative Results of Operations                                                            17,998,424           11,455,579
	    Unexpended Appropriations                                                                   44,666,156           30,449,492
Total Net Position                                                                               86,419,580           41,905,071
Total Liabilities and Net Position                                                          $	134,130,510        $	 78,795,779
Condensed Statements of Net Cost
	    Total Cost                                                                             $	187,648,360        $	169,540,777
	    Net Revenue                                                                                      (88,720)           (71,840)
Total Net Cost of Operations                                                                $	187,559,640        $	169,468,937
Net Cost by Strategic Goal
	    Goal One - Market Integrity                                                            $	 48,390,387        $	 43,172,212
	    Goal Two - Clearing Integrity                                                               43,701,396           39,081,231
	    Goal Three - Protect Market Users and Public                                                61,144,442           54,902,851
	    Goal Four - Cross-Border Cooperation                                                         8,440,184            7,488,832
	    Goal Five - Organizational and Management Excellence                                        25,883,231           24,823,811
                                                                                            $	187,559,640        $169,468,937




    Management’s                                            Other Accompanying
    Discussion & Analysis
                                     Financial Section
                                                            Information
                                                                                           Appendix                  CFTC      47
Financial Discussion and Analysis                                 Balance Sheet

The CFTC prepares annual financial statements in                  The Balance Sheet presents, as of a specific point in time,
accordance with U.S. generally accepted accounting                the economic value of assets and liabilities retained or
principles (GAAP) for Federal government entities and             managed by the Commission. The difference between
subjects the statements to an independent audit to ensure         assets and liabilities represents the net position of the
their integrity and reliability in assessing performance.         Commission.

Management recognizes the need for performance and                For the year ended September 30, 2011, the Balance Sheet
accountability reporting, and fully supports assessments of       reflects total assets of $134.1 million. This is a 70 percent
risk factors that can have an impact on its ability to do so.     increase from FY 2010. The increase is primarily due to
Improved reporting enables managers to be accountable             large increases in Commission funds held by the U.S.
and supports the concepts of the Government Performance           Department of the Treasury and in the Plant, Property, and
and Results Act (GPRA), which requires the Commission             Equipment balance.
to: 1) establish a strategic plan with programmatic goals
                                                                  The CFTC litigates against defendants for alleged violations
and objectives; 2) develop appropriate measurement
                                                                  of the CEA and Commission regulations. Violators may be
indicators; and 3) measure performance in achieving those
                                                                  subject to a variety of sanctions including civil monetary
goals.
                                                                  penalties, injunctive orders, trading and registration bars
The financial summary as shown on the preceding page              and suspensions, and orders to pay disgorgement and resti-
highlights changes in financial position between Sept­            tution to customers. Section 748 of the Dodd-Frank Act
ember 30, 2011 and September 30, 2010. This overview is           amended the CEA by adding Section 23, entitled
supplemented with brief descriptions of the nature of each        “Commodity Whistleblower Incentives and Protection.”
required financial statement and its relevance. Certain           Among other things, Section 23 establishes a whistleblower
significant balances or conditions featured in the graphic        program that requires the Commission to pay an award,
presentation are explained in these sections to help clarify      under regulations prescribed by the Commission and
their relationship to Commission operations. Readers are          subject to certain limitations, to eligible whistleblowers
encouraged to gain a deeper understanding by reviewing            who voluntarily provide the Commission with original
the Commission’s financial statements and notes to the            information about a violation of the CEA that leads to the
accompanying audit report presented in the Financial              successful enforcement of a covered judicial or administra-
Section of this report.                                           tive action, or a related action. The Commission’s whistle-
                                                                  blower awards are to equal, in the aggregate amount, at
                                                                  least 10 but not more than 30 percent of the monetary
Understanding the Financial Statements
                                                                  sanctions actually collected in the Commission’s action or
The CFTC presents financial statements and notes in the           a related action. To provide funding for the Commission’s
format required for the current year by OMB Circular A-136,       whistleblower award program, the Dodd-Frank Act estab-
Financial Reporting Requirements, which is revised annually by    lished the Commodity Futures Trading Commission
OMB in coordination with the U.S. Chief Financial Officers        Customer Protection Fund. In addition, the Fund can be
Council. The CFTC’s current year and prior year financial         used to finance customer education initiatives.        As of
statements and notes are presented in a comparative format.       September 30, 2011, the Fund had a balance of
                                                                  $23.8 million. In FY 2011, the Commission, for the first
                                                                  time, received a two-year appropriation to ensure fiscal
                                                                  certainty in the implementation of the Dodd-Frank Act.
                                                                  The Commission carried over $9.9 million of its FY 2011 /




                                  Management’s                                            Other Accompanying
48       CFTC                     Discussion & Analysis
                                                                 Financial Section
                                                                                          Information
                                                                                                                       Appendix
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




2012 appropriation and is using these funds to continue              Strategic Goal Two is representative of efforts to protect
operations during the first quarter of FY 2012.                      market users and the public. In FY 2011, the net cost of
                                                                     operations for this goal was $43.7 million or 23 percent.
The Commission’s General Property, Plant and Equipment               The funding for this goal is primarily to support DOE with
balance was $17.1 million more in FY 2011 than it was at             new and ongoing investigations in response to market
the end of FY 2010.          The increase was attributable to        activity. Investigations into crude oil and related derivative
technology modernization and space renovations made in               contracts, and suspected Ponzi schemes have been extremely
Kansas City, MO. and Washington, D.C.                                resource intensive.

The Commission enters into commercial leases for its                 Strategic Goal Three is representative of efforts to ensure
headquarters and regional offices. In FY 2011, the agency            market integrity. In FY 2011, the net cost of operations for
entered into a new lease agreement in Kansas City, MO and            this goal was $61.1 million or 33 percent, an increase of
expanded its Washington, DC lease. These leasing                     eight percent from FY 2010. The increase is reflective of the
arrangements allowed for monthly rent payments to be                 emphasis necessary to develop concrete measures that will
deferred until future years as well as provided for landlord         bring transparency, openness and competition to the swaps
contributions to space renovations. These amounts are                markets while lowering the risk they pose to the American
reflected as a Deferred Lease Liability on the Balance Sheet.        public.
Additionally, as should be expected from a small regulatory
agency; payroll, benefits, accounts payable and annual               Strategic Goal Four is representative of efforts to increase
                                                                     cross-border cooperation to promote strong international
leave make up the majority of the remaining CFTC
                                                                     regulatory standards. The net cost of this work, in prior
liabilities.
                                                                     years was subsumed within Goal Five. In FY 2011, the net
                                                                     cost of operations for this goal was $8.4 million or four
Statement of Net Cost
                                                                     percent. CFTC is dramatically expanding its cross-border
This statement is designed to present the components of the          presence through cooperative agreements and active partici-
Commission’s net cost of operations. Net cost is the gross           pation on international standards setting organization
cost incurred less any revenues earned from Commission               committees.
activities. The Statement of Net Cost is categorized by the
Commission’s five strategic goals which were revised in              Strategic Goal Five is representative of efforts to achieve
FY 2011 to add a new goal: Enhance the integrity of U.S.             organizational excellence and accountability. Included in
Markets by engaging in cross-border cooperation to promote           this goal are the efforts of the Chairman, Commissioners,
strong international regulatory standards.           Moreover, for   and related staff to ensure more transparency in the
clarity, management realigned most DCR and DSIO work                 commodity markets, and lay the groundwork for the future.
into Strategic Goal Two and most DOE work into Goal                  Additionally, these costs are reflective of the planning and
Three. The comparative presentation in the financial state-          execution of human capital, financial management, and
ments uses an allocation to reclassify FY 2010 to conform to         technology initiatives. In FY 2011, the net cost of operations
the FY 2011 presentation.                                            for this goal was $25.9 million or 14 percent.

The Commission experienced a 10.7 percent increase in the            Statement of Changes in Net Position
total net cost of operations during FY 2011.
                                                                     The Statement of Changes in Net Position presents the
Strategic Goal One, which tracks activities related to market        agency’s cumulative net results of operation and unex-
oversight, continues to require a significant share of               pended appropriations for the fiscal year. CFTC’s Net
Commission resources at 26 percent of net cost of opera-             Position increased by $44.5 million, or 106 percent, in
tions in FY 2011. The $48.4 million reflects a continuation          FY 2011. The dramatic increase is primarily attributed to
of management’s effort to address market volatility.                 cumulative net results of operations which rose by




     Management’s                                                Other Accompanying
     Discussion & Analysis
                                     Financial Section
                                                                 Information
                                                                                                Appendix               CFTC         49
$30.3 million (the earmarked funds of Consumer                   revenues include registration, filing, appeal fees, and
Protection Fund accounted for $23.8 million of that              general receipts.          The Statement of Custodial Activity
balance) and Total Unexpended Appropriations which               reflects total cash collections in the amount of $13.5
reflects a yearly increase of $14.2 million in the cumulative    million. Of which $7.7 million was transferred to Treasury
amount of Unexpended Appropriations as of September              and $5.8 was transferred into the Customer Protection
30, 2011. This is not unexpected as the earmarked funds          Fund. This amount represents a decrease of $62.4 million
for the Customer Protection Fund were not deposited until        from      FY       2010,   when    the    Commission     collected
late September. The Commission had also been operating           $75.9 million.
under a continuing resolution for about seven months and
obligated most of its non-compensation and benefit               Historical experience has indicated that a high percentage
budget in the fourth quarter of the fiscal year.                 of custodial receivables prove uncollectible. The method-
                                                                 ology used to estimate the allowance for uncollectible
                                                                 amounts related to custodial accounts is that custodial
Statement of Budgetary Resources
                                                                 receivables are considered 100 percent uncollectible unless
This statement provides information about the provision          deemed otherwise. An allowance for uncollectible accounts
of budgetary resources and its status as of the end of the       has been established and included in the accounts receiv-
year.   Information in this statement is consistent with         able on the Balance Sheet. The allowance is based on past
budget execution information and the information                 experience in the collection of accounts receivables and an
reported in the Budget of the U. S. Government, FY 2011.         analysis of outstanding balances.            Accounts are re-esti-
                                                                 mated quarterly based on account reviews and a determi-
The $202.7 million appropriation received in FY 2011
                                                                 nation that changes to the net realizable value are needed.
represented a 20 percent increase for the Commission.
This permitted the Commission to continue to fund
benefits and compensation, lease expenses, printing,             Limitations of Financial Statements
services to support systems users, telecommunications,
                                                                 Management has prepared the principal financial statements
operations, and maintenance of information technology
                                                                 to report the financial position and operational results for
(IT) equipment. In FY 2011, gross outlays were in line with
                                                                 the CFTC for FY 2011 and FY 2010 pursuant to the require-
the gross costs of operations due to increased hiring, space
                                                                 ments of Title 31 of the U.S. Code, section 3515 (b).
renovations, and technology spending.
                                                                 While the statements have been prepared from the books
Statement of Custodial Activity                                  and records of the Commission in accordance with GAAP
                                                                 for Federal entities and the formats prescribed by OMB
This statement provides information about the sources and
                                                                 Circular A-136, Financial Reporting Requirements, the state-
disposition of collections. With the inception of the CFTC
                                                                 ments are in addition to the financial reports used to
Customer Protection Fund, CFTC transfers earmarked
                                                                 monitor and control budgetary resources, which are
funds to it and Non-exchange revenue to the Treasury
                                                                 prepared from the same books and records.
general fund.    Collections are primarily represented by
fines, penalties, and forfeitures assessed and levied against    The statements should be read with the realization that
businesses and individuals for violations of the CEA or          they are a component of the U.S. government, a sovereign
Commission regulations. They also include non-exchange           entity.




                                  Management’s                                                 Other Accompanying
50      CFTC                      Discussion & Analysis
                                                                Financial Section
                                                                                               Information
                                                                                                                            Appendix
                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                            Management Assurances

Management Overview



T        he CFTC is committed to management excellence
         and recognizes the importance of strong financial
systems and internal controls to ensure accountability,
                                                               Monitoring is the assessment of internal control perfor-
                                                               mance to ensure the internal control processes are properly
                                                               executed and effective.
integrity, and reliability. This operating philosophy has
                                                               Information and Communication ensure the agency’s
permitted the Commission to make significant progress in
                                                               control environment, risks, control activities, and perfor-
documenting and testing its internal controls over finan-
                                                               mance results are communicated throughout the agency.
cial reporting for next year, as prescribed in OMB Circular
A-123, Management’s Responsibility for Internal Control. The
graph below depicts all five components of the internal
control process that must be present in an organization to
ensure an effective internal control process.

Control Environment is the commitment to encourage
the highest level of integrity and personal and professional
standards, and promotes internal control through leader-
ship philosophy and operation style.

Risk Assessment is the identification and analysis of risks
associated with business processes, financial reporting,
technology systems, and controls and legal compliance in
the pursuit of agency goals and objectives.

Control Activities are the actions supported by manage-
ment policies and procedures to address risk, e.g., perfor-
mance reviews, status of funds reporting, and asset manage-
ment reviews.




    Management’s                                           Other Accompanying
    Discussion & Analysis
                                  Financial Section
                                                           Information
                                                                                          Appendix               CFTC         51
The Commission relies on its performance management               Statement of Assurances
and internal control framework to:
                                                                  The Statement of Assurance is required by the Federal
■■   Ensure that its divisions and mission support offices        Managers’ Financial Integrity Act (FMFIA) and OMB
     achieve the intended results efficiently and effectively;    Circular A-123, Management’s Responsibility for Internal
     and                                                          Control. The assurance is for internal controls over opera-
■■   Ensure the maintenance and use of reliable, complete,        tional effectiveness (we do the right things to accomplish
     and timely data for decision-making at all levels.           our mission) and operational efficiency (we do things
                                                                  right).




                                                   Statement of Assurance
     “CFTC management is responsible for establishing and maintaining effective internal control and financial management
     systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). The CFTC conducted its
     assessment of the internal control over effectiveness and efficiency of operations, and compliance with applicable laws
     and regulations, in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based
     on the results of this evaluation, the CFTC can provide reasonable assurance that its internal control over operations,
     and compliance with applicable laws and regulations, as of September 30, 2011 was operating effectively and no
     material weaknesses were found in the design or operation of the internal controls.

     The CFTC also conducts reviews of its financial management systems in accordance with OMB Circular A-127,
     Financial Management Systems. Based on the results of these reviews, the CFTC can provide reasonable assurance that
     its financial management systems are in compliance with applicable provisions of FMFIA as of September 30, 2011.

     In addition, the CFTC conducted its assessment of the effectiveness of internal control over financial reporting, which
     includes safeguarding of assets and compliance with applicable laws and regulations governing the use of budget
     authority and other laws and regulations that could have a material effect on the financial statements, in accordance
     with the requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the CFTC
     can provide reasonable assurance that its internal control over financial reporting as of June 30, 2011 was operating
     effectively and no material weaknesses were found in the design or operation of the internal control over financial
     reporting”.



                                                                       Gary Gensler
                                                                       Chairman
                                                                       November 14, 2011




                                   Management’s                                            Other Accompanying
52       CFTC                      Discussion & Analysis
                                                                 Financial Section
                                                                                           Information
                                                                                                                        Appendix
                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




During FY 2011, in accordance with FMFIA, and using the         ■■   Pay and benefits assessment based on the authority of
guidelines of OMB, the Commission reviewed key compo-                Section 10702 of the Public Law 107-171, Farm Security
nents of its management and internal control system.                 and Rural Investment Act of 2002 (FSRIA);

The objectives of the Commission’s internal controls are to     ■■   Remediation of management letter matters identified
provide reasonable assurance that:                                   in the FY 2010 audit of the agency’s financial statements
                                                                     and related internal controls;
■■   Obligations and costs are in compliance with applicable
     laws;                                                      ■■   Management control reviews conducted with the
                                                                     express purpose of assessing internal controls;
■■   Assets are safeguarded against waste, loss, unauthorized
                                                                ■■   Management control reviews conducted with the
     use, or misappropriation;
                                                                     express purpose of assessing compliance with appli-
■■   Revenues and expenditures applicable to Commission              cable laws, regulations, government-wide policies, and
     operations are properly recorded and accounted for              laws identified by OMB in Memorandum M-09-33
     to permit the preparation of accounts and reliable              Technical Amendments to OMB Bulletin No. 07-04
     to financial and statistical reports, and to maintain           Audit Requirements for Federal Financial Statements;
     accountability over assets; and
                                                                ■■   Information security as required by the Federal Infor-
■■   All programs are efficiently and effectively carried out        mation Security Management Act (FISMA); and
     in accordance with applicable laws and management
                                                                ■■   Implementation of the CFTC’s Property Inventory
     policy.
                                                                     Management System to maintain an inventory and
The efficiency of the Commission’s operations is evaluated           monitor the agency’s accountable assets.
using information obtained from reviews conducted by
Government Accountability Office (GAO) and the Office of        FMFIA Section 2, Management Control
Inspector General (OIG), specifically, requested studies, or
                                                                The Commission has no declared material weakness under
observations of daily operations.
                                                                FMFIA for FY 2011 and FY 2010 in the area of financial
These reviews ensure that the Commission’s systems and          reporting that hinders preparation of timely and accurate
controls comply with the standards established by FMFIA.        financial statements.
Moreover, managers throughout the Commission are
responsible for ensuring that effective controls are imple-
                                                                FMFIA Section 4, Financial Management
mented in their areas of responsibility. Individual assurance
                                                                Systems
statements from division and office heads serve as a primary
basis for the Chairman’s assurance that management              The Commission declared no systems nonconformance
controls are adequate. The assurance statements are based       under FMFIA during FY 2011 and FY 2010. The indepen-
upon each office’s evaluation of progress made in correcting    dent auditors’ reports for FY 2011 and FY 2010 disclosed no
any previously reported problems, as well as new problems       instances of noncompliance or other matters that were
identified by the OIG, GAO, other management reports, and       required to be reported under Generally Accepted Government
the management environment within each office. The items        Auditing Standards (GAGAS) and OMB Bulletin 07-04, Audit
presented below are illustrative of the work performed          Standards for Federal Financial Statements.
during FY 2011:




     Management’s                                           Other Accompanying
     Discussion & Analysis
                                    Financial Section
                                                            Information
                                                                                           Appendix               CFTC         53
             Forward Looking –
      Future Business Trends and Events
CFTC Implements the Dodd-Frank Act                                Over the last thirty years, however, the swaps market had



I
                                                                  remained unregulated and grew in size and complexity
          n September 2008, our economy fell into a down-         that far outstrips the futures market; it is now seven times
          ward spiral when one large financial institution        the size. Swaps added leverage to the financial system –
after another teetered on the brink of failure, threatening       with more risk backed by less capital.
our financial system and the well-being of the American
                                                                  Swaps contributed significantly to the interconnectedness
public.
                                                                  between banks, investment banks, and hedge funds, among
We are still feeling the aftershocks of this financial crisis.    other financial entities. Large financial institutions, were
More than eight million jobs were lost and the unemploy-          regarded not only as too big to fail, but also too intercon-
ment rate remains stubbornly high. Millions of Americans          nected to fail. When AIG, Bear Stearns and others col-
lost their homes or are now in homes worth less than their        lapsed, taxpayers were made to pick up the bill to prevent
mortgages. And millions of Americans continue struggling          the economy from diving deeper into a depression. The
each day to make ends meet.                                       financial system failed. Moreover, the regulatory system
                                                                  that was put in place to protect the public failed as well.
While the crisis had many causes, it is evident that unregu-
lated derivatives, called swaps, heightened risk on Wall          Just over a year ago, Congress and the President came
Street and played a central role in the financial crisis.         together and passed an historic law: the Dodd-Frank Act.
Developed in the 1980s, swaps, along with the regulated           For the first time, the CFTC and SEC will have oversight of
futures market, help producers, merchants, and other com-         the swaps and security-based swaps markets.
panies to lower their risk by locking in the price of a com-
                                                                  The Dodd-Frank Act includes many important provisions,
modity or an interest rate, currency or other financial index.
                                                                  but includes two overarching goals of reform: bringing
The public buys gasoline and groceries from companies
                                                                  transparency to the swaps market and lowering the risks of
that rely upon futures and swaps to hedge their commod-
                                                                  this market to the overall economy. Both of these reforms
ity price risks. The public keeps their savings with banks
                                                                  will better protect taxpayers from again bearing the brunt
and pension funds that use swaps to manage their interest
                                                                  of a financial crisis and will cut costs for businesses and
rate risks. Our nation’s economy relies on a well-function-
                                                                  their customers.
ing derivatives market – an essential piece of a healthy
American financial system.




                                  Management’s                                             Other Accompanying
54        CFTC                    Discussion & Analysis
                                                                 Financial Section
                                                                                           Information
                                                                                                                        Appendix
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The first overarching goal of reform brings critical transpar-   the derivatives market’s scale and risk. These rules require
ency to the derivatives marketplace. The more transparent        dealers, clearing members and clearinghouses to give the
a marketplace is the more liquid it is and the more com-         CFTC data about their swaps activities and establish swap
petitive it is. In short, when markets are open and transpar-    data repositories that will receive information on all swaps
ent, costs are lower for companies and the people who buy        transactions. By contrast, in the fall of 2008, there was no
their products. They are safer and more sound.                   required reporting about swaps trading: no one knew how
                                                                 big a problem this market posed to the economy because
The Dodd-Frank Act promotes both pre-trade and post-
                                                                 so much of the trading happened in the dark.
trade transparency. It moves certain standardized swaps
transactions to exchanges or swap execution facilities. This     Next in queue of the final rules will be the consideration of
will allow buyers and sellers to meet in an open market-         critical regulations related to speculative position limits, as
place where prices are publicly available, rather than in the    well as risk management for clearinghouses.
shadows of the financial system. The Dodd-Frank Act also
                                                                 While U.S. regulators work to implement the Dodd-Frank
requires the real-time reporting of the price and volume of
                                                                 Act here at home, the Commission also is actively consult-
transactions. Furthermore, it requires that once a swap
                                                                 ing and coordinating with international regulators to pro-
transaction is arranged, its valuation must be shared on a
                                                                 mote robust and consistent standards in swaps oversight.
daily basis with the counterparty. These measures of trans-
                                                                 The Commission also anticipates seeking public input on
parency and openness reduce some of the information
                                                                 the application of Section 722(d), which says that the law
advantages that dealers currently have over Main Street.
                                                                 does not apply to activities outside the United States unless
The second overarching goal of reform is equally as impor-       those activities have a direct and significant connection
tant. The law lowers risk to the overall economy by directly     with or effect on U.S. commerce.
regulating dealers for their swaps activities as well as mov-
                                                                 Twenty-first century finance, though, knows no true geo-
ing standardized swaps into central clearing. Clearinghouses
                                                                 graphic borders as money and risk can move around the
mitigate the risks that arise from the interconnectedness in
                                                                 globe with a touch of a button. Sober evidence of this can
the financial system by standing between counterparties
                                                                 be seen through AIG’s swaps affiliate, AIG Financial
and guaranteeing the obligations of the parties in case of
                                                                 Products, which had its major operations in London. When
default. They have lowered risk for the public in the futures
                                                                 it failed, the U.S. economy, and taxpayers shouldered the
markets since the late-19th Century – through world wars,
                                                                 greatest burden.
the Great Depression, and financial crises. It’s time to mod-
ernize the swaps market and provide the same protections         Economists have agreed for decades that transparency in
for taxpayers.                                                   markets actually reduces costs and makes markets more
                                                                 efficient. Furthermore, the U.S. financial system remains
This spring, the CFTC largely completed the proposal phase
                                                                 interconnected through the swaps market here, in Europe
of its rule-writing process. This summer, the agency turned
                                                                 and in Asia. Thus, the current debt crisis in Europe is but a
an important corner, as we began finalizing rules to make
                                                                 stark reminder of why completing financial reform is so
the swaps marketplace more open and transparent for par-
                                                                 necessary for the U.S. economy and to protect taxpayers.
ticipants and safer for taxpayers.
                                                                 Dodd-Frank is about transparency and ensuring the public
Among the regulations we have completed is a rule giving         does not bear the risks of the financial system.
the Commission new authority to effectively prosecute
                                                                 In 2008, if Dodd-Frank had been in place, greater transpar-
wrongdoers who recklessly manipulate the markets. Also,
                                                                 ency would have allowed regulators to see the simmering
we will soon begin rewarding whistleblowers for their help
                                                                 problems at large financial institutions, such as AIG. In
in catching fraud, manipulation or other misconduct in
                                                                 2008, our nation had a difficult decision: rescue institu-
the financial markets.
                                                                 tions or risk a depression. At its core, Dodd-Frank lowers
The Commission also finished rules that, for the first time,     the risk that the American people will ever be put in that
will give regulators and the public specific information on      position again.




    Management’s                                             Other Accompanying
    Discussion & Analysis
                                     Financial Section
                                                             Information
                                                                                            Appendix               CFTC         55
At the CFTC, commissioners and staff are working day and        and poses new questions concerning what constitutes
night to put up the necessary street lamps to bring the         abusive trading practices. As part of addressing this issue,
swaps market out of the shadows and the traffic signals to      the Commission will continue its participation with the
protect the public from another financial crash. Until these    SEC in the Joint Advisory Committee on Emerging Regula-
reforms are complete, however, the public remains at risk.      tory Issues. Because trading takes place globally, the CFTC
                                                                expects to cooperate with other international authorities
The agency is taking on a significantly expanded scope and
                                                                that are examining these issues as well. The Commission
mission. So far, staff and commissioners have held more
                                                                also will continue to conduct its own research in this area.
than 1,000 meetings with the public, and received over
25,000 comments on its proposed rules. As the
                                                                Energy and Agricultural Futures Markets
Commission continues to finalize rules, market partici-
pants will increasingly seek guidance from the CFTC.            The continued concerns that have been expressed with
Without sufficient funding, though, it will not have the        respect to contract specifications in several agricultural
resources to be as responsive to the public as it should be.    futures contracts raise issues that go to the core of the
                                                                commodity markets and their continued viability for
The agency must be adequately resourced to ensure the
                                                                hedging. The Commission will remain engaged in these
new swaps market rules will be strictly enforced – rules
                                                                critical issues, both through the Commission’s Agricul-
that promote transparent markets, lower costs for consum-
                                                                tural Advisory Committee and the deployment of staff to
ers and protect taxpayers. Without sufficient funding, the
                                                                analyze these problems on a priority basis.
Commission will not have the resources to put enough
cops on the beat for the public’s protection.                   Global shortages, increasing consumer demands and a
                                                                variety of fundamental factors that affect and possibly
Other Existing Challenges                                       distort supply and demand make it likely that there will be
                                                                continued periods of price volatility in strategically impor-
Systemic Risks                                                  tant energy and agricultural commodities. Most recently
                                                                these concerns have been expressed by the G20 Group of
The financial crisis prompted multilateral organizations,
                                                                Financial Ministers, and the Commission expects that these
such as IOSCO, to emphasize the identification of systemic
                                                                concerns will continue to be expressed in the years ahead.
risks as a new principle for its member regulatory agencies.
The 2010 financial legislation similarly stressed the need      The Commission has contributed to the U.S. response to
for a more comprehensive approach to the identification         these G20 concerns through its co-chairing of an IOSCO
of systemic risk through the creation of a new risk council     Task Force on Commodity Futures Markets. Work within
composed of the U.S. financial regulators. The Commis-          the Task Force helped focus attention on the need for
sion will need to develop internal mechanisms and acquire       greater transparency in OTC and cash markets as means
new competencies and approaches to risk identification to       to match the transparency that already exists in futures
address this new policy objective. Addressing systemic risks    markets. The Commission expects to share its expertise
will also involve greater international cooperation and the     concerning techniques used to: identify and make public,
development of new global mechanisms for the ongoing            through its Commitments of Traders (COT) reports, large
evaluation of, and sharing of concerns regarding, emerging      concentrations of positions, the use of position limits as
global financial risks. The challenge will be to develop        a means to address what the CEA terms excessive specu-
internal, domestic and global mechanisms that can under-        lation, and the application of aggressive enforcement
stand, identify and address novel, emerging forms of risk.      programs that target conduct that may involve futures,
                                                                OTC and cash markets. The continued “linkage” of U.S.
Impact of Technology on Market Structure                        and European markets through dually-regulated intermedi-
                                                                aries, exchanges, clearing-houses and soon-to-be registered
The May 2010 “flash crash” has focused attention on the
                                                                trade repositories will undoubtedly require closer coopera-
activities of high frequency, algorithmic-driven traders.
                                                                tion and coordination with European authorities.
High frequency trading challenges regulators to under-
stand how this form of trading has transformed markets


                                 Management’s                                           Other Accompanying
56     CFTC                      Discussion & Analysis
                                                               Financial Section
                                                                                        Information
                                                                                                                     Appendix
Financial Section




      	58	 A Message from the
      	 	   Chief Financial Officer

      59	 Limitations of Financial
      		    Statements

      60	 Principal Financial Statements

      65	 Notes to the Financial
      		    Statements

      78	 Report of the
      		    Independent Auditors
A Message From the Chief Financial Officer

  T             he public accounting firm, KPMG LLP, on
                behalf of the Inspector General, reported that
                the Commission’s financial statements were
  presented fairly, in all material respects, and were in confor­
  mity with U.S. generally accepted accounting principles.
                                                                     management service provider. As a consequence, the CFTC
                                                                     is able to accumulate, analyze, and present reliable finan­
                                                                     cial information, or provide reliable, timely information
                                                                     for managing current operations and timely reporting of
                                                                     financial information to central agencies.       Furthermore,
                                                                     our system is in substantial compliance with the Federal
  For the fifth consecutive year the Commission had no               Financial Management Improvement Act (FFMIA) of 1996
  material weaknesses, and was compliant with laws and               (although CFTC is not required to comply with FFMIA, it
  regulations. This includes substantial compliance with the         has elected to do so).
  Federal Information Security Management Act (FISMA).
  No significant deficiencies in the controls over financial
  reporting were identified during the last four fiscal years.

                                                                                        Mark Carney
  The CFTC leverages a financial management systems
                                                                                        Chief Financial Officer
  platform operated by the U.S. Department of Trans­                                    November 14, 2011
  portation’s (DOT) Enterprise Service Center, an Office of
  Management and Budget (OMB) designated financial




                                    Management’s                                                 Other Accompanying
  58      CFTC                      Discussion & Analysis
                                                                    Financial Section
                                                                                                 Information
                                                                                                                           Appendix
Limitations of Financial Statements
Management has prepared the accompanying financial statements to report the financial position and operational results
for the CFTC for FY 2011 and FY 2010 pursuant to the requirements of Title 31 of the U.S. Code, section 3515 (b).

While these statements have been prepared from the books and records of the Commission in accordance with GAAP
for Federal entities and the formats prescribed by OMB Circular A-136, Financial Reporting Requirements, these statements
are in addition to the financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records.

The statements should be read with the understanding that they represent a
component of the U.S. government, a sovereign entity. One implication of
this is that the liabilities presented herein cannot be liquidated without the
enactment of appropriations, and ongoing operations are subject to the
enactment of future appropriations.
             Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2011 and 2010

                                                                                                2011                      2010


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 2)                                                $	 81,785,717                  $44,321,898
  	   Prepayments (Note 1I)                                                                        90,107                     6,449
  	   Total Intragovernmental                                                                 81,875,824                 44,328,347

  Custodial Receivables, Net (Note 3)                                                           2,574,173                 2,319,934
  Accounts Receivable (Note 3)                                                                     59,226                     4,836
  General Property, Plant and Equipment, Net (Note 4)                                         42,346,895                 25,203,787
  Deferred Costs (Note 5)                                                                       6,254,873                 6,303,367
  Prepayments (Note 1I)                                                                         1,019,519                  635,508

  Total Assets                                                                           $	 134,130,510            $	 78,795,779

  Liabilities
  Intragovernmental:
  	   FECA Liabilities                                                                   $	        91,175          $	       45,012
  	   Accounts Payable                                                                            693,987                  426,691
  	   Total Intragovernmental                                                                     785,162                  471,703

  Accounts Payable                                                                              6,398,362                 7,223,342
  Accrued Funded Payroll                                                                        7,346,675                 6,835,767
  Annual Leave                                                                                  8,117,663                 7,624,369
  Actuarial FECA Liabilities (Note 8)                                                             437,337                  211,789
  Custodial Liabilities                                                                         2,574,173                 2,319,934
  Deposit Fund Liabilities                                                                         57,127                   22,226
  Deferred Lease Liabilities (Note 9)                                                         21,974,782                 12,174,352
  Other                                                                                            19,649                     7,226
  Contingent Liabilities (Note 10)                                                       	                –        	              –
  Total Liabilities                                                                      $	 47,710,930             $	 36,890,708

  Net Position
  	   Cumulative Results of Operations - Earmarked                                       $	 23,755,000             $	             –
  	   Cumulative Results of Operations - Other                                                17,998,424           	     11,455,579
  	   Unexpended Appropriations                                                               44,666,156                 30,449,492
  Total Net Position                                                                          86,419,580                 41,905,071

  Total Liabilities and Net Position                                                     $	 134,130,510            $	 78,795,779
The accompanying notes are an integral part of these financial statements.


                                     Management’s                                             Other Accompanying
60     CFTC                          Discussion & Analysis
                                                                     Financial Section
                                                                                              Information
                                                                                                                               Appendix
                                                                             F I NAN C I AL S E C T I ON




Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2011 and 2010

                                                                                             2011                2010

  Net Cost by Goal (Note 14)

  Goal 1: Protect the public and market participants by ensuring market integrity;
  promoting transparency, competition, and fairness; and lowering risk in the system.
  Gross Costs                                                                          $	   48,413,277     $	   43,190,513
  Less: Earned Revenue                                                                         (22,890)            (18,301)
  Net Cost of Operations – Goal One                                                    $	   48,390,387     $	   43,172,212


  Goal 2: Protect the public and market participants by ensuring the financial
  integrity of derivatives transactions, mitigation of systemic risk, and the
  fitness and soundness of intermediaries and other registrants.
  Gross Costs                                                                          $	   43,722,068     $	   39,097,798
  Less: Earned Revenue                                                                         (20,672)            (16,567)
  Net Cost of Operations – Goal Two                                                    $	   43,701,396     $	   39,081,231


  Goal 3: Protect the public and market participants
  through a robust enforcement program.
  Gross Costs                                                                          $	   61,173,365     $	   54,926,125
  Less: Earned Revenue                                                                         (28,923)            (23,274)
  Net Cost of Operations – Goal Three                                                  $	   61,144,442     $	   54,902,851


  Goal 4: Enhance integrity of U.S. markets by engaging in cross-border cooperation,
  promoting strong international regulatory standards, and encouraging ongoing
  convergence of laws and regulation worldwide.
  Gross Costs                                                                          $	    8,444,176     $	    7,492,007
  Less: Earned Revenue                                                                          (3,992)             (3,175)
  Net Cost of Operations – Goal Four                                                   $	    8,440,184     $	    7,488,832


  Goal 5: Promote Commission excellence through executive direction
  and leadership, organizational and individual performance management,
  and effective management of resources.
  Gross Costs                                                                          $	   25,895,474     $	   24,834,334
  Less: Earned Revenue                                                                         (12,243)            (10,523)
  Net Cost of Operations – Goal FIVE                                                   $	   25,883,231     $	   24,823,811

  Grand Total
  Gross Costs                                                                          $	 187,648,360      $	 169,540,777
  Less: Earned Revenue                                                                         (88,720)            (71,840)
  Total Net Cost of Operations                                                         $	 187,559,640      $	 169,468,937
The accompanying notes are an integral part of these financial statements.




    Management’s                                                  Other Accompanying
    Discussion & Analysis
                                     Financial Section
                                                                  Information
                                                                                               Appendix          CFTC         61
Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2011 and 2010

                                                                                                              2011

                                                                                      Earmarked            All Other     Consolidated
  Cumulative Results of Operations                                                      Funds                Funds          Total
  Beginning Balances, October 1                                                   $	            –     $	11,455,579       $	11,455,579
  	   Appropriations Used                                                         	             –         187,513,010        187,513,010
  Other Financing Sources
  	   Transfers - In/Out Without Reimbursement (Note 16)                               23,755,000     	              –        23,755,000
  	   Imputed Financing Sources                                                   	             –           6,589,475          6,589,475
  	   Total Financing Sources                                                          23,755,000           6,589,475         30,344,475
  Net Cost of Operations                                                          	             –     	(187,559,640)     	(187,559,640)
  Net Change                                                                           23,755,000           6,542,845         30,297,845
  Total Cumulative Results of Operations, September 30                            $	23,755,000        $	17,998,424       $	41,753,424

  Unexpended Appropriations
  Beginning Balances, October 1                                                   $	            –     $	30,449,492       $	30,449,492
  Budgetary Financing Sources
  	   Appropriations Received                                                     	             –         202,675,000        202,675,000
  	   Less: Other Adjustments (Recissions, etc.)                                  	             –     	      (945,326)   	      (945,326)
  	   Appropriations Used                                                         	             –     	(187,513,010)     	(187,513,010)
  		 Total Budgetary Financing Sources                                            	             –          14,216,664         14,216,664
  Total Unexpended Appropriations, September 30                                   $	            –     $	44,666,156       $	44,666,156
  Net Position                                                                    $	23,755,000        $	62,664,580       $	86,419,580


                                                                                                              2010

                                                                                      Earmarked            All Other     Consolidated
  Cumulative Results of Operations                                                      Funds                Funds          Total
  Beginning Balances, October 1                                                   $	            –     $	     491,751     $	     491,751
  	   Appropriations Used                                                         	             –         172,621,037        172,621,037
  Other Financing Sources
  	   Transfers - In/Out Without Reimbursement                                    	             –     	              –   	             –
  	   Imputed Financing Sources                                                   	             –           7,811,728          7,811,728
  	   Total Financing Sources                                                     	             –           7,811,728          7,811,728
  Net Cost of Operations                                                          	             –     	(169,468,937)     	(169,468,937)
  Net Change                                                                      	             –          10,963,828         10,963,828
  Total Cumulative Results of Operations, September 30                            $	            –     $	11,455,579       $	11,455,579

  Unexpended Appropriations
  Beginning Balances, October 1                                                   $	            –     $	35,199,297       $	35,199,297
  Budgetary Financing Sources
  	   Appropriations Received                                                     	             –         168,800,000        168,800,000
  	   Less: Other Adjustments (Rescissions, etc.)                                 	             –            (928,768)          (928,768)
  	   Appropriations Used                                                         	             –     	(172,621,037)     	(172,621,037)
  		 Total Budgetary Financing Sources                                            	             –     	 (4,749,805)      	 (4,749,805)
  Total Unexpended Appropriations, September 30                                   $	            –     $	30,449,492       $	30,449,492
  Net Position                                                                    $	            –     $	41,905,071       $	41,905,071
The accompanying notes are an integral part of these financial statements.




                                    Management’s                                                    Other Accompanying
62     CFTC                         Discussion & Analysis
                                                                     Financial Section
                                                                                                    Information
                                                                                                                                    Appendix
                                                                             F I NAN C I AL S E C T I ON



Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2011 and 2010

                                                                                                      2011                 2010

  Budgetary Resources
  Unobligated Balance, October 1                                                             $	       2,944,832    $	     2,893,603
  Recoveries of Prior Year Unpaid Obligations                                                         1,448,576             812,898
  Total Prior Resources                                                                               4,393,408           3,706,501
  Budget Authority:
  	    Appropriation                                                                               202,675,000          168,800,000
  	    Spending Authority from Offsetting Collections
  		 Collected                                                                                      24,031,598             207,298
  		 Change in Receivables from Federal Sources                                                            218             (10,600)
  	 Change in Unfilled Customer Orders
  		 Advance Received                                                                                12,422                  (286)
  		 Without Advance from Federal Sources                                                            39,401               (10,171)
  Total New Resources                                                                        $	 226,758,639        $	 168,986,241
  Permanently Not Available:
  	    Cancellation of Expired Accounts                                                                (539,976)           (928,768)
  	    Enacted Reduction                                                                               (405,350)   	              –
  Total Budgetary Resources                                                                  $	 230,206,721        $	 171,763,974

  Status of Budgetary Resources
  Obligations Incurred:
  Direct
  	 Obligations Incurred, Direct                                                                   192,773,375          168,760,472
  	 Obligations Incurred, Reimbursable                                                       $	         77,156     $	        58,670
  Total Obligations Incurred (Note 12)                                                             192,850,531          168,819,142
  Unobligated Balance
  Apportioned:
  	 Unobligated Balance Apportioned                                                                  9,880,055              460,075
  	 Unobligated Balance Not Available                                                               27,476,135            2,484,757
  Total Status of Budgetary Resources                                                        $	 230,206,721        $	 171,763,974

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	 Unpaid Obligations                                                                       $	  41,365,242        $	  40,957,240
  	 Uncollected Customer Payments from Federal Sources                                              (10,403)              (31,174)
  Net Obligated Balance, October 1                                                           $	 41,354,839         $	 40,926,066
  Gross Obligations Incurred, Net                                                               192,850,530           168,819,142
  Gross Outlays                                                                                (188,304,270)         (167,598,242)
  Recoveries of Prior Year Unpaid Obligations                                                    (1,448,576)             (812,898)
  Change in Receivables from Federal Sources                                                        (39,619)               20,771
                                                                                             $	 44,412,904         $	 41,354,839
  Net Obligated Balance, September 30
  	 Unpaid Obligations                                                                       $	     44,462,925     $	    41,365,242
  	 Uncollected Customer Payments from Federal Sources                                                 (50,021)             (10,403)
  Net Obligated Balance, September 30                                                        $	     44,412,904     $	    41,354,839

  Net Outlays
  Gross Outlays                                                                              $	 188,304,270        $	 167,598,242
  Offsetting Collections Received                                                               (24,044,020)             (207,011)
  Distributed Offsetting Receipts                                                                    (2,219)               (2,985)
  Net Outlays                                                                                $	 164,258,031        $	 167,388,246
The accompanying notes are an integral part of these financial statements.




      Management’s                                                Other Accompanying
      Discussion & Analysis
                                     Financial Section
                                                                  Information
                                                                                                  Appendix              CFTC          63
Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2011 and 2010

                                                                                                2011                 2010


  Revenue Activity
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                   $	 2,059,411         $	     676,649
  	       Fines, Penalties, and Forfeitures                                                   11,433,774           75,177,834
  	       General Proprietary Receipts                                                             2,219                2,985
  Total Cash Collections                                                                      13,495,404           75,857,468
  Change in Custodial Receivables                                                               254,239              616,714
  Total Custodial Revenue                                                                $	 13,749,643        $	 76,474,182


  Disposition of Collections
  	Amounts Transferred to:
  		 Department of the Treasury                                                          	    (7,740,404)     	 (75,857,468)
  		 CFTC Customer Protection Fund                                                       	    (5,755,000)     	             –
  		 Change in Custodial Liabilities                                                     	      (254,239)     	      (616,714)
  Net Custodial Activity                                                                 $	            –      $	            –
The accompanying notes are an integral part of these financial statements.




                                         Management’s                                    Other Accompanying
64         CFTC                          Discussion & Analysis
                                                                     Financial Section
                                                                                         Information
                                                                                                                          Appendix
      Notes to the Financial Statements
                            As of and For the Fiscal Years Ended September 30, 2011 and 2010


Note 1. Summary of Significant                                    B. Basis of Presentation
Accounting Policies                                               The financial statements have been prepared to report the
                                                                  financial position and results of operations for the CFTC, as
A. Reporting Entity
                                                                  required by the Chief Financial Officers’ Act of 1990 along
The Commodity Futures Trading Commission (CFTC) is an             with the Accountability of Tax Dollars Act of 2002, and the
independent agency of the executive branch of the Federal         Government Management Reform Act of 1994. They are
Government. Congress created the CFTC in 1974 under the           presented in accordance with the form and content require­
authorization of the Commodity Exchange Act (CEA) with            ments contained in Office of Management and Budget (OMB)
the mandate to regulate commodity futures and option              Circular No. A-136, “Financial Reporting Requirements,” as
markets in the United States. The agency’s mandate was            amended.
renewed and expanded under the Futures Trading Acts of
1978, 1982, and 1986; under the Futures Trading Practices         The principal financial statements have been prepared in
Act of 1992; under the CFTC Reauthorization Act of 1995;          all material respects from the agency’s books and records in
under the Commodity Futures Modernization Act of 2000;            conformity with U.S. generally accepted accounting princi­
and under the Dodd-Frank Act of 2010. Congress passed             ples (GAAP), as prescribed for the federal government by the
the Food, Conservation, and Energy Act of 2008 (Farm Bill),       Federal Accounting Standards Advisory Board (FASAB). The
which reauthorized the Commission through FY 2013. Since          application and methods for applying these principles are
its inception, the CFTC has continuously operated through         appropriate for presenting fairly the entity’s assets, liabili­
authorized appropriations.                                        ties, net cost of operations, changes in net position, and
                                                                  budgetary resources.
The CFTC is responsible for ensuring the economic utility of
futures markets by encouraging their competitiveness and          The financial statements report on the CFTC’s financial
efficiency, ensuring their integrity, and protecting market       position, net cost of operations, changes in net position,
participants against manipulation, abusive trade practices,       budgetary resources, and custodial activities. The books and
and fraud.                                                        records of the agency served as the source of information for
                                                                  preparing the financial statements in the prescribed formats.
On July 21, 2010, the “Dodd-Frank Wall Street Reform and          All agency financial statements and reports used to monitor
Consumer Protection Act” (the Dodd-Frank Act, or the Act)         and control budgetary resources are prepared from the same
was signed into law, significantly expanding the powers and       books and records. The statements should be read with the
responsibilities of the CFTC. According to Section 748 of the     understanding that they are for a component of the U.S.
Act, there is established in the Treasury of the United States    Government, a sovereign entity.
a revolving fund known as the “Commodity Futures Trading
Commission Customer Protection Fund” (the Fund). The              The Balance Sheets present the financial position of the
Fund shall be available to the Commission, without further        agency. The Statements of Net Cost present the agency’s
appropriation or fiscal year limitation, for a) the payment of    operating results; the Statements of Changes in Net Position
awards to whistleblowers; and b) the funding of customer          display the changes in the agency’s equity accounts. The
education initiatives designed to help customers protect          Statements of Budgetary Resources present the sources, status,
themselves against fraud or other violations of this Act or the   and uses of the agency’s resources and follow the rules for the
rules and regulations thereunder.                                 Budget of the United States Government. The Statements
                                                                  of Custodial Activity present the sources and disposition of
                                                                  collections for which the CFTC is the fiscal agent, or custo­
                                                                  dian, for the Treasury General Fund Miscellaneous Receipt
                                                                  accounts.


    Management’s                                              Other Accompanying
    Discussion & Analysis
                                     Financial Section
                                                              Information
                                                                                           Appendix              CFTC        65
Throughout these financial statements, assets, liabilities,          tions. Non-entity assets are those held by the CFTC that are
revenues and costs have been classified according to the             not available for use in its operations. Non-entity assets held
type of entity with whom the transactions were made.                 by the CFTC include deposit fund balances, custodial fines,
Intragovernmental assets and liabilities are those from or to        interest, penalties, and administrative fees receivable.
other federal entities. Intragovernmental earned revenues are
collections or accruals of revenue from other federal entities,      E. Fund Balance with Treasury
and intragovernmental costs are payments or accruals to
                                                                     Fund Balance with Treasury is the aggregate amount of the
other federal entities. The CFTC does not transact business
                                                                     CFTC’s funds with Treasury in expenditure, receipt, revolving,
among its own operating units, and therefore, intra-entity
                                                                     and deposit fund accounts. Appropriated funds recorded in
eliminations were not needed.
                                                                     expenditure accounts are available to pay current liabilities
                                                                     and finance authorized purchases. Revolving fund Custodial
C. Budgetary Resources and Status
                                                                     collections recorded in the deposit fund account and miscel­
The CFTC is funded through congressionally approved                  laneous receipts accounts of the Treasury are not available for
appropriations. The CFTC is responsible for administering            agency use. At fiscal year-end, receipt account balances are
the salaries and expenses of the agency through the execu­           returned to Treasury or transferred to the Customer Protection
tion of these appropriations.                                        Fund.

Congress annually enacts appropriations that provide                 The CFTC does not maintain bank accounts of its own, has
the CFTC with the authority to obligate funds within the             no disbursing authority, and does not maintain cash held
respective fiscal year for necessary expenses to carry out           outside of Treasury. Treasury disburses funds for the agency
mandated program activities. In addition, Congress enacted           on demand. Spending authority from offsetting collections is
a permanent indefinite appropriation that is available until         recorded in the agency’s expenditure account and is available
expended. All appropriations are subject to quarterly appor­         for agency use subject to certain limitations.
tionment as well as Congressional restrictions.
                                                                     F. Accounts Receivable
The CFTC’s budgetary resources for FY 2011 consist of:
                                                                     Accounts receivable consists of amounts owed by other
■■   Unobligated balances of resources brought forward
                                                                     federal agencies and the public to the CFTC and is valued net
     from the prior year,
                                                                     of an allowance for uncollectible amounts. The allowance
■■   Recoveries of obligations in prior years, and                   is based on past experience in the collection of receivables
                                                                     and analysis of the outstanding balances. Accounts receivable
■■   New resources in the form of appropriations and                 arise from reimbursable operations, earned refunds or the
     spending authority from offsetting collections.                 Civil Monetary Sanctions program.

Unobligated balances associated with resources expiring at           G. General Property, Plant and Equipment
the end of the fiscal year remain available for five years after
expiration only for upward adjustments of prior year obliga­         Furniture, fixtures, equipment, information technology hard­
tions, after which they are canceled and may not be used.            ware and software, and leasehold improvements are capital­
All unused monies related to canceled appropriations are             ized and depreciated or amortized over their useful lives.
returned to Treasury and the canceled authority is reported as
                                                                     The CFTC capitalizes assets annually if they have useful lives
a line item on the Statements of Budgetary Resources and the
                                                                     of at least two years and an individual value of $25,000 or
Statements of Changes in Net Position.
                                                                     more. Bulk or aggregate purchases are capitalized when the
                                                                     individual useful lives are at least two years and a value of
D. Entity and Non-Entity Assets
                                                                     $25,000 or more. Property, plant and equipment that do not
Assets consist of entity and non-entity assets. Entity assets are    meet the capitalization criteria are expensed when acquired.
those assets that the CFTC has authority to use for its opera­       Depreciation for equipment and amortization for software is




                                   Management’s                                                Other Accompanying
66      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                               Information
                                                                                                                                Appendix
                                                                         F I NAN C I AL S E C T I ON




computed on a straight-line basis using a 5-year life. Leasehold   ■■   Contingent liabilities,
improvements are amortized over the remaining life of the
                                                                   ■■   Deposit funds,
lease. The Commission’s assets are valued net of accumulated
depreciation or amortization.                                      ■■   Deferred lease liabilities, and

                                                                   ■■   Advances received for reimbursable services yet
H. Deferred Costs                                                       to be provided.

The Commission has received lease incentives, Tenant
                                                                   K. Accounts Payable
Improvement Allowances (TIA), from the landlords on its
operating leases. These allowances can be used for construc­       Accounts payable consists primarily of contracts for goods or
tion, asset purchases, or rent expense, and are classified as      services, such as operating leases, leasehold improvements,
deferred costs on the balance sheets. These costs are real­        software development, information technology, telecommu­
located either to leasehold improvements, equipment, or            nications, and consulting and support services.
expensed when used for rent. The TIA is also amortized with
the deferred lease liability over the life of the lease.           L. Accrued Payroll and Benefits and
                                                                   Annual Leave Liability
I. Prepayments                                                     The accrued payroll liability represents amounts for salaries
Payments to federal and non-federal sources in advance of the      and benefits owed for the time since the payroll was last paid
receipt of goods and services are recorded as prepayments and      through the end of the reporting period. The annual leave
recognized as expenses when the related goods and services         liability is the amount owed employees for unused annual
are received. Intragovernmental prepayments reported on            leave as of the end of the reporting period. At the end of each
the Balance Sheet were made primarily to the Department            quarter, the balance in the accrued annual leave account is
of Transportation (DOT) for transit subsidy services.              adjusted to reflect current balances and pay rates. Sick leave
Prepayments to the public were primarily for software main­        and other types of non-vested leave are expensed as taken.
tenance and subscription services.
                                                                   The agency’s employees participate in the Civil Service
                                                                   Retirement System (CSRS) or the Federal Employees’
J. Liabilities                                                     Retirement System (FERS). On January 1, 1987, FERS went
The CFTC’s liabilities consist of actual and estimated amounts     into effect pursuant to Public Law 99-335. Most employees
that are likely to be paid as a result of transactions covered     hired after December 31, 1983, are automatically covered by
by budgetary resources for which Congress has appropriated         FERS and Social Security. Employees hired prior to January 1,
funds or funding, or are otherwise available from reimburs­        1984, could elect to either join FERS and Social Security or
able transactions to pay amounts due.                              remain in CSRS.

Liabilities include those covered by budgetary resources in        For employees under FERS, the CFTC contributes an amount
existing legislation and those not yet covered by budgetary        equal to one percent of the employee’s basic pay to the tax
resources. The CFTC liabilities not covered by budgetary           deferred Thrift Savings Plan and matches employee contribu­
resources include:                                                 tions up to an additional four percent of pay. FERS and CSRS

■■   Intragovernmental Federal Employees Compensation              employees can contribute a portion of their gross earnings to

     Act (FECA) liabilities,                                       the plan up to IRS limits; however, CSRS employees receive no
                                                                   matching agency contribution.
■■   Annual leave benefits which will be funded by annual
     appropriations as leave is taken,                             M. Leases
■■   Actuarial FECA liabilities,                                   The CFTC does not have any capital lease liabilities. The
■■   Custodial liabilities for custodial revenue transferred to    operating leases consist of commercial property leases for the
     Treasury at fiscal yearend,                                   CFTC’s headquarters and regional offices. Lease expenses are
                                                                   recognized on a straight-line basis.



     Management’s                                              Other Accompanying
     Discussion & Analysis
                                      Financial Section
                                                               Information
                                                                                             Appendix             CFTC        67
N. Deposit Funds                                                     ■■   Reimbursement from non-federal sources for registration
                                                                          fees to cover the cost of expenses related to the CFTC’s
Deposit funds are expenditure accounts used to record monies
                                                                          annual International Regulators Conference.
that do not belong to the Federal government. They are held
awaiting distribution based on a legal determination or inves­
                                                                     Q. Net Cost of Operations
tigation. The CFTC Deposit Fund is used to collect and later
distribute collections of monetary awards to the appropriate         Net cost of operations is the difference between the CFTC’s
victims as restitution. The cash collections recorded in this        expenses and its earned revenue. The presentation of program
fund are offset by a Deposit Fund liability. Activities in this      results by strategic goals is based on the CFTC’s current Strategic
fund are not fiduciary in nature because they are not legally        Plan established pursuant to the Government Performance
enforceable against the government.                                  and Results Act of 1993. The Commission implemented a
                                                                     new strategic plan in FY 2011. The FY 2010 net costs have
O. Net Position                                                      been reclassified from four to five strategic goals to enhance
                                                                     comparability. (Note 14)
Net position consists of unexpended appropriations and
cumulative results of operations. Unexpended appropriations          The mission statement of the CFTC is to protect market users
are appropriations that have not yet been used to acquire            and the public from fraud, manipulation, and abusive prac­
goods and services or provide benefits. Appropriations are           tices related to the sale of commodity and financial futures
considered expended, or used, when goods and services have           and options, and to foster open, competitive, and financially
been acquired by the CFTC or benefits have been provided             sound futures and option markets. The mission is accom­
using the appropriation authority, regardless of whether             plished through five strategic goals, each focusing on a vital
monies have been paid or payables for the goods, services, or        area of regulatory responsibility:
benefits have been established.
                                                                     ■■   Protect the public and market participants by ensuring
Cumulative results of operations represent the excess of
                                                                          market integrity; promoting transparency, competition,
budgetary or other financing sources over expenses since
                                                                          and fairness; and lowering risk in the system,
inception. Cumulative results of operations are derived from
the net effect of capitalized assets, expenses, exchange revenue,    ■■   Protect the public and market participants by ensuring
and unfunded liabilities.                                                 the financial integrity of derivatives transactions, miti­
                                                                          gation of systemic risk, and the fitness and soundness
P. Revenues                                                               of intermediaries and other registrants,

The CFTC receives reimbursement and earns revenue for the
                                                                     ■■   Protect the public and market participants through a
following activities:
                                                                          robust enforcement program,

■■   Reimbursement for travel, subsistence, and related              ■■   Enhance integrity of U.S. markets by engaging in cross-
     expenses from non-federal sources for attendance at                  border cooperation, promoting strong international
     meetings or similar functions that an employee has                   regulatory standards, and encouraging ongoing conver­
     been authorized to attend in an official capacity on                 gence of laws and regulation worldwide, and
     behalf of the Commission.
                                                                     ■■   Promote Commission excellence through executive
■■   Reimbursement for Intergovernmental Personnel Act                    direction and leadership, organizational and individual
     Mobility Program assignments from state and local                    performance management, and effective management
     governments, institutions of higher education, and                   of resources.
     other eligible organizations for basic pay, supplemental
     pay, fringe benefits, and travel and relocation expenses.




                                   Management’s                                                 Other Accompanying
68      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                                Information
                                                                                                                                Appendix
                                                                         F I NAN C I AL S E C T I ON




R. Custodial Activity                                              T. Reconciliation of Net Obligations and Net Cost
                                                                   of Operations
The CFTC collects penalties and fines levied against firms for
violation of laws as described in the Commodity Exchange Act       In accordance with OMB Circular No. A-136, the Commission
as codified at 7 U.S.C. § 1, et seq, and the Commodities Futures   reconciles its change in budgetary obligations with its net cost
Modernization Act of 2000, Appendix E of P.L. 106-554, 114         of operations.
Stat. 2763. Unpaid fines, penalties and accrued interest are
reported as custodial receivables, with an associated custo­       U. Earmarked Funds
dial liability. The receivables and the liability are reduced by
                                                                   The Commission’s Customer Protection Fund (CPF) is
amounts determined to be uncollectible. Revenues earned
                                                                   earmarked to operate a whistleblower program and support
and the losses from bad debts are reported to Treasury.
                                                                   customer education initiatives. See Note 1.A. for a description
Collections made by the CFTC during the year are deposited         of the purpose of the CPF and its authority to use revenues and
and reported into designated Treasury miscellaneous receipt        other financing sources. Deposits into the CPF are credited
accounts for:                                                      from monetary sanctions collected by the Commission in
                                                                   a covered judicial or administrative action where the full
■■   Registration and filing fees,                                 judgment is in excess of $1,000,000 and the collection is

■■   Fines, penalties and forfeitures, and                         not otherwise distributed to victims of a violation of the
                                                                   Dodd-Frank Act or the rules and regulations underlying such
■■   General proprietary receipts.
                                                                   action, unless the balance of the CPF at the time the monetary
At fiscal year-end, custodial collections made by the              judgment is collected, exceeds $100 million. No new legisla­
CFTC are either returned to Treasury or when determined            tion was enacted as of September 30, 2011 that significantly
eligible, transferred to the Customer Protection Fund. The         changed the purpose of the earmarked fund or redirected a
CFTC does not retain any amount for custodial activities           material portion of the accumulated balance.
including reimbursement of the cost of collection.


S. Use of Management Estimates

The preparation of the accompanying financial statements in
accordance with accounting principles generally accepted in
the United States of America requires management to make
certain estimates and assumptions that directly affect the
results of reported assets, liabilities, revenues, and expenses.
Actual results could differ from these estimates.




     Management’s                                              Other Accompanying
     Discussion & Analysis
                                     Financial Section
                                                               Information
                                                                                             Appendix              CFTC        69
Note 2. Fund Balance with Treasury

A. Reconciliation to Treasury
                                                                  is controlled by quarterly apportionments made by OMB.
There are no differences between the fund balances reflected      Work performed under reimbursable agreements is initially
in the CFTC Balance Sheets and the balances in the Treasury       financed by the annual appropriation and is subsequently
accounts.                                                         reimbursed. Collections of fines and penalties are distrib­
                                                                  uted to harmed investors, returned to Treasury, or when
B. Fund Balance with Treasury                                     eligible, transferred to the Customer Protection Fund.

Fund Balance with Treasury consists of entity assets such as      Fund Balance with Treasury at September 30, 2011 and 2010
appropriations, reimbursements for services rendered, and         consisted of the following:
collections of fines and penalties. Obligation of these funds


                                                                                                      2011               2010
  Appropriated Funds                                                                      $	    58,014,096      $	   44,299,672
  	   Customer Protection Fund                                                                  23,755,000      	             –
  	   Deposit Fund                                                                                   16,621             22,226

  Total Fund Balance with Treasury                                                        $	    81,785,717      $	   44,321,898



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2011
and 2010 consisted of the following:

                                                                                                      2011               2010
  Appropriated Funds
  Unobligated Fund Balance
  	   Available                                                                           $	     9,880,057      $	     460,075
  	   Unavailable                                                                               27,426,114            2,474,355
  Obligated Balance Not Yet Disbursed                                                           44,462,925           41,365,242
  Total Appropriated Funds                                                                      81,769,096           44,299,672
  Deposit Fund                                                                                       16,621             22,226

  Total Fund Balance with Treasury                                                        $	    81,785,717      $	   44,321,898




Note 3. Accounts Receivable
Accounts receivable consist of amounts owed the CFTC by           Custodial receivables (non-entity assets) are those for which
other Federal agencies and the public. Accounts receivable are    fines and penalties have been assessed and levied against
valued at their net collectable values. Non-custodial accounts    businesses or individuals for violations of the Commodity
receivable are primarily for overpayments of expenses to other    Exchange Act (CEA) or Commission regulations. Violators
agencies, or vendors, and repayment of employee benefits.         may be subject to a variety of sanctions including fines,
Historical experience has indicated that most of the non-         injunctive orders, bars or suspensions, rescissions of illegal
custodial receivables are collectible and that there are no       contracts, disgorgements, and restitutions to customers.
material uncollectible amounts.




                                  Management’s                                             Other Accompanying
70     CFTC                       Discussion & Analysis
                                                                 Financial Section
                                                                                           Information
                                                                                                                         Appendix
                                                                            F I NAN C I AL S E C T I ON




Historical experience has indicated that a high percentage of         analysis of outstanding balances. Accounts are re-estimated
custodial receivables prove uncollectible. The Commission             quarterly based on account reviews and the agency determi­
considers all custodial receivables to be 100% uncollect­             nation that changes to the net realizable value are needed.
ible unless deemed otherwise. An allowance for uncollect­
ible accounts has been established and included in accounts           Accounts receivable, as of September 30, 2011 and 2010,
receivable on the balance sheets. The allowance is based on           consisted of the following:
past experience in the collection of accounts receivable and

                                                                                                               2011                      2010
  Custodial Receivables, Net:
  	    Civil Monetary Penalty Interest                                                         $	          776,139       $	           519,602
  	    Civil Monetary Penalties, Fines, and Administrative Fees                                      463,508,290                  192,490,613
  	    Less: Allowance for Loss on Interest                                                                (776,121)     	            (519,602)
  	    Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                        (462,710,547)        	        (192,219,935)
  Registration and Filing Fees                                                                            1,776,412                  2,049,256

  Net Custodial RECEIVABLES                                                                    $	         2,574,173      $	          2,319,934

  Other Accounts Receivable                                                                    	              59,226     	               4,836

  Total ACCOUNTS RECEIVABLE, NET                                                               $	         2,633,399      $	          2,324,770



Note 4. General Property, Plant and Equipment
Equipment and information technology (IT) assets are capi­            Depreciation for equipment and software is computed on
talized annually if they have useful lives of at least two years      a straight-line basis using a 5-year life. Leasehold improve­
and an individual value of $25,000 or more. Bulk or aggre­            ments are amortized over the remaining life of the lease.
gate purchases are capitalized when the individual useful             Property, Plant and Equipment as of September 30, 2011 and
lives are at least two years and a value of $25,000 or more.          2010 consisted of the following:


  2011                                                                                                   Accumulated
                                                                                                         Amortization/              Net Book
  Major Class                            Service Life and Method                        Cost             Depreciation                Value

  Equipment                              5 Years/Straight Line                     $	23,845,759      $	 (7,582,852)           $	16,262,907
  IT Software                            5 Years/Straight Line                     	 10,061,707      	 (4,942,862)            	     5,118,845
  Software in Development - Cost         Not Applicable                            	   3,513,454     	             –          	     3,513,454
  Leasehold Improvements                 Remaining Life of Lease/Straight Line     	 15,345,533      	 (1,427,205)            	 13,918,328
  Construction In Progress               Not Applicable                            	   3,533,361     	             –          	     3,533,361

                                                                                   $	56,299,814      $	(13,952,919)           $	42,346,895


  2010                                                                                                   Accumulated
                                                                                                         Amortization/              Net Book
  Major Class                            Service Life and Method                        Cost             Depreciation                Value

  Equipment                              5 Years/Straight Line                     $	16,216,141      $	 (3,676,813)           $	12,539,329
  IT Software                            5 Years/Straight Line                         7,942,333          (3,230,165)               4,712,168
  Software in Development - Cost         Not Applicable                                1,778,364     	             –                1,778,364
  Leasehold Improvements                 Remaining Life of Lease/Straight Line         6,043,344           (653,766)                5,389,577
  Construction In Progress               Not Applicable                                  784,349     	             –                  784,349

                                                                                   $	32,764,531      $	 (7,560,744)           $	25,203,787




      Management’s                                                Other Accompanying
      Discussion & Analysis
                                    Financial Section
                                                                  Information
                                                                                                   Appendix                   CFTC           71
Note 5. Deferred Costs
                                                                     The Commission received approximately $6.7 million and
The Commission receives Tenant Improvement Allowance                 $6.6 million in TIA for the years ended September 30, 2011
(TIA) from its landlords. These allowances are used to cover         and 2010, respectively. Of the total $13.3 million allowance
the costs of building renovations, asset purchases, or rent          received, $6.5 million was used to fund leasehold improve­
expenses. The TIA is initially recorded as deferred costs on the     ments, and an additional $500 thousand was used to cover
balance sheet and is amortized with the deferred lease liability     rental payments in FY 2011. The remaining, unused balance
over the life of the lease.                                          of $6.3 million is reflected as deferred costs on the balance
                                                                     sheet.

  Deferred Costs (TIA)                                                                                      2011               2010

  Beginning Balance                                                                          $	       6,303,367       $	           –
  TIA received                                                                               	        6,701,194       	    6,629,880
  TIA used                                                                                   	       (6,749,688)      	     (326,513)

  Balance as of September 30                                                                 $	       6,254,873       $	   6,303,367



Note 6. Liabilities Not Covered by Budgetary Resources
As of September 30, 2011 and 2010, the following liabilities
were not covered by budgetary resources:

                                                                                                            2011               2010

  Intragovernmental –­ FECA Liabilities                                                      $	            91,175     $	       45,012
  Annual Leave                                                                                         8,117,663            7,624,369
  Actuarial FECA Liabilities                                                                              437,337            211,789
  Custodial Liabilities                                                                                2,574,173            2,319,934
  Deposit Fund Liabilities                                                                                 57,127              22,226
  Deferred Lease Liabilities                                                                          21,974,782           12,174,352
  Other                                                                                                    19,649               7,226

  Total Liabilities Not Covered by Budgetary Resources                                       $	       33,271,906      $	   22,404,908




Note 7. Retirement Plans and Other Employee Benefits

The CFTC imputes costs and the related financing sources for         Full costs include pension and ORB contributions paid out
its share of retirement benefits accruing to its past and present    of the CFTC’s appropriations and costs financed by OPM.
employees that are in excess of the amount of contributions          The amount financed by OPM is recognized as an imputed
from the CFTC and its employees, which are mandated by law.          financing source. This amount was $6,589,475 for the year
The Office of Personnel Management (OPM), which admin­               ended September 30, 2011 and $7,811,728 for the year ended
isters federal civilian retirement programs, provides the cost       September 30, 2010. Reporting amounts such as plan assets,
information to the CFTC. The CFTC recognizes the full cost           accumulated plan benefits, or unfunded liabilities, if any, is
of providing future pension and Other Retirement Benefits            the responsibility of OPM.
(ORB) for current employees as required by Statement of
Federal Financial Accounting Standards (SFFAS) No. 5,                Liabilities for future pension payments and other future
“Accounting for Liabilities of the Federal Government”.              payments for retired employees who participate in the
                                                                     Federal Employees Health Benefits Program and the Federal




                                   Management’s                                                  Other Accompanying
72      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                                 Information
                                                                                                                               Appendix
                                                                           F I NAN C I AL S E C T I ON




Employees Group Life Insurance Program are reported by               As of September 30, 2011, future estimated minimum lease
OPM rather than CFTC.                                                payments are as follows:

                                                                        Fiscal Year                                      Dollars
Note 8. Actuarial FECA Liabilities                                      2012                                       $	 17,040,876

FECA provides income and medical cost protections to covered            2013                                           16,179,500

federal civilian employees injured on the job, to employees             2014                                           16,508,689

who have incurred work-related occupational diseases and                2015                                           16,652,592

to beneficiaries of employees whose deaths are attributable             2016                                           17,275,726

to job-related injuries or occupational diseases. The FECA              2017 and thereafter                          165,205,706
program is administered by the U.S. Department of Labor                 Total Future Minimum Lease Payments        $	 248,863,089
(DOL), which pays valid claims against the CFTC and subse­              Add: Amount representing estimated
                                                                        executory costs (taxes, maintenance,
quently seeks reimbursement from the CFTC for these paid
                                                                        and insurance)                                 37,526,229
claims. Accrued FECA liabilities represent amounts due to
DOL for claims paid on behalf of the agency. Accrued FECA               Total minimum lease
                                                                        payments, including                        $	 286,389,318
liabilities at September 30, 2011 and September 30, 2010 were           estimated executory costs
$91,175 and $45,012, respectively.
                                                                     Lease expense is recognized on a straight-line basis because
Actuarial FECA liability represents the liability for future
                                                                     lease payment amounts vary, and in some cases, CFTC receives
workers compensation (FWC) benefits, which includes the
                                                                     periods of up-front free rent, or incentive contributions
expected liability for death, disability, medical, and miscel­
                                                                     (TIA) paid by the landlord. As of September 30, 2011, the
laneous cost for approved cases. The liability is determined
                                                                     Commission had received $13,331,074 in incentive awards
using a formula provided by DOL annually as of September
                                                                     for the renovation of space in Washington D.C., Chicago, and
30th using a method that utilizes historical benefits payment
                                                                     Kansas City. A deferred lease liability representing expense
patterns related to a specific incurred period to predict the
                                                                     amounts in excess of payments to date has been recorded. The
ultimate payments related to that period.            The projected
                                                                     deferred lease liabilities at September 30, 2011 and September
annual benefits payments are discounted to present value
                                                                     30, 2010 were $21,974,782 and $12,174,352 respectively.
using OMB’s economic assumptions for ten-year Treasury
notes and bonds. To provide more specifically for effects
of inflation on the liability for FWC benefits, wage inflation
                                                                     Note 10. Contingent Liabilities
factors (Consumer Price Index-Medical) are applied to the            The CFTC records commitments and contingent liabilities
calculation of projected future benefits. These factors are also     for legal cases in which payment has been deemed probable
used to adjust historical payments so benefits are stated in         and for which the amount of potential liability has been esti­
current-year constant dollars. Actuarial FECA liabilities at         mated, including judgments that have been issued against
September 30, 2011 and September 30, 2010 were $437,337              the agency and which have been appealed. Additionally, the
and $211,789, respectively.                                          Commission discloses legal matters in which an unfavorable
                                                                     outcome is reasonably possible. In FY 2011, the Commission
Note 9. Leases                                                       was involved in two civil matters, which it believes the chance
                                                                     of an unfavorable outcome to be reasonably possible. The
The CFTC leases office space in publicly owned buildings for         potential losses in these cases are estimated to be between
its locations in Washington D.C., Chicago, New York, and             $150,000 and $775,000 plus attorney fees.
Kansas City. The lease contracts for publicly owned buildings
are operating leases. The CFTC has no real property. Future
estimated minimum lease payments are not accrued as liabili­
ties and are expensed on a straight-line basis.




     Management’s                                                Other Accompanying
     Discussion & Analysis
                                     Financial Section
                                                                 Information
                                                                                                Appendix            CFTC        73
Note 11. Undelivered Orders                                           Note 14. Intra-governmental Cost
                                                                      and Exchange Revenue by Goal
The amount of budgetary resources obligated for undelivered
orders as of September 30, 2011 and 2010 consisted of the             As required by the Government Performance and Results Act
following:                                                            of 1993, the agency’s reporting has been aligned with the
                                                                      following major goals presented in the 2007 – 2012 CFTC
                                      2011                 2010
                                                                      Strategic Plan.
  Undelivered Orders         $	 31,133,527       $	 27,521,399

                                                                           1.	    Protect the public and market participants by
The amount of undelivered orders represents the value of                          ensuring market integrity; promoting transpar­
unpaid and paid obligations recorded during the fiscal year,                      ency, competition, and fairness; and lowering risk
upward adjustments of obligations that were originally                            in the system.
recorded in a prior fiscal year, and recoveries resulting from
                                                                           2.	    Protect the public and market participants by
downward adjustments of obligations that were originally
                                                                                  ensuring the financial integrity of derivatives
recorded in a prior fiscal year.
                                                                                  transactions, mitigation of systemic risk, and the
                                                                                  fitness and soundness of intermediaries and other
Note 12. Apportionment Categories                                                 registrants.
of Obligations Incurred
                                                                           3.	    Protect the public and market participants through
Obligations incurred and reported in the Statements of                            a robust enforcement program.
Budgetary Resources in FY 2011 and FY 2010 consisted of the
                                                                           4.	    Enhance integrity of U.S. markets by engaging
following:
                                                                                  in cross-border cooperation, promoting strong
                                       2011                2010                   international regulatory standards, and encour­
  Direct Obligations,                                                             aging ongoing convergence of laws and regulation
                              $	 192,773,375     $	 168,760,472
  Category A                                                                      worldwide.
  Reimbursable                                                             5.	    Promote Commission excellence through execu­
                                      77,156               58,670
  Obligations, Category A
                                                                                  tive direction and leadership, organizational and
  Total Obligations                                                               individual performance management, and effec­
                              $	 192,850,531     $	 168,819,142
  Incurred
                                                                                  tive management of resources.
                                                                      The Net Cost of Operations is derived from transactions
Note 13. Explanation of Differences                                   between the Commission and public entities, as well as with
between the Statement of Budgetary                                    other federal agencies. The details of the intra-governmental
Resources and Budget of the United States                             costs and revenues, as well as those with the public, are as
Government                                                            follows:

The CFTC had no material differences between the amounts
reported in the Statement of Budgetary Resources and the
actual amounts reported in the Budget of the U.S. Government
for FY 2010. The Budget of the U.S. Government with actual
numbers for FY 2011 has not yet been published. The expected
publish date is February 2012. A copy of the Budget can be
obtained from OMB’s Internet site at http://www.whitehouse.
gov/omb/.




                                   Management’s                                                    Other Accompanying
74      CFTC                       Discussion & Analysis
                                                                    Financial Section
                                                                                                   Information
                                                                                                                            Appendix
                                                              F I NAN C I AL S E C T I ON



                                                                                   2011                 2010
Goal 1: Protect the public and market participants by ensuring market integrity;
promoting transparency, competition, and fairness; and lowering risk in the system
Intragovernmental Gross Costs                                            $	     8,543,266     $	     7,945,685
Less: Earned Revenue                                                     $	       (18,783)    $	        (9,517)
Intragovernmental Net Cost of Operations                                 $	     8,524,483     $	     7,936,168
Gross Costs with the Public                                              $	    39,870,011     $	    35,244,828
Less: Earned Revenue                                                     $	        (4,107)    $	        (8,784)
Net Cost of Operations with the Public                                   $	    39,865,904     $	    35,236,044
Total Net Cost of Operations – Goal 1                                    $	    48,390,387     $	    43,172,212

Goal 2: Protect the public and market participants by ensuring the financial
integrity of derivatives transactions, mitigation of systemic risk, and the
fitness and soundness of intermediaries and other registrants
Intragovernmental Gross Costs                                            $	     7,715,430     $	     7,192,755
Less: Earned Revenue                                                     $	       (16,963)    $	        (8,615)
Intragovernmental Net Cost of Operations                                 $	     7,698,467     $	     7,184,140
Gross Costs with the Public                                              $	    36,006,638     $	    31,905,043
Less: Earned Revenue                                                     $	        (3,709)    $	        (7,952)
Net Cost of Operations with the Public                                   $	    36,002,929     $	    31,897,091
Total Net Cost of Operations – Goal 2                                    $	    43,701,396     $	    39,081,231

Goal 3: Protect the public and market participants through
a robust enforcement program
Intragovernmental Gross Costs                                            $	    10,794,979     $	    10,104,665
Less: Earned Revenue                                                     $	       (23,734)    $	       (12,102)
Intragovernmental Net Cost of Operations                                 $	    10,771,245     $	    10,092,563
Gross Costs with the Public                                              $	    50,378,386     $	    44,821,460
Less: Earned Revenue                                                     $	        (5,189)    $	       (11,172)
Net Cost of Operations with the Public                                   $	    50,373,197     $	    44,810,288
Total Net Cost of Operations – Goal 3                                    $	    61,144,442     $	    54,902,851

Goal 4: Enhance integrity of US markets by engaging in cross-border cooperation,
promoting strong international regulatory standards, and encouraging ongoing
convergence of laws and regulation worldwide
Intragovernmental Gross Costs                                            $	     1,490,105     $	     1,403,556
Less: Earned Revenue                                                     $	        (3,276)    $	        (1,681)
Intragovernmental Net Cost of Operations                                 $	     1,486,829     $	     1,401,875
Gross Costs with the Public                                              $	     6,954,071     $	     6,088,451
Less: Earned Revenue                                                     $	          (716)    $	        (1,494)
Net Cost of Operations with the Public                                   $	     6,953,355     $	     6,086,957
Total Net Cost of Operations – Goal 4                                    $	     8,440,184     $	     7,488,832

Goal 5: Promote Commission excellence through executive direction and leadership,
organizational and individual performance management, and effective management
of resources
Intragovernmental Gross Costs                                            $	     4,569,654     $	     4,568,730
Less: Earned Revenue                                                     $	       (10,047)    $	        (5,472)
Intragovernmental Net Cost of Operations                                 $	     4,559,607     $	     4,563,258
Gross Costs with the Public                                              $	    21,325,820     $	    20,265,604
Less: Earned Revenue                                                     $	        (2,196)    $	        (5,051)
Net Cost of Operations with the Public                                   $	    21,323,624     $	    20,260,553
Total Net Cost of Operations – Goal 5                                    $	    25,883,231     $	    24,823,811

Net Cost of Operations                                                   $	   187,559,640     $	   169,468,937


  Management’s                                      Other Accompanying
  Discussion & Analysis
                                Financial Section
                                                    Information
                                                                                   Appendix        CFTC      75
Note 15. Reconciliation of Net Obligations and Net Cost of Operations
The schedule presented in this footnote reconciles the net obligations with the Net Cost of Operations. Resources Used to
Finance Activities reflects the budgetary resources obligated and other resources used to finance the activities of the agency.
Resources Used to Finance Items Not Part of the Net Cost of Operations adjusts total resources used to finance the activities of
the entity to account for items that were included in net obligations and other resources but were not part of the Net Cost of
Operations. Components Requiring or Generating Resources in Future Periods identifies items that are recognized as a compo­
nent of the net cost of operations for the period but the budgetary resources (and related obligation) will not be provided (or
incurred) until a subsequent period. Components Not Requiring or Generating Resources includes items recognized as part
of the net cost of operations for the period but will not generate or require the use of resources. Net Cost of Operations agrees
with the Net Cost of Operations as reported on the Statements of Net Cost.

                                                                                                         2011                2010

  Resources Used to Finance Activities
  Budgetary Resources Obligated
      Obligations Incurred                                                                    $	192,850,531       $	168,819,142
      Less: Spending Authority from Offsetting Collections and Recoveries                          (25,532,215)          (999,139)
  Obligations Net of Offsetting Collections and Recoveries                                     167,318,316            167,820,003
      Less: Offsetting Receipts                                                                         (2,219)             (2,985)
      Net Obligations After Offsetting Receipts                                                167,316,097            167,817,018

  Other Resources
      Transfers In from from Disgorgements, Fines and Penalties                                    23,755,000     	               –
      Imputed Financing from Cost Absorbed by Others                                                6,589,475           7,811,728
  Total Resources Used to Finance Activities                                                  $	197,660,572       $	175,628,746

  Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in Budgetary Resources Obligated for Goods, Services and Benefits
                                                                                              $	 (3,560,305)      $	    4,801,033
      Ordered but not yet Provided before Adjustments
      Offsetting Receipts                                                                                2,219               2,985
      Resources that Fund the Acquisition of Fixed Assets                                          (16,997,172)        (18,589,398)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations                $	 (20,555,258)     $	 (13,785,380)

  Components of the Net Cost of Operations That Will
  not Require or Generate Resources in the Current Year
      Increase in Unfunded Liabilities                                                                765,005           1,245,643
  Total Components of Net Cost of Operations that Will Require or Generate
                                                                                              $	      765,005     $	    1,245,643
   Resources in Future Periods

  Components Not Requiring or Generating Resources
      Depreciation and Amortization                                                                 9,542,857           6,324,519
      (Gain)/Loss on Disposal                                                                         160,131              52,635
      Other                                                                                            (13,667)              2,774
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                              $	    9,689,321     $	    6,379,928
   Resources
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                              $	 10,454,326       $	    7,625,571
   Resources in the Current Year

  Net Cost of Operations                                                                      $	187,559,640       $	169,468,937




                                   Management’s                                            Other Accompanying
76     CFTC                        Discussion & Analysis
                                                                  Financial Section
                                                                                           Information
                                                                                                                             Appendix
                                                                    F I NAN C I AL S E C T I ON




Note 16 Earmarked Funds
Earmarked funds arise from disgorgement and penalty           At the end of FY 2011, the fund had a balance of $23,755,000.
collections and are transferred to the Customer Protection    During FY 2011, $18 million was recovered from the
Fund (CPF), established by the Dodd-Frank Act. The collec­    Treasury Department for eligible collections returned at
tions are transferred from the custodial receipt account if   the end of FY 2010 and $5,755,000 was transferred from
they are found to be eligible before the end of each fiscal   eligible collections in FY 2011.
year. In cases where the collection has been returned to
the Treasury Department, the Commission can recover the
funds directly from Treasury. The collections will fund the
                                                              Note 17 Subsequent Event
Commission’s whistleblower awards program and customer        The Commission negotiated a new lease agreement with
education initiatives.                                        the New York landlord effective October 19, 2011. The
                                                              new lease expands the office space and extends the lease
The Dodd-Frank Act provides that whistleblower awards
                                                              through FY 2022. CFTC received $2.86 million in tenant
shall be paid under regulations prescribed by the
                                                              improvement allowance from the New York landlord.
Commission. An important prerequisite to implementa­
tion of the whistleblower awards program is the issuance
of rules and regulations describing its scope and proce­
dures. The Commission issued final rules implementing
the Act on August 25, 2011. These rules became effective on
October 24, 2011. The Commission plans to establish the
Whistleblower Office in FY 2012.




    Management’s                                          Other Accompanying
    Discussion & Analysis
                                   Financial Section
                                                          Information
                                                                                       Appendix             CFTC       77
     Report of the Independent Auditors

                                         KPMG LLP
                                         2001 M Street, NW
                                         Washington, DC 20036-3389



                                                   Independent Auditors’ Report


        Chairman and Inspector General of the
        U.S. Commodity Futures Trading Commission:

        We have audited the accompanying balance sheets of the Commodity Futures Trading Commission
        (CFTC) as of September 30, 2011 and 2010, and the related statements of net cost, changes in net position,
        budgetary resources, and custodial activity (hereinafter referred to as “financial statements”) for the years
        then ended. The objective of our audits was to express an opinion on the fair presentation of these financial
        statements. In connection with our fiscal year 2011 audit, we also considered CFTC’s internal control over
        financial reporting and tested CFTC’s compliance with certain provisions of applicable laws, regulations,
        and contracts that could have a direct and material effect on these financial statements.

        Summary
        As stated in our opinion on the financial statements, we concluded that CFTC’s financial statements as of
        and for the years ended September 30, 2011 and 2010, are presented fairly, in all material respects, in
        conformity with U.S. generally accepted accounting principles.

        Our consideration of internal control over financial reporting was not designed to identify all deficiencies
        in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
        weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
        consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
        this report.

        The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
        no instances of noncompliance or other matters that are required to be reported under Government Auditing
        Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
        (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

        The following sections discuss our opinion on CFTC’s financial statements; our consideration of CFTC’s
        internal control over financial reporting; our tests of CFTC’s compliance with certain provisions of
        applicable laws, regulations, and contracts; and management’s and our responsibilities.

        Opinion on the Financial Statements
        We have audited the accompanying balance sheets of the Commodity Futures Trading Commission as of
        September 30, 2011 and 2010, and the related statements of net cost, changes in net position, budgetary
        resources, and custodial activity for the years then ended.

        In our opinion, the financial statements referred to above present fairly, in all material respects, the
        financial position of the Commodity Futures Trading Commission as of September 30, 2011 and 2010, and
        its net costs, changes in net position, budgetary resources, and custodial activity for the years then ended,
        in conformity with U.S. generally accepted accounting principles.



                                          KPMG LLP is a Delaware limited liability partnership,
                                          the U.S. member firm of KPMG International Cooperative
                                          (“KPMG International”), a Swiss entity.




                               Management’s                                                           Other Accompanying
78    CFTC                     Discussion & Analysis
                                                                                  Financial Section
                                                                                                      Information
                                                                                                                           Appendix
                                                                        F I NAN C I AL S E C T I ON




      Page 2 of 3




      The information in the Management’s Discussion and Analysis is not a required part of the financial
      statements, but is supplementary information required by U.S. generally accepted accounting principles.
      We have applied certain limited procedures, which consisted principally of inquiries of management
      regarding the methods of measurement and presentation of this information. However, we did not audit this
      information and, accordingly, we express no opinion on it.

      The information in the Other Accompanying Information section is for purposes of additional analysis and
      is not required as part of the financial statements. This information has not been subjected to auditing
      procedures and, accordingly, we express no opinion on it.

      Internal Control Over Financial Reporting
      A deficiency in internal control exists when the design or operation of a control does not allow
      management or employees, in the normal course of performing their assigned functions, to prevent, or
      detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
      of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
      the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

      Our consideration of internal control over financial reporting was for the limited purpose described in the
      Responsibilities section of this report and was not designed to identify all deficiencies in internal control
      over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
      fiscal year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that
      we consider to be material weaknesses, as defined above.

      Compliance and Other Matters
      The results of our tests of compliance as described in the Responsibilities section of this report, exclusive
      of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required
      to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

      The results of our tests of FFMIA disclosed no instances in which CFTC’s financial management systems
      did not substantially comply with the (1) Federal financial management systems requirements, (2)
      applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
      the transaction level.

                                                       *******

      Responsibilities
      Management’s Responsibilities. Management is responsible for the financial statements; establishing and
      maintaining effective internal control; and complying with laws, regulations, and contracts applicable to
      CFTC.

      Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2011 and 2010
      financial statements of CFTC based on our audits. We conducted our audits in accordance with auditing
      standards generally accepted in the United States of America; the standards applicable to financial audits
      contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
      OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
      the audits to obtain reasonable assurance about whether the financial statements are free of material
      misstatement. An audit includes consideration of internal control over financial reporting as a basis for




Management’s                                                 Other Accompanying
Discussion & Analysis
                                 Financial Section
                                                             Information
                                                                                             Appendix                CFTC   79
      Page 3 of 3




      designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
      an opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
      express no such opinion.

      An audit also includes:

      •     Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
            statements;
      •     Assessing the accounting principles used and significant estimates made by management; and
      •     Evaluating the overall financial statement presentation.
      We believe that our audits provide a reasonable basis for our opinion.

      In planning and performing our fiscal year 2011 audit, we considered CFTC’s internal control over
      financial reporting by obtaining an understanding of CFTC’s internal control, determining whether internal
      controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
      designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
      but not for the purpose of expressing an opinion on the effectiveness of CFTC’s internal control over
      financial reporting. Accordingly, we do not express an opinion on the effectiveness of CFTC’s internal
      control over financial reporting. We did not test all internal controls relevant to operating objectives as
      broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

      As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2011 financial statements are
      free of material misstatement, we performed tests of CFTC’s compliance with certain provisions of laws,
      regulations, and contracts, noncompliance with which could have a direct and material effect on the
      determination of the financial statement amounts, and certain provisions of other laws and regulations
      specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA.
      We limited our tests of compliance to the provisions described in the preceding sentence, and we did not
      test compliance with all laws, regulations, and contracts, applicable to CFTC. However, providing an
      opinion on compliance with laws, regulations, contracts, and grant agreements was not an objective of our
      audit and, accordingly, we do not express such an opinion.

                                           ______________________________

      This report is intended solely for the information and use of CFTC’s management, CFTC’s Office of
      Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
      intended to be and should not be used by anyone other than these specified parties.




      November 14, 2011




                                Management’s                                               Other Accompanying
80   CFTC                       Discussion & Analysis
                                                               Financial Section
                                                                                           Information
                                                                                                                       Appendix
Ot h e r A c c om pa n y i n g
     I n f o r m at i o n




               82	   Inspector General’s
               		    FY 2011 Assessment

               86	   Summary of Audit and
               		    Management Assurances
Inspector General’s FY 2011 Assessment
                             U.S. COMMODITY FUTURES TRADING COMMISSION
                                                    Three Lafayette Centre
                                         1155 21st Street, NW, Washington, DC 20581
                                                 Telephone: (202) 418-5110
                                                  Facsimile: (202) 418-5522



        Office of the
     Inspector General

                                                    MEMORANDUM


          TO:            Gary Gensler
                         Chairman

          FROM:          A. Roy Lavik
                         Inspector General

          DATE:          November 10, 2011

          SUBJECT:       Inspector General’s Assessment of The Most Serious Management
                         Challenges Facing the Commodity Futures Trading Commission (CFTC)

          Introduction

         The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
         performance information in a more meaningful and useful format for Congress, the President,
         and the public. The RCA requires the Inspector General to summarize the “most serious”
         management and performance challenges facing the Agency and to assess the Agency’s progress
         in addressing those challenges. This memorandum fulfills our duties under the RCA.

         In order to identify and describe the most serious management challenges, as well as the
         Agency’s progress in addressing them, we have relied on data contained in the CFTC financial
         statement audit and Annual Financial Report, representations by agency management, as well as
         our knowledge of industry trends and CFTC operations. Since Congress left the determination
         and threshold of what constitutes a most serious challenge to the discretion of the Inspector
         General, we applied the following definition in preparing this statement:

         Serious management challenges are mission critical areas or programs that have the potential for
         a perennial weakness or vulnerability that, without substantial management attention, would
         seriously impact Agency operations or strategic goals.

         This memorandum summarizes the results of the CFTC’s current financial statement audit,
         describes the Agency’s progress on last year’s management challenges, and finally discusses the
         most serious management challenges that we have identified:

             •   Implementation of the Dodd-Frank Act

             •   Human Resource Expansion and Management




                            Management’s                                          Other Accompanying
82   CFTC                   Discussion & Analysis
                                                          Financial Section
                                                                                  Information
                                                                                                            Appendix
                                                               OTHER A C C OM P ANY I NG I N F ORMAT I ON




            •    Efficient Deployment of Information Technology Resources

            •    Expanding Delivery of Customer Protection Resources and Consumer Education


       CFTC Financial Statement Audit Results

       In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
       federal entities, is required to submit to an annual independent financial statement audit by the
       Inspector General, or by an independent external auditor as determined by the Inspector General.
       The results of the Fiscal Year 2011 financial statement audit will be discussed in the Annual
       Financial Report, and the financial statement audit is expected to result in an unqualified audit
       opinion.

       CFTC’s Progress on Last Year’s Challenges

       Last year, we identified two of the most serious management challenges:

            •    Implementation of the Dodd-Frank Act; and,

            •    Human Resource Expansion and Management.

       CFTC made progress on both challenges, but due to ongoing implementation of the Dodd-Frank
       Act these challenges remain significant. Following is our statement made last year followed by
       an update.

       OIG Statement 2010

       Implementation of the Dodd-Frank Act

       On July 21, 2010, President Obama signed the Dodd-Frank Wall Street Reform and Consumer
       Protection Act (“Dodd-Frank Act” or “Dodd-Frank”), Pub. L. 111-203, 124 Stat. 1376 (2010).
       Title VII of the Dodd-Frank Act amended the Commodity Exchange Act to establish a
       comprehensive new regulatory framework for swaps and security-based swaps. In order to
       implement the Dodd-Frank Act, the Commission has identified 30 areas where rules will be
       necessary. Many of these rules will require or result in cooperative efforts with the Securities
       and Exchange Commission or other federal agencies. In addition, the Dodd-Frank Act calls for
       numerous studies and other undertakings by the Commission, some also with cooperation from
       other agencies. The Commission recognizes that many of the new rules required under Dodd-
       Frank must be adopted within 180 days. The magnitude of this undertaking under a compressed
       timeline during FY 2011 presents a serious management challenge.




                                                       2




Management’s                                         Other Accompanying
Discussion & Analysis
                              Financial Section
                                                     Information
                                                                                 Appendix           CFTC   83
      Update

      During the past year CFTC staff and Commissioners have met more than 1,000 times with
      members of the public to discuss rules proposed under Dodd-Frank, and have conducted 14
      public roundtables. Additionally, the Commission has received more than 25,000 comment
      letters pertaining to Dodd-Frank. The Commission has held 20 public meetings to vote on
      various Dodd-Frank matters, and more meetings are scheduled this year and into next year. The
      Commission has issued nearly 60 proposed rules, notices, or other requests seeking public
      comment, as well as 22 final rules, interim final rules, and exemptions, but implementation is not
      yet complete.

      In order to address the new regulatory mandates stated in the Dodd-Frank Act, the Agency has
      reorganized into 4 Divisions and 7 operating offices. Operational challenges associated with
      Dodd-Frank implementation remain, in our view, a serious management challenge.

      OIG Statement 2010

      Human Resource Expansion and Management

      The Commission’s new responsibilities under Dodd-Frank significantly increased its workload.
      By the end of Fiscal Year 2010, the Commission had on-board 687 employees, which is 58
      below the 745 FTE CFTC requested to carry out our pre-Dodd-Frank authorities. To fully
      implement the Dodd-Frank reforms, the Commission states it requires an additional 398 FTEs.
      Rather than 398, the President’s FY 2011 Budget provided for hiring only 238 additional
      positions. CFTC is requesting an additional 160 FTEs for FY 2012 to staff areas of critical need.
      However, the current budgetary limits imposed by the government-wide continuing resolution
      will significantly impact the CFTC’s ability to hire any additional employees during FY2011.
      Should Congress lift the continuing resolution, the CFTC will need to dramatically expand its
      Human Resource function to meet and manage the CFTC’s need for additional staff and training
      to address the requirements of Dodd-Frank Act. We view the possibility of a rapid and dramatic
      increase (35% staff increase in FY11) in new employees to address new rules over newly
      regulated markets, such as swaps, a significant management challenge during Fiscal Year 2011.

      Update

      During Fiscal Year 2011 the agency secured additional appropriations and staff. The CFTC’s
      2011 spending plan accommodated 717 FTEs. It is our understanding, based on the President’s
      Budget Submission, that CFTC may increase to 983 staff years – an increase of over 200 staff
      years – for FY 2012 and, accordingly, we restate Human Resource Expansion and Management
      as a serious and continuing management challenge in the coming fiscal year.




                                                      3




                           Management’s                                         Other Accompanying
84   CFTC                  Discussion & Analysis
                                                       Financial Section
                                                                                Information
                                                                                                           Appendix
                                                               OTHER A C C OM P ANY I NG I N F ORMAT I ON




       Most Serious Management Challenges for the coming year

       Two new issues that are likely to challenge CFTC management in the coming year are:

       Efficient Deployment of Information Technology Resources

       According to current data, over eighty percent of futures and options trading on the Chicago
       Mercantile Exchange are transacted electronically. We believe that expanded jurisdiction over
       swaps will increase the volume of electronic trading the Agency will monitor. As a result of this
       structural shift in futures trading (from floor based open outcry to electronic platforms), the
       CFTC has requested from Congress and received additional resources to facilitate electronic
       surveillance.

       Congress in FY 2011 authorized a minimum of $37.2 million for “the highest priority
       information technology activities of the Commission.” In response to this congressional
       directive as well as the Agency’s added responsibility over the swaps marketplace, the Agency in
       FY 2011 allocated over $42 million dollars towards technological modernization (21% of FY
       2011 appropriations). Approximately two thirds of this budgeted commitment was targeted
       towards automated data processing systems to modernize the Agency’s systems for capturing
       and processing market related data. We identify efficient deployment of information technology
       resources as a serious management challenge for the coming year.

       Expanding Delivery of Customer Protection Resources and Consumer Education

       Section of 748(g) of the Dodd-Frank Act added section 23(g) to the Commodity Exchange Act to
       establish within the Treasury of the United States a revolving fund that will be available to the
       Agency for the payment of whistleblower awards and education initiatives. The new Customer
       Protection Fund may be funded -- up to $100 million -- by civil monetary penalties collected
       through the Commission’s enforcement program that are not otherwise distributed to victims. At
       the end of FY2011 the Customer Protection Fund totaled over $23 million dollars. On October
       24, 2011, an initial Office of the Inspector General financial statement audit of the Customer
       Protection Fund resulted in an unqualified opinion on the financial statements, which is
       encouraging.

       Increasingly, the Customer Protection Fund’s resources and commitments will demand
       significant management attention. This new commitment to whistleblower protection and
       education will challenge the Agency to effectively manage decisions regarding additions to and
       awards from the CPF, develop its organizational structure, and prudently manage significant
       additional resources. We are encouraged that the agency will soon select management for the
       startup Customer Protection Fund and Consumer Education initiatives, but nevertheless we count
       the creation of this new program among the most serious management challenges facing the
       Commission in the coming year.




                                                       4




Management’s                                         Other Accompanying
Discussion & Analysis
                             Financial Section
                                                     Information
                                                                                Appendix            CFTC   85
                       Summary of Audit and
                      Management Assurances
Summary of FY 2011 Financial Statement Audit
Audit Opinion:                  Unqualified
Restatement:                    No
     Material Weakness          Beginning Balance                    New                 Resolved      Consolidated      Ending Balance
                                            0                         0                                                        0


Summary of Management Assurances
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance              New         Resolved        Consolidated     Reassessed   Ending Balance
                                            0                    0                                                              0
Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance:         Unqualified
     Material Weakness          Beginning Balance              New         Resolved        Consolidated     Reassessed   Ending Balance
                                            0                    0                                                              0
Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance:         Systems conform to financial management system requirements
     Non-Conformance            Beginning Balance              New         Resolved        Consolidated     Reassessed   Ending Balance
                                            0                    0                                                              0
Compliance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial                                     Agency                                                 Auditor
Compliance                                               Yes                                                      Yes
1. System Requirements                                                               Yes
2. Accounting Standards                                                              Yes
3. USSGL at Transaction Level                                                        Yes




                                Management’s                                                        Other Accompanying
86    CFTC                      Discussion & Analysis
                                                                     Financial Section
                                                                                                    Information
                                                                                                                               Appendix
Appendix




   88	   Glossary of Abbreviations
   		    and Acronyms
Glossary of Abbreviations and Acronyms

     The CFTC Glossary

     A Guide to the Language of the Futures Industry
     http://www.cftc.gov/ConsumerProtection/EducationCenter/CFTCGlossary/index.htm

     Because the acronyms of many words and phrases used throughout the futures industry are not readily
     available in standard references, the Commission’s Office of Public Affairs compiled a glossary to assist
     members of the public.

     This glossary is not all-inclusive, nor are general definitions intended to state or suggest the views of the
     Commission concerning the legal significance, or meaning of any word or term. Moreover, no definition is
     intended to state or suggest the Commission’s views concerning any trading strategy or economic theory.


     Glossary of Acronyms

     U.S. Federal Law

     CEA...................................Commodity Exchange Act of 1936
     Dodd Frank Act..................Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
     FARM BILL........................Food, Conservation, and Energy Act of 2008
     FECA..................................Federal Employees’ Compensation Act
     FFMIA................................Federal Financial Management Improvement Act
     FISMA................................Federal Information Security Management Act
     FMFIA................................Federal Managers’ Financial Integrity Act
     FSRIA.................................Farm Security and Rural Investment Act
     GPRA.................................Government Performance and Results Act




     CFTC Divisions and Offices

     DCR...................................Division of Clearing and Risk
     DMO..................................Division of Market Oversight
     DOE...................................Division of Enforcement
     DSIO ................................Division of Swap Dealer and Intermediary Oversight
     OCE...................................Office of the Chief Economist
     ODT...................................Office of Data and Technology
     OED...................................Office of the Executive Director
     OGC..................................Office of the General Counsel




                                    Management’s                                               Other Accompanying
88   CFTC                           Discussion & Analysis
                                                                         Financial Section
                                                                                               Information
                                                                                                                     Appendix
                                                                                 A pp e n d I x




             OIA....................................Office of International Affairs
             OIG....................................Office of the Inspector General




             U.S. Federal Departments and Agencies

             CFTC.................................U.S. Commodity Futures Trading Commission
             DOL...................................U.S. Department of Labor
             DOT...................................U.S. Department of Transportation
             FCA....................................Farm Credit Administration
             FmHA.................................Farmers Home Administration
             GAO...................................Government Accountability Office
             IRS.....................................Internal Revenue Service
             OCC..................................Office of the Comptroller of the Currency
             OMB..................................Office of Management and Budget
             OPM..................................Office of Personnel Management
             SEC....................................U.S. Securities and Exchange Commission
             USDA.................................U.S. Department of Agriculture




             Other Abbreviations

             AAC...................................Agricultural Advisory Committee
             ACF....................................Alternate Computing Facility
             AFR....................................Agency Financial Report
             AP......................................Associated Person
             APR....................................Annual Performance Report
             BIS.....................................Bank for International Settlements
             CME...................................Chicago Mercantile Exchange
             COT...................................Commitments of Traders
             CPF....................................CFTC Customer Protection Fund
             CPO...................................Commodity Pool Operator
             CSRS.................................Civil Service Retirement System
             CTA....................................Commodity Trading Advisor
             DCM..................................Designated Contract Market
             DCO..................................Derivatives Clearing Organization
             EBOT.................................Exempt Boards of Trade
             ECM...................................Exempt Commercial Market
             EEMAC..............................Energy and Environmental Markets Advisory Committee
             FASAB...............................Federal Accounting Standards Advisory Board
             FB......................................Floor Broker
             FBOT.................................Foreign Board of Trade
             FCM...................................Futures Commission Merchants
             FERS..................................Federal Employees’ Retirement System




Management’s                                                        Other Accompanying
Discussion & Analysis
                                     Financial Section
                                                                    Information
                                                                                                  Appendix   CFTC   89
            FOREX...............................Foreign Exchange Currency
            FT.......................................Floor Trader
            FTE.....................................Full-time Equivalent
            FWC..................................Future Workers Compensation
            FY......................................Fiscal Year
            GAAP.................................U.S. Generally Accepted Accounting Principles
            GAAS.................................Generally Accepted Auditing Standards
            GAGAS..............................Generally Accepted Government Auditing Standards
            GMAC................................Global Markets Advisory Committee
            IB.......................................Introducing Broker
            IOSCO...............................International Organization of Securities Commissions
            IT........................................Information Technology
            MD&A................................Management’s Discussion and Analysis
            MOU..................................Memorandum of Understanding
            NFA....................................National Futures Association
            ORB...................................Other Retirement Benefits
            OTC...................................Over-the-Counter
            RFED.................................Retail Foreign Exchange Dealer
            SD......................................Swap Dealer
            SDR...................................Swap Data Repository
            SEF....................................Swap Execution Facility
            SES....................................Senior Executive Service
            SPDC.................................Special Price Discovery Contract
            SRO...................................Self-Regulatory Organization
            SFFAS................................Statement of Federal Financial Accounting Standards
            TAC....................................Technology Advisory Committee
            TIA.....................................Tenant Improvement Allowance
            U.S.....................................United States




                      Management’s                                                  Other Accompanying
90   CFTC             Discussion & Analysis
                                                              Financial Section
                                                                                    Information
                                                                                                         Appendix
Page Photo Credits

    Clark Day Photography; Pages 1, 8, 11, 14, 18, 35, 47, 51, 58, 59, and inside back cover
    Mark Regan Photography; Page 7
    Corbis Images; Page 41
    Getty Images; Pages 3, 4, 5, 10, 12, 39, 45, 54, and 86
    USDA; Pages 9, 13, and 15
    Other Stock Images; Pages I, 3, 17, 38, 43, 57,81, and 87




                                                            Acknowledgements

                                                            This Agency Financial Report was produced with the energies
                                                            and talents of Commission staff. To these individuals, the
                                                            Office of Financial Management would like to offer our
                                                            sincerest thanks and acknowledgement.

                                                            We would also like to acknowledge the Office of the Inspector
                                                            General and KPMG LLP for the professional manner in which
                                                            they conducted the audit of the Fiscal Year 2011 Financial
                                                            Statements.

                                                            We offer our special thanks to The DesignPond, in particular
                                                            Sheri Beauregard and Michael James, for their outstanding
                                                            contribution to the design of this report.




Additional copies of the                                    Telephone: Mark Carney, 202.418.5477 or
Commodity Futures Trading Commission                        	           Lisa Malone, 202.418.5184
FY 2011 Agency Financial Report                             Fax:	   202.418.5414
are available by contacting the                             E-mail: mcarney@cftc.gov or lmalone@cftc.gov
Office of Financial Management:                             Web:    http://www.cftc.gov/About/CFTCReports/index.htm


Office of Financial Management                              The CFTC’s Strategic Plan is available on the Web at:
Commodity Futures Trading Commission                        http://www.cftc.gov/About/CFTCReports/index.htm
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581
    COMMODITY FUTURES TRADING COMMISSION
T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 • www. cftc . gov
